APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-1635
SIPCO, LLC,
APPELLANT,
V.

EMERSON ELECTRIC CO.,
APPELLEE.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600095.
(September 25, 2019)
JAMES R. BARNEY, Finnegan, Henderson, Farabow, Garrett & Dunner, LLP, Washington, DC, argued
for appellant. Also represented by KELLY LU; GREGORY J. GONSALVES, Gonsalves Law Firm, Falls
Church, VA.
DOUGLAS HALLWARD-DRIEMEIER, Ropes
& Gray LLP, Washington, DC, argued for appellee.
Also represented by JAMES RICHARD BATCHELDER, JAMES LAWRENCE DAVIS, JR., East Palo
Alto, CA.
Before O’MALLEY, REYNA, and CHEN, Circuit
Judges.

2a
Opinion for the court filed by
Circuit Judge CHEN.
Opinion concurring-in-part and dissenting-in-part
filed by Circuit Judge REYNA.
CHEN, Circuit Judge.
SIPCO, LLC (SIPCO) appeals a final written decision of the Patent Trial and Appeal Board (Board) in a
covered business method (CBM) review of its U.S. Patent No. 8,908,842 (’842 patent). After instituting CBM
review, the Board found claims 1, 7, 9, 16, and 17 of the
’842 patent ineligible for patent protection under 35
U.S.C. § 101 and unpatentable for obviousness under 35
U.S.C. § 103. SIPCO appeals these findings, as well as
the Board’s determination that the ’842 patent was subject to CBM review.
In determining that the ’842 patent qualifies for
CBM review, the Board found that the patent is not excluded from review under the statutory “technological
invention” exception. See America Invents Act (AIA) §
18(d). Under 37 C.F.R. § 42.301(b), the Board must consider “whether the claimed subject matter as a whole recites a technological feature that is novel and unobvious
over the prior art; and solves a technical problem using
a technical solution.” Applying just the second part of
this regulatory standard, the Board here found that the
patent contained no technical solution to a technical
problem.
We reverse the Board’s claim construction of “low
power transceiver” and its finding that the ’842 patent
does not satisfy the second part of the regulation defining “technological invention.” § 42.301(b). Because the
Board did not address the applicability of § 42.301(b)’s

3a
first part, we vacate and remand for consideration consistent with this opinion.
BACKGROUND
1. The ’842 Patent
The ’842 patent, based on a provisional application
filed in 1997, explains that there are a variety of circumstances in which it is desirable to communicate information from a previously unconnected, remote device to
a central location. ’842 patent at col. 1, ll. 43–45. Rather
than set up a direct communication link from the remote
device to the central location, however, the invention of
the ’842 patent sets up a two-step communication path
through a set of intermediate nodes that takes advantage of the nodes’ already-provided communications
link (e.g., a public-switched telephone network (PSTN))
to the central location. Id. at claim 1. The claimed invention completes the communication path by having the remote device communicate wirelessly to an intermediate
node. For example, a user may wish to replace the bank
and credit cards he or she carries with a remote transmitting unit, similar to an automobile remote key, that
has one or more buttons each associated with a bank or
credit card. Id. at col. 5, ll. 9–64. When the user depresses the button, the remote transmitter transmits
the user’s banking card account and PIN information to,
for example, the ATM. Id. at col. 5, ll. 43–61. The ATM
then transmits the information over, for example, a
PSTN to the central location for verification. Id. at col.
7, ll. 41–44.
In implementing this two-step system, the inventors recognized problems that arose. Id. at col. 5, l. 67 –
col. 6, l. 11. For example, contention between two or
more remote devices communicating at the same time

4a
caused more distantly located users to circumvent closer
users. Id. at col. 6, ll. 4–7. In addition, an interloper could
unlawfully intercept the electromagnetic signals carrying sensitive data. Id. at col. 6, ll. 7–11. To alleviate
these problems, the ’842 patent recites the use of a lowpower remote transmitter, which the specification explains would require the user to be in “close proximity,”
“e.g., several feet,” in order for the user to be able to use
it. Id. at col. 5, l. 67 – col. 6, l. 11.
The parties do not dispute the Board’s treatment of
claim 1 as representative. Claim 1 recites the following:
1. A device for communicating information,
the device comprising:
a low-power transceiver configured to
wirelessly transmit a signal comprising instruction data for delivery to a network of
addressable devices;
an interface circuit for communicating
with a central location; and
a controller coupled to the interface circuit
and to the low-power transceiver, the controller configured to establish a communication link between at least one device in
the network of addressable devices and
the central location using an address included in the signal, the communication
link comprising one or more devices in the
network of addressable, the controller further configured to receive one or more signals via the low-power transceiver and
communicate information contained within
the signals to the central location.

5a
Id. at claim 1. Dependent claims 3 and 4 are particularly
relevant to this appeal:
3. The device of claim 2, wherein the remote device is a [sic] associated with a
vending machine.
4. The device of claim 2, wherein the remote device is associated with an Automated Teller Machine (ATM).
Id. at claims 3, 4.
2. Board’s Institution Decision
In July 2016, Emerson Electric Co. (Emerson) filed
a petition requesting CBM review of the ’842 patent on,
inter alia, §§ 101 and 103 grounds. Emerson argued that
the challenged claims were directed to the patent-ineligible abstract idea of “establishing a communication
route between two points to relay information.” J.A.
215. According to Emerson, “[t]his concept has been
practiced for centuries in applications such as the Postal
Service, Pony Express, and telegraph, where a route is
established to relay mail or other communications from
one point to another.” Id. Emerson also argued that the
’842 patent was unpatentable for obviousness over U.S.
Patent No. 5,157,687 (Tymes). J.A. 261.
The Board instituted on both grounds. J.A. 432. In
its institution decision, the Board analyzed whether the
’842 patent qualified as a “covered business method patent” under AIA § 18(d)(1), which defines the term as “a
patent that claims a method or corresponding apparatus
for performing data processing or other operations used
in the practice, administration, or management of a financial product or service, except that the term does not
include patents for technological inventions.” The Board

6a
determined that claim 3—associating the device with a
vending machine—and claim 4—associating the device
with an ATM—recited apparatuses “used in the practice, administration, or management of a financial product or service” under § 18(d)(1). J.A. 387–89.
The Board then determined that the patent was not
drawn to a “technological invention.” The Board applied
its regulation 37 C.F.R. § 42.301(b), which provides a
two-part test for determining whether a patent is for a
“technological invention”: “whether the claimed subject
matter as a whole recites a technological feature that is
novel and unobvious over the prior art; and solves a technical problem using a technical solution.” The Board explained that both parts of the regulation must be satisfied in order to exempt the patent from CBM review.
J.A. 390. Because the Board concluded that the patent
did not provide a technical solution to a technical problem and therefore did not meet part two, the Board did
not analyze part one. J.A. 390–92.
Citing the Patent Office’s 2012 Office Patent Trial
Practice Guide, the Board focused on the features of
claim 1, as incorporated in dependent claims 3 and 4, and
determined that they are no more than generic and
known hardware elements and routine computer functions. J.A. 390–91. The Board found that “[t]he only
wireless transmission required by claims 3 and 4 is a signal from a low-power transceiver,” which the Board
noted was well-known in the art at the time of the invention. J.A. 391. The Board stated that the problem being
solved by the ’842 patent was the financial problem of
reducing the cost of having to dispatch service personnel
to fix these machines frequently, rather than a technical
problem. J.A. 392. Ultimately finding that the features
from claim 1 were not drawn to a technical solution to a

7a
technical problem and, therefore, not drawn to a “technological invention,” the Board determined that the ’842
patent was subject to CBM review. J.A. 392–93.
The Board construed, among other terms, “lowpower transceiver.” J.A. 396–99. Emerson did not provide a construction in its petition; SIPCO proposed a
construction that specified that the transceiver “transmits and receives signals having a limited transmission
range.” J.A. 397. SIPCO supported its proposed construction with citations to the patent and an exhibit
showing that the FCC discusses “low-power” transceivers in a manner that limits their range to “a few meters.”
J.A. 397–98. The Board disagreed with SIPCO’s proposed construction, finding that the term “low-power” as
used in claim 1 did not necessarily require that the device transmit and receive signals only within a “limited
transmission range.” J.A. 398.
The Board also declined to limit the term based on
the discussion of low-power transmitters found in columns five and six of the specification, because that discussion related to “extremely low-power transmitters”
rather than “low-power transceiver[s].” J.A. 398–99.
The Board dismissed the FCC document cited by SIPCO
because the sentence discussing low-power transmitters
described the distance between people and consumer
products, not the low-power transmitters’ transmission
range. J.A. 399 (quoting J.A. 2791 (“At any time of day,
most people are within a few meters of consumer products that use low-power, non-licensed transmitters.”)).
The Board ultimately agreed that the construction
should “encompass” a device that “transmits and receives signals having a limited transmission range” but
declined to limit its construction to that phrase. Id.

8a
3. Board’s Final Written Decision
The Board’s final written decision reiterated its
analysis with respect to whether the ’842 patent was
subject to CBM review. J.A. 6–20. The Board also explained that after institution, SIPCO filed a statutory
disclaimer of claims 3 and 4 under 35 U.S.C. § 253 and
argued that the disclaimed claims “cannot form the basis
for a ruling that the ’842 patent is a [CBM] patent,” as
the ’842 patent should be “treated as though the disclaimed claims never existed,” citing language found in
Guinn v. Kopf, 96 F.3d 1419, 1422 (Fed. Cir. 1996) (“A
statutory disclaimer under 35 U.S.C. § 253 has the effect
of canceling the claims from the patent and the patent is
viewed as though the disclaimed claims had never existed in the patent.”). The Board disagreed with SIPCO,
finding that the “belated post-institution disclaimer of
claims 3 and 4” did not affect its conclusion that the ’842
patent is subject to CBM review. J.A. 8. The Board
cited a precedential Board CBM decision in which it had
previously explained that “CBM patent review eligibility is determined based on the claims of the challenged
patent as they exist at the time of the decision whether to
institute.” Id. (citing Facebook, Inc. v. Skky, LLC, Case
CBM2016-00091, slip op. 11 (P.T.A.B. Sept. 28, 2017) (Paper 2) (precedential)) (emphasis added by the Board).
The Board also pointed out that AIA §§ 18(a)(1)(E) and
18(d)(1) use the present tenses of words “institute” and
“claims,” implying that a patent is subject to CBM review based on what the patent claims at the time of the
institution decision, not some later time after institution. J.A. 8–9. The Board noted that it would not have
considered claims 3 and 4 if SIPCO had timely filed a disclaimer before institution and observed that Emerson

9a
would still have had the ability to file for inter partes review of the ’842 patent before the one-year statutory bar
of 35 U.S.C. § 315(b) had SIPCO done so. J.A. 10.
With respect to the technological invention exception, the Board cited the statement in Versata Development Group, Inc. v. SAP America, Inc., 793 F.3d 1306,
1327 (Fed. Cir. 2015) that “the presence of a general purpose computer to facilitate operations through uninventive steps does not change the fundamental character of an invention” to support its conclusion that “[a]
claim does not include a technological feature if its elements are nothing more than general computer system
components used to carry out the claimed process.” J.A.
17 (internal quotation marks omitted). The Board then
reiterated its determination that the features of claim 1
as incorporated in dependent claims 3 and 4 “recite no
more than generic and known hardware elements and
routine computer functions,” and that the problem being
solved, which the Board characterized as “[a]utomating
service requests of vending machines and ATMs,” was a
financial, not technological, problem. J.A. 18–19.
The Board maintained its “low-power transceiver”
construction, concluding that SIPCO was conflating
“power” with “transmission range.” J.A. 23. The Board
also credited Emerson’s expert’s testimony that a
change in power does not necessarily result in a change
in transmission range, because the range depends on numerous factors including the signal frequency and environment. J.A. 24–25.
The Board concluded that the challenged claims
were patent-ineligible under § 101 because they were directed to the abstract concept of “establishing a communication route between two points to relay information”

10a
and did not contain any additional inventive concept.
J.A. 30–45. The Board emphasized its view that the ’842
patent merely automated service requests using general
purpose devices such as low-power transceivers. J.A.
32. The Board noted that, “[s]ignificantly, the claims are
not directed to a new type of transceiver, interface circuit, or controller to establish a communication link between a remote device and the central location,”;
“[i]nstead, the claims are directed to transmitting data
between locations using conventional or generic computer components.” J.A. 33.
The Board also found, inter alia, the ’842 patent obvious over Tymes. SIPCO appeals the Board’s determination that the ’842 patent is subject to CBM review, as
well as the Board determinations as to §§ 101 and 103.
We have jurisdiction pursuant to 28 U.S.C. §
1295(a)(4)(A).
DISCUSSION
1. “Low-Power Transceiver” Construction
We review factual determinations concerning extrinsic evidence underlying the Board’s claim construction for substantial evidence and the ultimate construction de novo. In re Cuozzo Speed Techs., LLC, 793 F.3d
1268, 1280 (Fed. Cir. 2015). To the extent the Board considered extrinsic evidence when construing the claims,
we need not consider the Board’s findings on that evidence because the intrinsic record is clear. See Eidos
Display, LLC v. AU Optronics Corp., 779 F.3d 1360,
1365 (Fed. Cir. 2015).
The Board correctly applied Phillips v. AWH Corp.,
415 F.3d 1303, 1312 (Fed. Cir. 2005) (en banc), rather
than the broadest reasonable interpretation standard,
when construing terms of this expired patent. J.A. 21;

11a
see also In re Rambus Inc., 694 F.3d 42, 46 (Fed. Cir.
2012). Phillips explains that “[i]t is a bedrock principle
of patent law that the claims of a patent define the invention to which the patentee is entitled the right to exclude.” 415 F.3d at 1312 (internal quotation marks omitted). “While not an absolute rule, all claim terms are presumed to have meaning in a claim.” Innova/Pure Water,
Inc. v. Safari Water Filtration Sys., Inc., 381 F.3d 1111,
1119 (Fed. Cir. 2004). In Innova, we rejected a construction that read the term “operatively” out of the phrase
“operatively connected,” explaining that the construction was not correct because “the term ‘operatively’
[would be] unnecessary and superfluous as the patentee
could have as easily used the term ‘connected’ alone.” Id.
The dispute between the parties is whether “lowpower” is properly read, in light of the specification, to
correlate with limited transmission range. We conclude
that the Board’s construction in this case fails to give appropriate meaning to the term “low-power” in “lowpower transceiver.” “Importantly, the person of ordinary skill in the art is deemed to read the claim term not
only in the context of the particular claim in which the
disputed term appears, but in the context of the entire
patent, including the specification.” Phillips, 415 F.3d at
1313. The specification explains that the reason that the
’842 patent contemplates a transmitter1 having low

1

The specification explains that a transceiver contains both a
transmitter and receiving circuitry, and the parties do not dispute
that only the transmitter portion of the “low-power transceiver” is
used in claim 1. See ’842 patent at col. 8, ll. 7–9, claim 1. Accordingly,
we find that the specification’s disclosure of a “low-power transmitter” is coextensive with claim 1’s recitation of “low-power transceiver.”

12a
power is “so that a user will have to be in close proximity, (e.g., several feet) to the receiver 18 of an AFTM 10
in order to use the transmitter.” ’842 patent at col. 5, l.
67 – col. 6, l. 3. It is only if the signal transmission is limited in range that the problems of unwanted circumvention, contention, and unlawful interception of the electromagnetic signals described in column six are alleviated.
See id. at col. 6, ll. 4–9.
We recognize here, as we did in Phillips, “that the
distinction between using the specification to interpret
the meaning of a claim and importing limitations from
the specification into the claim can be a difficult one to
apply in practice.” Phillips, 415 F.3d at 1323. However,
“the line between construing terms and importing limitations can be discerned with reasonable certainty and
predictability if the court’s focus remains on understanding how a person of ordinary skill in the art would understand the claim terms.” Id. SIPCO’s specification explicitly ties the low-power transceiver to a limited transmission distance; accordingly, a skilled artisan would understand “low-power” to mean that the transceiver operates at a power level corresponding to “limited transmission range2.”
Emerson contends that the specification’s discussion of a limited transmission range for its transmitter
does not apply to the claimed “low-power transceiver”
because that discussion uses the word “extremely” before low-power. But the specification is consistent with
2

The dissent states that this construction introduces ambiguities as to how much distance and how much power correspond to
“limited transmission range.” Dissent at 7. But the parties did not
allege, and the Board did not find that the meaning of “limited transmission range,” or even “low-power,” was uncertain.

13a
our construction, because it repeatedly ties the lowpower transmitter to having a limited transmission
range. See, e.g., ’842 patent at col. 5, l. 67 – col. 6, l. 3
(“Preferably, the transmitter 20 is an extremely low
power transmitter, so that a user will have to be in close
proximity, (e.g., several feet) to the receiver . . . .”); id. at
col. 6, ll. 4–11 (“This extremely low-power operation also
helps to prevent the unlawful interception of the electromagnetic signals.”); id. at col. 14, ll. 15–21 (“. . . it may be
desirable to use a cellular transmitter, instead of a lowpower RF transmitter . . . because the automobile may
break down a relatively significant distance from the
nearest pay-type telephone (e.g., location of the nearest
transceiver).”). The word “extremely” specifies the
amount of distance by which the transmission is limited—e.g., “several feet.” The specification’s description
of a cellular transmitter being capable of transmitting a
further distance than a low-power transmitter reinforces this conclusion. See id. at col. 14, ll. 15–21.
The Board placed considerable emphasis on Dr.
Geier’s expert testimony that “low-power” is not necessarily coextensive with a limited transmission range.
See J.A. 23–25. But in this case, the intrinsic evidence is
sufficiently clear as to the meaning of “low-power” such
that consulting extrinsic evidence is unnecessary. See
Phillips, 415 F.3d at 1317. In any event, Dr. Geier’s testimony was less than conclusive, and both he and Emerson’s other expert, Dr. Heppe, testified that one (according to Dr. Heppe, “typical”) characteristic of a lowpower transmitter is a limited transmission range, and
that characteristic is consistent with the only described
use in the specification. See J.A. 2937–38 (Dr. Geier);
J.A. 3152–53 (Dr. Heppe). Moreover, the record also
contains evidence that supports a relationship between

14a
limited transmission range and low transmit power. See
J.A. 3046 (disclosing the Friis equation, which defines
transmission distance as a function of the square root of
transmitted power); J.A. 3149–50 (Dr. Heppe testifying
that “signal level, generally speaking, decays as one over
the square distance”).
Accordingly, we reverse the Board’s construction of
“low-power transceiver” and construe it to mean “a device that transmits and receives signals at a power level
corresponding to limited transmission range.”
2. Financial Product or Service
“[W]e review the Board’s reasoning [as to whether
the particular patents at issue are CBM patents] under
the arbitrary and capricious standard and its factual determinations under the substantial evidence standard.”
SightSound Techs., LLC v. Apple Inc., 809 F.3d 1307,
1315 (Fed. Cir. 2015). The parties do not dispute that
only one claim must meet the requirements of § 18(d)(1)
in order for the patent to be considered a CBM patent.
See Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229, 1239
n.6 (Fed. Cir. 2016).
We find that the Board’s conclusion that claims 3
and 4 recite an apparatus “for performing data processing or other operations used in the practice, administration, or management of a financial product or service” under AIA § 18(d)(1) was not arbitrary and capricious. We have previously interpreted “the definition of
‘covered business method patent’ [not to be] limited to
products and services of only the financial industry, or to
patents owned by or directly affecting the activities of
financial institutions such as banks and brokerage
houses.” Versata, 793 F.3d at 1325. Rather, we have
found that § 18(d)(1) “on its face covers a wide range of

15a
finance-related activities.” Id. In Versata, we found the
“method and apparatus for pricing products in multilevel product and organizational groups” to be sufficiently “used in the practice, administration, or management of a financial product or service” to subject the patent to CBM review. Id. at 1311, 1325–26.
We placed some limitation on the scope of CBM review in Unwired Planet, LLC v. Google Inc., 841 F.3d
1376 (Fed. Cir. 2016), where the Board had found a patent relating to a “method and system for managing location information for wireless communications devices”
to be subject to CBM review because, in the Board’s
view, “the [recited] ‘client application’ may be associated
with a service provider or a goods provider, such as a
hotel, restaurant, or store” and therefore the patent was
“incidental to” or “complementary to” the financial activity of service or product sales. Id. at 1378–79. We
held that the Board’s reliance on activities merely “incidental to” or “complementary to” a financial activity rendered meaningless the limits placed by Congress on
CBM review. Id. at 1382. For example, “[t]he patent for
a novel lightbulb that is found to work particularly well
in bank vaults does not become a CBM patent because of
its incidental or complementary use in banks.” Id. “Likewise, it cannot be the case that a patent covering a
method and corresponding apparatuses becomes a CBM
patent because its practice could involve a potential sale
of a good or service[, because] [a]ll patents, at some level,
relate to potential sale of a good or service.” Id. Nor is a
patent for “digging ditches” subject to CBM review
simply because the dirt can subsequently be sold. Id.
SIPCO likens its ’842 patent to the examples provided in Unwired Planet, arguing that the claimed de-

16a
vice is only “associated with” an ATM or vending machine and the “mere possibility that certain remote devices of the ’842 patent could communicate financial data
is not nearly sufficient to demonstrate that it is directed
to financial products or services.” SIPCO’s Op. Br. 59.
But the claimed apparatus need only be “used in” the
practice, administration, or management of a financial
product or service. See AIA § 18(d). As the Board explained, claims 3 and 4 recite the remote device being associated with an ATM or vending machine. ’842 patent
at claims 3, 4. The patent expressly contemplates that
the information communicated through the claimed system is financial information that identifies the user’s
bank account and the user’s identity. See, e.g., id. at col.
5, ll. 40–64, col. 6, ll. 13–16. The Board is correct in its
assessment that the concept of communicating financial
information from a device associated with an ATM to a
central location is “central to the operation of the
claimed device” in claim 3. See J.A. 14–15 (citing ’842
patent at col. 1, 11. 43–65, col. 2, ll. 23–25, col. 3, ll. 12–14,
col. 3, ll. 22–23, col. 4, ll. 32–37, col. 6, ll. 19–28, FIGs. 1A,
5). We therefore do not find that the Board abused its
discretion when it determined that the claimed apparatus was “used in” the practice, administration, or management of a financial product or service.
SIPCO also argued before the Board and on appeal
that because it disclaimed claims 3 and 4 the Board
should not have relied on them in analyzing whether the
’842 patent is CBM eligible. SIPCO’s Op. Br. at 62. But
SIPCO ultimately conceded at oral argument that a patent may be CBM eligible based on a single claim and
that the Board could have properly relied on claims 3 or
4. Oral Arg. at 2:02–09, 5:24–51, http://oralargu
ments.cafc.uscourts.gov/default.aspx?fl=2018-1635.mp3.

17a
Accordingly, the Board’s conclusion that the ’842 patent could be CBM eligible because claims 3 and 4 recite
an apparatus “for performing data processing or other
operations used in the practice, administration, or management of a financial product or service” under §
18(d)(1) is not arbitrary and capricious.
3. Technological Invention Exception
We review the Board’s reasoning as to whether the
’842 patent qualifies as a “technological invention” under
§ 18(d)(1) under the arbitrary and capricious standard
and its factual determinations for substantial evidence.
SightSound, 809 F.3d at 1315. Section 18(d)(1) excludes
“patents for technological inventions” from CBM review.
We previously explained in Versata that,
“[u]nhelpfully, Congress did not . . . define a ‘technological invention,’ but instead instructed the USPTO to ‘issue regulations for determining whether a patent is for
a technological invention,’” in order to assist in implementing CBM review. Versata, 793 F.3d at 1323 (quoting § 18(d)(2)); see id. The Patent Office, in turn, issued
37 C.F.R. § 42.301, which defines “technological invention” in the following way:
In determining whether a patent is for a
technological invention solely for purposes
of the Transitional Program for Covered
Business Methods (section 42.301(a)), the
following will be considered on a case-bycase basis: [1] whether the claimed subject
matter as a whole recites a technological
feature that is novel and unobvious over
the prior art; and [2] solves a technical
problem using a technical solution.
§ 42.301(b).

18a
If each part of this definition is satisfied, then the
patent is not eligible for CBM review. We discuss each
part with respect to the ’842 patent below.
a. Part Two
Because the Board misread and mischaracterized
the features of claim 1 in its analysis of dependent claims
3 and 4, it did not appreciate that the claims provide a
technical solution to a technical problem. Its ruling on
this issue was thus arbitrary and capricious.
We explained in Versata that § 42.301’s
“[d]efini[tion of] a term in terms of itself does not seem
to offer much help.” 793 F.3d at 1326. In fact, “neither
the statute’s punt to the USPTO nor the agency’s lateral
of the ball offer anything very useful in understanding
the meaning of the term ‘technological invention.’” Id. In
Versata, we determined that a method of determining a
price that could be achieved “in any type of computer
system or programming or processing environment,”
and using “no specific, unconventional software, computer equipment, tools or processing capabilities” did
not recite a technical solution to a technical problem. Id.
at 1327. Citing Alice Corp. Pty. Ltd. v. CLS Bank International, 573 U.S. 208 (2014), we stated that “the presence of a general purpose computer to facilitate operations through uninventive steps does not change the fundamental character of [the] invention.” Versata, 793
F.3d at 1327.
In Apple, we found a Board decision not to be arbitrary and capricious where it determined that a method
of generating a second menu from categories and items
selected from a first menu did not provide a technical solution to a technical problem. 842 F.3d at 1234, 1239–40.

19a
The patent owner had argued that the patent was intended to solve “a problem in restaurant ordering when
customers wanted something unusual and unanticipated.” Id. at 1239. The Board found this to be more of
a business problem than a technical problem. Id.
In Trading Technologies, we found a Board decision
not to be arbitrary and capricious where it determined
that a software method for financial trading, including
receiving bid and offer information and displaying the information to the user, did not provide a technical solution to a technical problem. Trading Techs. Int’l, Inc. v.
IBG LLC, 921 F.3d 1084, 1091 (Fed. Cir. 2019) (Trading
Techs. I); Trading Techs. Int’l, Inc. v. IBG LLC, 921 F.3d
1378, 1383 (Fed. Cir. 2019) (Trading Techs. II). The patent owner argued that the patent addressed technical
problems relating to efficiency, speed, usability, intuitiveness, and visualization of prior art graphical user interface tools. Trading Techs. I at 1089; see also Trading
Techs. II at 1383. We agreed that the claims related to
the practice of a financial product—helping a trader gain
a market advantage—rather than a technological invention. Trading Techs. I at 1089–90; Trading Techs. II at
1383. Because the “invention ma[de] the trader faster
and more efficient, not the computer,” it was not a technical solution to a technical problem. Trading Techs. I at
1090 (emphasis in original); see also Trading Techs. II at
1383.
The question of whether a patent is for a “technological invention” is fact-specific and must be considered on
a case-by-case basis. See § 42.301(b). This case differs
from those we have previously analyzed because the
problem solved by the claims is technical in nature. The
Board limited its characterization of the “problem” being

20a
solved to an example problem provided in the background that is resolved by the claims—automating machine service requests. See J.A. 19. But it is clear from
both the claims and the specification that the claimed invention implements a communication system that connects an unconnected, remote device with a central station. See SIPCO’s Reply Br. at 22. The claims do so by
taking advantage of a set of intermediate nodes (“a network of addressable devices”) that are already connected to the central station over an existing communication network, for example PSTN. ’842 patent at claim
1. The first step of the communication path from the
user and remote device to the intermediate node is made
over a wireless connection, and the second step is from
the intermediate node to the central station over the existing communication network. Id.
In the context of leveraging an existing communications network to serve as an intermediary for communication between a remote device and a central location,
however, the ’842 patent explains that certain problems
arise in communicating information at this first step, e.g.,
unlawful interference, contention, and unwanted circumvention of the electromagnetic signals. Id. at col. 5,
l. 65 – col. 6, l. 11. Accordingly, the technical problem
resolved by the claims was how to extend the reach of an
existing communication system from a central location
to a remote, unconnected device while protecting
against unwanted interference with the transmitted signals. The claims solve this problem with a technical solution: the creation of a two-step communication system
that communicates information through a low-power,
i.e., limited transmission range, transceiver over a first,

21a
wireless step, that taps into the intermediate node’s existing network connection to transport information to
the central location.3
Emerson maintains that even if the ’842 patent
solves this technical problem, it does so with conventional components. But in that sense, this case is similar
to Bascom Global Internet Services, Inc. v. AT&T Mobility LLC, 827 F.3d 1341 (Fed. Cir. 2016), which arose
in a different context and answered a different legal
question but remains instructive here. In Bascom, prior
art systems either located the Internet content filter at
the user’s computer and were customizable to the user
but easily thwarted by computer-savvy teenagers or
employees, or located the filter at a remote server that
could not be customizable to the user. Id. at 1343–45.
The claimed invention took advantage of the technical
3

Our decision in Chamberlain Group, Inc. v. Techtronic Industries Co., Nos. 18-2103, 18-2228, 2019 WL 3938278, --- F.3d --- (Fed.
Cir. Aug. 21, 2019) is not to the contrary. In Chamberlain, we determined that claims reciting wireless communication of status information about a movable barrier operator (e.g., garage door
opener) were directed to an abstract idea of communicating information wirelessly, and that the mere limitation of that abstract idea
to the field of movable barrier operators did not constitute an inventive concept sufficient to transform the abstract idea into a practical application of the idea under Alice. Id. at *2–5. Unlike in
Chamberlain, SIPCO’s claimed invention does not simply use “well
understood,” off-the-shelf wireless technology for its intended purpose of communicating information. See id., at *4–5. Instead,
SIPCO’s claim 1 provides a more specific implementation of a communication scheme through its two-step communication path that
combines an established communications network with a shortrange wireless connection between a low-power transceiver and an
intermediate node on the established network. SIPCO’s two-step
solution extends the reach of the existing network while overcoming problems of interference, contention, and interception.

22a
capability of the TCP/IP communication network and
moved the filter to a server operated by the Internet
Service Provider (ISP). Id. at 1344. Because the ISP
could associate an individual user with a specific request
to access a website, the claimed invention was able to
provide individual-customizable Internet content filtering remotely, preventing it from being easily circumvented by its users. Id. at 1344–45. We determined that
the claims were drawn to the abstract idea of Internet
content filtering under step one of Alice’s § 101 analysis,
but determined that nothing in the record refuted Bascom’s argument that the claims were drawn to an inventive concept because they recited a “technologybased solution (not an abstract-idea based solution implemented with generic technical components in a conventional way) to filter content on the Internet that
overcomes existing problems with other Internet filtering systems.” Id. at 1351. “By taking a prior art filter solution (one-size-fits-all filter at the ISP server) and making it more dynamic and efficient (providing individualized filtering at the ISP server), the claimed invention
represents a ‘software-based invention[ ] that improve
[s] the performance of the computer system itself.’” Id.
“The claims [thus] carve out a specific location for the
filtering system (a remote ISP server) and require the
filtering system to give users the ability to customize filtering for their individual network accounts.” Id. at 1352.
We determined this to be the case despite the fact that
each piece of technology Bascom employed in its invention, e.g., a computer, a server, was conventional in nature. Id.
By implementing a two-step communication path
that takes advantage of both a wireless step from a remote device to a set of intermediate nodes and another

23a
step that may be, for example, over PSTN from the intermediate nodes to the central location, and also incorporating the use of a low-power transceiver to overcome
the technical problems of interference, interception, and
contention of electromagnetic signals sent over the first,
wireless step, SIPCO’s invention is drawn to a technology-based solution, just as Bascom’s was. Because
SIPCO’s claims combine certain communication elements in a particular way to address a specific technical
problem with a specific technical solution, we reverse
the Board’s finding that the patent does not satisfy the
second part of its “technological invention” regulation.
b. Part One
The Board did not analyze whether the ’842 patent
satisfies the first part of § 42.301(b) because it found that
the patent did not satisfy the second part. Emerson concedes as much. Oral Arg. at 31:14–20. Rather than address this issue in the first instance on appeal, the Board
should address the first part of § 42.301(b) under the
proper construction. Robertson v. Timmermans, 603
F.3d 1309, 1313 (Fed. Cir. 2010) (“[W]e think the better
course is to give the Board the opportunity to apply the
correct law rather than decide these issues ourselves in
the first instance.”).
Emerson argues that remand is unnecessary because the Board already analyzed whether the ’842 patent was obvious under § 103. But we have previously
questioned whether it makes sense to interpret the first
part of § 42.301(b)—which references the word obvious—as coextensive with § 103. Most notably, in Versata, we observed that “[a]t this early stage of the process, when the USPTO is first determining whether the
patent at issue is even a CBM, there would seem to be

24a
little cause to determine what will be one of the ultimate
questions if review is granted—did the USPTO err in
the first instance when it originally determined that the
invention was novel and nonobvious?” 793 F.3d at 1326.
We therefore decline to assume that this is how the
Board would apply § 42.301(b) in this case. Instead, on
remand the Board should explain what part one of the
regulation means and then apply it as so explicated.4
CONCLUSION
For the reasons stated above, we reverse the
Board’s construction of “low-power transceiver,” affirm
the Board’s finding that claims of the patent are “used in
. . . a financial product or service” under AIA § 18(d)(1),
and reverse the Board’s finding that the patent does not
“solve[] a technical problem using a technical solution”
under its regulation § 42.301(b). Because part two of §
42.301(b) is satisfied, we remand to the Board for consideration of part one consistent with this opinion. Because
the Board on remand must revisit its decision as to
whether the ’842 patent qualifies for the CBM review,
we vacate all of the Board’s unpatentability determinations. We have considered the parties’ remaining arguments and find them unpersuasive.

4

The parties agree that the AIA does not define what is or is
not a technological invention. See, e.g., Oral Arg. at 9:10–9:39, 16:45–
52 (“Q: Does the statute provide any guidance as to what a technological invention is? A: Well, no your Honor.”); see also AIA § 18(d).
The omission of any definition for the phrase “technological invention” underscores the importance of meaningful guidance from the
Patent Office on § 42.301(b). See Kisor v. Wilkie, 139 S. Ct. 2400,
2417 n.5 (2019) (emphasizing that regulations which “parrot[] the
statutory text” rather than putting the public on notice of an
agency’s interpretation in advance are not entitled to deference).

25a
REVERSED-IN-PART, AFFIRMED-IN-PART,
AND VACATED-AND-REMANDED-IN-PART
No costs.

26a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-1635
SIPCO, LLC,
APPELLANT,
V.

EMERSON ELECTRIC CO.,
APPELLEE.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600095.
(September 25, 2019)
REYNA, Circuit Judge, concurring-in-part and dissenting-in-part.
I respectfully dissent from the majority’s decision
that rejects the Board’s claim construction in favor of its
own construction. The record is clear in two respects.
First, the majority reaches its own construction by improperly reading a functional limitation into the claim
from a preferred embodiment. Second, the Board’s construction rests on factual findings that are supported by
substantial evidence, including expert testimony on the
meaning of the claim term “low-power transceiver” to a
person of ordinary skill in the art. In the end, the majority does not explain why the Board’s construction is so
“clearly at odds with the claim construction mandated
by” the intrinsic record that the extrinsic evidence on
which the Board relied can be discounted entirely. Phillips v. AWH Corp., 415 F.3d 1303, 1318 (Fed. Cir. 2005).

27a
The majority explains only that it prefers a different
construction. Because the majority’s opinion is contrary
to basic tenants of claim construction set forth in Phillips, and the deference owed to underlying factual findings under Teva, I respectfully dissent.
I.
To be sure, the parties disputed before the Board
the construction of the term “low-power transceiver.”
SIPCO argued that “low-power transceiver” should be
construed as a “transceiver that transmits and receives
signals having a limited transmission range.” J.A. 22,
485. Emerson argued that the plain and ordinary meaning of “low-power” should apply: “a transceiver that
consumes less power, e.g., by transmitting and receiving
low power signals.” J.A. 23, 588. Emerson further argued that SIPCO’s construction impermissibly imports
a “limited transmission range” limitation into the claims.
J.A. 23, 588. Neither party proposed the construction
now adopted by the majority.
The Board addressed point-by-point the same arguments that SIPCO advances on appeal. The Board ultimately rejected SIPCO’s proposed construction, finding
that SIPCO’s arguments conflated “power” with “transmission range.” J.A. 23. For example, the Board considered SIPCO’s reliance on a Federal Communications
Commission bulletin purportedly defining low-power
transmitters as having a range of only a few meters but
found that the bulletin did not support SIPCO’s argument after examining that evidence. J.A. 26.
The Board adopted the plain and ordinary meaning
of “low-power” and construed “low-power transceiver”
as referring to a transceiver that consumes less power.
Id. This construction, the Board concluded, encompasses

28a
a device that transmits and receives signals having a limited transmission range, but is not limited by that feature. J.A. 26. The record evidence supports the Board’s
construction.
Notably, the Board received evidence and weighed
the testimony and credibility of SIPCO’s and Emerson’s
experts. The Board credited the testimony of Emerson’s
expert, James T. Geier, in making its factual finding that
a person of ordinary skill in the art would have understood that changing the transmission power does not
necessarily change the transmission range. J.A. 23 (citing J.A. 2655–58 ¶¶ 34–39 (Geier Rebuttal Decl.)); see
also J.A. 25 (explaining that Mr. Geier’s cross-examination testimony was consistent with his declaration testimony on the fact that “changing the ‘power’ does not
necessarily change the ‘transmission range,’ which depends [sic] numerous factors, including the signal frequency and environment”).
The majority rejects the plain and ordinary meaning
of “low-power transceiver” and reverses the Board, construing the term to mean “a device that transmits and
receives signals at a power level corresponding to limited transmission range.” Maj. Op. 12–13. The majority
concludes that the meaning of “low-power” is sufficiently
clear in the intrinsic record to make evaluation of the extrinsic evidence unnecessary. Maj. Op. 12. According to
the majority, the specification explains that the reason
for using low-power transmitters is so the user must be
in close proximity to the receiver to avoid the problems
of unwanted circumvention and unlawful interception of
the signals. Maj. Op. 10–11. The majority thus concludes
that the “specification explicitly ties the low power
transceiver to a limited transmission distance,” and that
a person of ordinary skill in the art would understand

29a
“‘low-power’ to mean ‘having a limited transmission
range.’” Maj. Op. 11. The majority goes on to further
conclude that the term “extremely” in the phrase “extremely low-power” refers to the “amount of distance
by which the transmission is limited—e.g., ‘several
feet.’” Maj. Op. 12. (emphases in original). And despite
finding that the intrinsic evidence is so clear that it does
not need to consider the Board’s factual findings, the majority proceeds to reweigh the extrinsic evidence and
make its own factual findings, contrary to the Board’s.
Maj. Op. 12. The majority’s newly proffered construction is contrary to well-established claim construction
precedent.
II.
The majority errs in two ways: (1) by importing a
limitation—transmission range—into the claims from a
preferred embodiment; and (2) by disregarding the
Board’s factual findings without a sufficiently clear intrinsic record.
First, the majority reaches its own construction of
“low-power transceiver” by relying on limitations that
are not in the claims. We have long held that “even
though ‘claims must be read in light of the specification
of which they are a part, it is improper to read limitations
from the written description into a claim.’” Bradium
Techs. LLC v. Iancu, 923 F.3d 1032, 1049 (Fed. Cir. 2019)
(quoting Wenger Mfg., Inc. v. Coating Mach. Sys., Inc.,
239 F.3d 1225, 1237 (Fed. Cir. 2001)); see also Silicon
Graphics, Inc. v. ATI Techs., Inc., 607 F.3d 784, 792
(Fed. Cir. 2010) (“A construing court’s reliance on the
specification must not go so far as to import limitations
into claims from examples or embodiments appearing

30a
only in a patent’s written description [] unless the specification makes clear that the patentee intends for the
claims and the embodiments in the specification to be
strictly coextensive.” (internal quotations omitted)).
As the majority recognizes, we have noted the difficulty in drawing a “fine line between construing the
claims in light of the specification and improperly importing a limitation from the specification into the
claims.” Cont’l Circuits LLC v. Intel Corp., 915 F.3d 788,
797 (Fed. Cir. 2019) (quoting Retractable Techs., Inc. v.
Becton, Dickinson & Co., 653 F.3d 1296, 1305 (Fed. Cir.
2011)). Nevertheless, “the line between construing
terms and importing limitations can be discerned with
reasonable certainty and predictability if the court’s focus remains on understanding how a person of ordinary
skill in the art would understand the claim terms.” Phillips, 415 F.3d at 1323.
The majority here loses that focus, crosses that line,
and, commits “one of the cardinal sins of patent law—
reading a limitation from the written description into the
claims.” Id. at 1320 (quoting SciMed Life Sys., Inc. v. Advanced Cardiovascular Sys., Inc., 242 F.3d 1337, 1340
(Fed. Cir. 2001)); see also id. at 1321 (“[W]e have expressly rejected the contention that if a patent describes
only a single embodiment, the claims of the patent must
be construed as being limited to that embodiment.”).
The majority’s construction (“a device that transmits and receives signals at a power level corresponding
to limited transmission range”) replaces the ordinary
meaning of the “power” limitation in the claim language
and instead ascribes a functional limitation to “lowpower transceiver” in terms of transmission range, such
that a low power transceiver that transmits more than

31a
two feet—for example, two and a half feet—is excluded.
See Maj. Op. 10—12. To reach this conclusion, the majority relies primarily on a single passage in the written
description describing a single preferred embodiment
depicted in Figure 1. As to this embodiment, and in relevant part, the written description states:
In use, a user would simply depress a
transmit button 22, which would result in
the transmitter 20 transmitting an electromagnetic signal 30 to a remote AFTM 10[.]
Preferably, the transmitter 20 is an extremely low power transmitter, so that a
user will have to be in close proximity,
(e.g., several feet) to the receiver 18 of an
AFTM 10 in order to use the transmitter.
This would help alleviate problems which
may otherwise occur if a user approaching
an AFTM 10 is circumvented by a second,
more distantly located user who depresses
his transmit button. This extremely lowpower operation also helps to prevent the
unlawful interception of the electromagnetic signals[.] In addition, in an alternative embodiment, the transmitted signal
may be encrypted for further protect [sic]
against such unlawful interception.
’842 patent col. 5 l. 65–col. 6 l. 11 (emphases added).
This is the critical passage from which the majority
concludes that the written description links “low-power”
to having a “limited transmission range” limitation. See
Maj. Op. 11–12. According to the majority, “[i]t is only if
the signal transmission is limited in range that the prob-

32a
lems of unwanted circumvention, contention, and unlawful interception of the electromagnetic signals . . . are alleviated.” Maj. Op. 11. But this is not correct because
the specification recognizes that transmission need not
be extremely low-power if the transmission signal is encrypted. Thus, based on a single “preferred” embodiment, the majority limits the entire claim based on transmission range and thereby alters the scope of the patent.1
The majority’s construction alters the scope by removing the “low power” limitation from the claim language and replacing it with a relationship between
power and transmission range extrapolated from a preferred embodiment. In doing so, it introduces at least
three ambiguities.
First, the specification does not clearly define a relationship between power and transmission range.
While the specification describes an embodiment that relates “extremely low power” to the requirement that a
user be in close proximity, “e.g., several feet,” of the receiver, the specification is silent on how a person of ordinary skill in the art would understand “limited transmission range” and power level. If, as the majority contends, “extremely” specifies the “amount of distance,” it
is unclear how to objectively determine the distance required by “limited transmission range” in the majority’s
1

The majority overlooks other embodiments in the specification. Another embodiment is a vending machine whereby the machine sends a signal to itself that is then relayed to the central location that it, for example, is low on or out of potato chips. See ’842
patent col. 71. 61–col. 91. 3. The majority fails to explain why, in this
embodiment, close proximity to the receiver is necessary to avoid
unwanted circumvention or unlawful interception of the potato chip
notification.

33a
construction where “extremely” is absent and “several
feet” is the sole example given for transmission range.
See Interval Licensing LLC v. AOL, Inc., 766 F.3d 1364,
1373 (Fed. Cir. 2014) (declining to “cull out a single ‘e.g.’
phrase from a lengthy written description to serve as the
exclusive definition of a facially subjective claim term”
and holding that claim term to be indefinite). Second,
the relationship between power and “limited transmission range” introduced by the majority’s construction is
not defined by the specification and is ambiguous because it allows for inverse relationships or a relationship
impacted by other factors—so long as “power” and “limited transmission range” correspond in some way. In
other words, there is nothing to tell a person of ordinary
skill in the art a numerical value for the transmission
range that would result from a “corresponding” numerical value for power level. Third, the majority’s construction does not specify whether the device is limited in the
transmission range of signals it transmits, or whether
the device also has limits on the transmission range of
signals it can receive. A construction that introduces
such ambiguities cannot be correct.
Here, the patentee chose to define the subject matter of his invention in terms of “power,” and our law
gives him the freedom to do so. See Thorner v. Sony
Computer Entm’t Am. LLC, 669 F.3d 1362, 1367 (Fed.
Cir. 2012) (“The patentee is free to choose a broad term
and expect to obtain the full scope of its plain and ordinary meaning unless the patentee explicitly redefines
the term or disavows its full scope.”). This is not a case
where the patentee has acted as his own lexicographer
to ascribe a special meaning to “low-power.” Indeed, the
patentee carefully stated the intent not to limit the

34a
claims by making them strictly coextensive with descriptions of embodiments and instead sought to “cover
all alternatives, modifications, and equivalents” of the
claimed invention. ’842 patent col. 4 ll. 19–26; see also id.
col. 14 ll. 6–9. I therefore disagree with the majority’s
importation of results-oriented, functional language
from a preferred embodiment and rewriting of the claim.
The Board correctly pointed out that none of the
claims contain functional language. J.A. 25. And
“[w]here the function is not recited in the claim itself by
the patentee, we do not import such a limitation.”
Ecolab, Inc. v. Envirochem, Inc., 264 F.3d 1358, 1367
(Fed. Cir. 2001). Limited range is not claimed as a part
of the invention, and neither is the function of preventing unlawful interception of electromagnetic signals.
Second, the Board’s factual findings are supported
by substantial evidence and require our deference. See
Teva Pharm. USA, Inc. v. Sandoz, Inc., 135 S. Ct. 831,
841–42 (2015). How a person of ordinary skill in the art
would understand “low-power transceiver” was an issue
of disputed fact between the parties and their experts
that the Board properly resolved in construing the term
according to its plain and ordinary meaning based on the
evidence presented. See id. at 840 (“[C]laim construction
has evidentiary underpinnings and . . . courts construing
patent claims must sometimes make credibility judgments about witnesses.” (internal quotations removed)).
As the Board found, “low-power” is not a complex term;
it has a well-understood plain meaning. In the context
of transmitters, it is a transmitter that consumes less
power. See J.A. 23. By extension, the Board relied on
extrinsic evidence that the term “low-power transceiver” is well known in the art and carries an ordinary
meaning of a “transceiver that consumes less power.” Id.

35a
The Board recognized that the use of low-power
transceivers can impact transmission range, but it credited the testimony of Dr. Geier that the meaning of “lowpower transceiver” is not limited by this feature. Dr.
Geier testified that while you could have less range with
lower-power transmitters, the transmission range depended on numerous other factors, such as signal frequency, environment, and sensor sensitivity. Dr. Geier
testified that transmission power does not necessarily
result in a change of the transmission range. The majority rejects Dr. Geier’s testimony by reweighing the evidence and making its own factual finding that his testimony was “less than conclusive.” Maj. Op. 12. But
whether “power” necessarily affects transmission range
is a subsidiary issue of fact resolved by the Board that
requires our deference. See Knowles Elecs. LLC v. Cirrus Logic, Inc., 883 F.3d 1358, 1362 (Fed. Cir. 2018) (noting that we review the Board’s underlying factual findings based on extrinsic evidence, such as expert testimony, for substantial evidence).
Despite reweighing the extrinsic evidence itself, the
majority asserts that the intrinsic record is so clear that
the Board’s reliance on Emerson’s expert testimony
should be dismissed. Maj Op. 9, 12 (citing Eidos Display,
LLC v. AU Optronics Corp., 779 F.3d 1360, 1365 (Fed.
Cir. 2015) (“To the extent the district court considered
extrinsic evidence in its claim construction order or summary judgment order, that evidence is ultimately immaterial to the outcome because the intrinsic record is
clear.”)). It is also true that we have held that we may
affirm a Board decision that is supported on the intrinsic
record alone. See Profectus Tech. LLC v. Huawei Techs.
Co., 823 F.3d 1375, 1381 (Fed. Cir. 2016) (citing Cambrian Sci. Corp. v. Cox Commc’ns, Inc., 617 F. App’x

36a
989, 993 (Fed. Cir. 2015) (affirming claim construction
without addressing extrinsic evidence because “the intrinsic evidence fully determines the proper construction of the contested claim term”)). Further, “[e]xtrinsic
evidence may not be used ‘to contradict claim meaning
that is unambiguous in light of the intrinsic evidence.’”
Id. (citing Phillips, 415 F.3d at 1324). But here, the intrinsic record is not so clear. The term “low-power
transceiver” as used in the patent is susceptible to more
than one reasonable interpretation, the majority’s construction is not unambiguously supported by the intrinsic record, and the Board’s construction is not contradicted by the claim language or the intrinsic evidence.
In my view, the extrinsic record in this case is particularly relevant to understand how a person of ordinary skill in the art would understand the disputed term
at the time the patent issued. See Teva, 135 S. Ct. at 841–
42. This is particularly true post-Aatrix, which restricted this court’s ability to decide legal issues and disregard existing underlying factual disputes. See Aatrix
Software, Inc. v. Green Shades Software, Inc., 882 F.3d
1121, 1128 (Fed. Cir. 2018) (noting that in deciding questions of law “there can be subsidiary fact questions
which must be resolved en route to the ultimate legal determination”).
The majority’s claim construction analysis redefines
the term “low-power transceiver” by importing a functional limitation from the written description and introducing ambiguity into the claim. As a result, the majority construes “low-power transceiver” to mean a transceiver that can only transmit and receive signals within
a “limited transmission range.” Maj. Op. 12–13. This re-

37a
writing of the claim alters the scope and recites an invention that is different from the invention claimed in
the ’842 patent.
For the foregoing reasons, I dissent.
III.
While I disagree with the majority’s decision to reverse on claim construction, I share the majority’s concern about the Board’s avoidance of the first prong of the
regulatory definition of “technological invention” under
37 C.F.R. § 42.301. Remand is necessary so that the
Board may in the first instance interpret § 42.301(b)(1).

38a
APPENDIX C
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE BEFORE THE PATENT
TRIAL AND APPEAL BOARD
CASE NO. CBM 2016-00095
EMERSON ELECTRIC CO.,
PETITIONER,
V.

SIPCO, LLC,
PATENT OWNER.
CASE NO. CBM 2016 00095
PATENT 8,908,842 B2
Before KEVIN F. TURNER, JONI Y. CHANG, and
CHRISTOPHER G. PAULRAJ, Administrative Patent Judges.
CHANG, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 328(a); 37 C.F.R. § 42.73
I. INTRODUCTION
Emerson Electric Company (“Petitioner”) filed a
Petition requesting a review of claims 1, 7, 9, 16, and 17
of U.S. Patent No. 8,908,842 B2 (Ex. 1001, “the ’842 patent”) under the transitional program for covered business method patents (“CBM”).1 Paper 2 (“Pet.”).
1
See § 18(a) of the Leahy-Smith America Invents Act, Pub. L. No.
112-29, 125 Stat. 284, 329 (2011) (“AIA”).

39a
SIPCO, LLC (“Patent Owner”) filed a Preliminary Response to the Petition. Paper 10 (“Prelim. Resp.”). Pursuant to 35 U.S.C. § 324(a), we instituted the instant proceeding as to claims 1, 7, 9, 16, and 17 of the ’842 patent.
Paper 12 (“Dec.”).
After Institution, Patent Owner filed a Response
(Paper 22, “PO Resp.”) and a statutory disclaimer of
claims 3 and 42 (Ex. 2008), and Petitioner filed a Reply
(Paper 26, “Reply”). Patent Owner filed a Motion for
Observation (Paper 30) on certain cross-examination
testimony of Petitioner’s declarant (Ex. 2019), and Petitioner filed a Response (Paper 32). The transcript of the
oral hearing held on October 18, 2017, has been entered
into the record as Paper 38 (“Tr.”).
This Final Written Decision is issued pursuant to 35
U.S.C. § 328(a). For the reasons that follow, we determine that Petitioner has shown by a preponderance of
the evidence that claims 1, 7, 9, 16, and 17 of the ’842 patent are unpatentable.
A. Related Matters
The parties indicate that the ’842 patent is involved
in SIPCO, LLC v. Emerson Electric Co., Case No.
6:15-cv-00907-JRG-KNM (E.D. Tex.). Pet. 4–5; Paper 3,
1–2. The parties also identify two pending U.S. Patent
Applications that claim priority to the ’842 patent, and
two pending inter partes reviews that involve related
patents. Pet. 4–5; Paper 3, 1–2.

2

Petitioner relies upon these claims to establish that the ’843 patent
is eligible for a CBM patent review. Pet. 6−9.

40a
B. The ’842 Patent
The ’842 patent is “directed to a general purpose
transceiver and a method for communicating information from remote sites to a central location.” Ex.
1001, Abs., 4:27–29, Figs. 1A–4. The ’842 patent discloses two embodiments: (1) an “automatic financial
transaction machine” embodiment, in which information
is communicated from financial transaction machines to
a central location, as illustrated in Figures 1A and 1B;
and (2) a “vending machine” embodiment, in which information is communicated from vending machines to a central location, as illustrated in Figures 2A and 2B. Id. at
4:30–37.
Figure 1A of the ’842 patent is reproduced below.

Figure 1A of the ’842 patent illustrates a block diagram of automatic financial transaction machine

41a
(AFTM) 10, which includes display 12, card receiving
slot 14 for receiving a bank or credit card, key pad 16
for inputting information such as a personal identification number (PIN) and transaction amounts, and receiving unit 18 for receiving signal 30 from transmitter
20 and interpreting the signal in order to allow a user
access to AFTM 10. Id. at 4:54–5:1. Transmitter 20
transmits signal 30 to receiving unit 18. Id. at 5:9–15.
AFTM 10 communicates across public-switched telephone network (PTSN) 60 to central station 62, which
may comprise a database of financial and/or account information for verifying user information. Id. at 7:41–44.
C. Illustrative Claim
Of the challenged claims, claims 1, 16, and 17 are independent.
Claims 7 and 9 depend directly from claim 1. Claim 1 is
reproduced below:
1. A device for communicating information, the device comprising:
a low-power transceiver configured to
wirelessly transmit a signal comprising instruction data for delivery to a network of
addressable devices;
an interface circuit for communicating
with a central location; and
a controller coupled to the interface circuit
and to the low-power transceiver,
the controller configured to establish a
communication link between at least one
device in the network of addressable de-

42a
vices and the central location using an address included in the signal, the communication link comprising one or more devices
in the network of addressable [devices],
the controller further configured to receive one or more signals via the
low-power transceiver and communicate
information contained within the signals to
the central location.
Ex. 1001, 14:43–59.
D. Standing to Seek a Covered Business Method Patent Review
Section 18(a)(1)(B) of the AIA limits such reviews to
persons or their privies that have been sued or charged
with infringement of a covered business method patent.
Here, Petitioner has been sued for infringement of
the ’842 patent in SIPCO, LLC v. Emerson Electric Co.,
Case No. 6:15-cv-00907-JRG-KNM (E.D. Texas). Pet. 4.
1. Financial Product or Service
A “covered business method patent” is a patent that
“claims a method or corresponding apparatus for performing data processing or other operations used in the
practice, administration, or management of a financial
product or service, except that the term does not include
patents for technological inventions.” AIA § 18(d)(1); 37
C.F.R. § 42.301(a). A patent is eligible for review if it
has at least one claim directed to a covered business
method. Transitional Program for Covered Business
Method Patents—Definitions of Covered Business
Method Patent and Technological Invention, 77 Fed.
Reg. 48,734, 48,736 (Response to Comment 8) (Aug. 14,
2012) (Final Rule).

43a
Our reviewing court has explained that “§ 18(d)(1)
directs us to examine the claims when deciding whether
a patent is a CBM patent.” Blue Calypso, LLC v.
Groupon, Inc., 815 F.3d 1331, 1340 (Fed. Cir. 2016) (finding that the challenged patent was eligible for review because the claims recited “an express financial component
in the form of a subsidy” that was “central to the operation of the claimed invention”). “CBM patents are limited to those with claims that are directed to methods
and apparatuses of particular types and with particular
uses ‘in the practice, administration, or management of
a financial produce or service.’” Unwired Planet, LLC v.
Google Inc., 841 F.3d 1376, 1382 (Fed. Cir. 2016). “Necessarily, the statutory definition of a CBM patent requires that the patent have a claim that contains, however phrased, a financial activity element.” Secure Axcess, LLC v. PNC Bank National Ass., 848 F.3d 1370,
1381 (Fed. Cir. 2017). “[T]he definition of ‘covered business method patent’ is not limited to products and services of only the financial industry” and “on its face covers a wide range of finance-related activities.” Versata
Dev. Grp., Inc. v. SAP Am., Inc., 793 F.3d 1306, 1325
(Fed. Cir. 2015).
Here, Petitioner takes the position that the ’842 patent is a CBM patent because it “is directed to and claims
activities financial in nature.” Pet. 6–9. Petitioner notes
that the ’842 patent focuses on applying a device in the
banking and vending machine industries. Id. at 6−7 (citing Ex. 1001, 1:43−65, 2:23−25, 4:30−37, Figs. 1B, 2A).
Petitioner contends that claims 3 and 4 (which were disclaimed after institution) are intended to capture a device for performing data processing or other operations
used in management of a financial product or service, as
claim 3 recites a remote device that “is associated with a

44a
vending machine” and claim 4 recites a remote device
that “is associated with an Automated Teller Machine
(ATM).” Id. at 8−9.
At the time of institution, we determined that Petitioner has demonstrated sufficiently that claims 3 and 4
are directed to an apparatus for performing data processing used in the practice, administration, or management of a financial product or service3 and that the ’842
patent satisfies the “financial product or service” component of the definition for a covered business method patent under § 18(d)(1) of the AIA. Dec. 5−7.
After Institution, Patent Owner filed a statutory
disclaimer for claims 3 and 4. Ex. 2008. Patent Owner
also maintains its opposition, advancing several arguments as to why the ’842 patent does not qualify as a
“covered business method patent.” PO Resp. 18−20.
First, Patent Owner argues that the disclaimed
claims “cannot form the basis for a ruling that the ’842
patent is a covered business method patent,” as the ’842
patent should be “treated as though the disclaimed
claims never existed.” Id. at 23. However, the belated
post-institution disclaimer of claims 3 and 4 does not affect our CBM patent review eligibility determination.
Notably, “CBM patent review eligibility is determined
based on the claims of the challenged patent as they exist

3

As noted in the Institution Decision (Dec. 5, 7 n.2), a patent is eligible for review if it has at least one claim directed to a covered
business method. 77 Fed. Reg. at 48,736 (Response to Comment 8).
Although the patentability of claims 3 and 4 are not challenged by
Petitioner, there is no requirement that only challenged claims may
be considered for purposes of determining a patent is eligible for
CBM patent review.

45a
at the time of the decision whether to institute.” Facebook, Inc. v. Skky, LLC, Case CBM2016-00091, slip op.
11 (PTAB Sept. 28, 2017) (Paper 2) (precedential) (emphasis added). Section 18(a)(1)(E) of the AIA provides
that “[t]he Director may institute a transitional proceeding only for a patent that is a covered business method
patent” (emphases added). Section 18(d)(1) of the AIA
defines a “covered business method patent” as “a patent
that claims a method or corresponding apparatus for
performing data processing or other operations used in
the practice, administration, or management of a financial product or service” (emphasis added). Hence, the
decision whether to institute a CBM patent review is
based on whether a patent “is” a covered business
method patent, which in turn is based on what the patent
“claims” at the time of the institution decision—not as
the claims may exist at some later time after institution,
as urged by Patent Owner.
Here, there is no dispute that claims 3 and 4 were
part of the ’842 patent at the time of our Decision on Institution. Compare Dec. 1 (instituting the instant CBM
patent review on January 23, 2017), with Ex. 2008, 1 (filing the disclaimer on May 5, 2017). Therefore, we did not
err, nor does Patent Owner argue that we erred, in considering claims 3 and 4 when determining whether
the ’842 patent is eligible for CBM patent review at the
time of institution. Significantly, Patent Owner’s belated disclaimer is an improper attempt to seek the specific relief set forth in 37 C.F.R. § 42.207 without complying with the rule’s timeliness requirement. Patent
Owner provides no reasonable explanation why we
should excuse Patent Owner’s delay in filing the disclaimer.

46a
Under 37 C.F.R. § 42.207 titled “Preliminary response to petition,” a “patent owner may file a preliminary response to the petition . . . setting forth the reasons why no inter partes review should be instituted.”
The rule also provides that “[t]he patent owner may file
a statutory disclaimer under 35 U.S.C. 253(a) in compliance with § 1.321(a) of this chapter, disclaiming one or
more claims in the patent,” and “[n]o post-grant review
will be instituted based on disclaimed claims.” In short,
when a patent owner timely files a statutory disclaimer
before institution, “[n]o post-grant review will be instituted based on disclaimed claims.”
Here, we would not have considered claims 3 and 4
in determining whether the ’842 patent is eligible for
CBM patent review if Patent Owner had timely filed the
statutory disclaimer before institution. See Facebook,
Case CBM2016-00091, slip op. at 4 (denying institution
on the sole ground that the patent is not eligible for CBM
patent review because, when the patent owner filed a
statutory disclaimer before its preliminary response, the
panel treated the disclaimed claims as if they never existed and declined to consider Petitioner’s arguments
that were based on the disclaimed claims). The Board
and both parties could have avoided the cost and expense of the instant trial, assuming no other claim could
provide standing.
More importantly, Petitioner would have had an opportunity to timely request an inter partes review before the deadline date of the one-year statutory bar under 35 U.S.C. § 315(b) (November 30, 2016). Reply 5 &
n.6; Exs. 1034−1036. We agree with Petitioner that
treating the belated post-institution disclaimed claims as
never existed, as urged by Patent Owner, would unfairly
prejudice Petitioner. Reply 5 & n.6.

47a
The Board’s rules are “construed to secure the just,
speedy, and inexpensive resolution of every proceeding.” 37 C.F.R. § 42.1(b). The rules, including 35 C.F.R.
§§ 42.1(b) and 42.207, were promulgated with the consideration of “the effect of any such regulation on the economy, the integrity of the patent system, the efficient administration of the Office, and the ability of the Office to
timely complete proceedings instituted under this chapter.” 35 U.S.C. § 326(b). We decline to construe our
rules and procedures to encourage dilatory tactics.
Patent Owner’s reliance on 35 U.S.C. § 235(a) (PO
Resp. 23) is misplaced. While our reviewing court has
“held that a disclaimer relinquishes the rights of the patent owner,” its “precedent and that of other courts have
not readily extended the effects of disclaimer to situations where others besides the patentee have an interest
that relates to the relinquished claims.” Rembrandt
Wireless Techs., LP v. Samsung Elecs. Co., 853 F.3d
1370, 1383−84 (Fed. Cir. 2017); cf. Guinn v. Kopf, 96 F.3d
1419, 1422 (Fed. Cir. 1996) (holding disclaimer of an allegedly interfering claim did not divest the Board of jurisdiction over interference proceeding). Moreover, although institution is discretionary (AIA § 18(a)(1); 35
U.S.C. § 324(a)), after institution of a CBM patent review, we are required by 35 U.S.C. § 328(a) “to issue a
final written decision with respect to the patentability
of” the challenged claims in the instituted CBM patent
review.
In view of the foregoing, we are not persuaded by
Patent Owner’s argument that we should reconsider our
determination that the ’842 patent is eligible for CBM
patent review based on the post-institution disclaimer.

48a
Patent Owner alternatively argues that, even if
post-institution disclaimed claims 3 and 4 could be taken
into consideration, the ’842 patent is not a CBM patent.
PO Resp. 23−30. According to Patent Owner, “[t]he
mere fact that claims 3 and 4 . . . mention a vending machine and ATM respectively is not [] sufficient to demonstrate that the invention of the ’842 patent is directed to
financial products or services” Id. at 23. Patent Owner
also argues that the mere possibility that the remote devices “could communicate financial data is not nearly sufficient to demonstrate that it is directed to financial
products or services.” Id. at 24. Patent Owner further
contends that the ’842 patent is not directed to financial
products or services, but instead directed to a radio frequency (“RF”) transceiver that communicates data between remote devices and a central location. Id. at 18–
19. Patent Owner avers that the operation of the RF
transceiver and associated components is the same regardless of whether they are communicating financial
data or another type of data. Id. at 19−22. Patent Owner
also maintains that the claimed invention is “not related
to the operation of an ATM, vending machine or any
other device that could send financial information.” Id.
at 22−23.
Based on the evidence before us, we determine that
Petitioner has established sufficiently that each of claims
3 and 4 recites an apparatus for performing data processing or other operations used in the practice, administration, or management of a financial product or service. We are not persuaded by Patent Owner’s arguments, as they are based on the wrong test and fail to
consider the financial elements recited in the claims.
At the outset, Patent Owner’s arguments are based
on the wrong test, requiring the claimed invention to be

49a
“directed to a financial product or service.” PO Resp. 30.
“[T]he definition of ‘covered business method patent’ is
not limited to products and services of only the financial
industry.” Versata, 793 F.3d at 1325. Rather, the proper
inquiry is whether the patent “claims a method or corresponding apparatus for performing data processing or
other operations used in the practice, administration, or
management of a financial product or service.” AIA §
18(d)(1) (emphasis added); Unwired Planet, 841 F.3d at
1382.
Contrary to Patent Owner’s assertion that “claims 3
and 4 do not recite an automated teller machine or a
vending machine,” claims 3 and 4 expressly recite
“wherein the remote device is [] associated with a vending machine” and “wherein the remote device is associated with an Automated Teller Machine (ATM),” respectively. Ex. 1001, 14:64−67. We disagree with Patent
Owner’s characterization that “the claims recite that a
communication link is established ‘between at least one
device [which could be associated with an ATM or vending machine] in the network of addressable devices and
the central location.’” PO Resp. 24 (citing Ex. 1001,
13:52−54) (bracketed text added by Patent Owner).
Claims 3 and 4 use the present tense “is,” not “could be,”
and thus do not merely encompass a vending machine or
ATM as examples of remote devices that fall within the
scope of a broadly claimed genus. This claim language
indicates that the claimed remote device or device for
communicating information may be the vending machine
or ATM itself, as shown in Figures 1A−2B, using the
communication link to communicate information associated with the vending machine or ATM to the central location.

50a
In the context of the ’842 patent, we find that a vending machine and an ATM, as recited in claims 3 and 4,
respectively, are themselves a “financial product” and
used to perform a financial “service.” Turning to the
Specification to assess the scope of these claims, we note
that the Specification repeatedly describes the claimed
subject matter in the context of selling goods in exchange for money or providing banking services. Id. at
1:43–65, 2:23–25, 3:12−14, 3:22−23, 4:32−37, 6:19−28, Fig.
5. For example, the Specification describes a vending
machine, such as a soda dispensing machine, “a snack
dispensing apparatus, a candy dispensing apparatus, a
cigarette dispensing apparatus, a newspaper dispensing
apparatus, [or] an ice dispensing apparatus.” Id. at 8:12–
19, Figs. 2A, 2B. In another embodiment, the Specification describes an automatic financial transaction machine as “an automated teller machine for banking [or]
gas pumps of the type equipped to receive credit cards
for charging an otherwise cash transaction.” Id. at 4:43–
53, Figs. 1A, 1B. Significantly, selling goods or providing banking services are activities that are financial in
nature. See SightSound Techs., LLC v. Apple Inc., 809
F.3d 1307, 1315 (Fed. Cir. 2015) (a financial activity (e.g.,
electronic sales of digital audio) not directed to money
management or banking can constitute a “financial product or service” within the meaning of the statute). In
short, claims 3 and 4 explicitly contain a financial activity
element—a vending machine and an ATM, respectively—and not merely a limitation that could be considered “incidental” or “complementary” to such financial
activity. See Secure Axcess, 848 F.3d at 1381; Unwired
Planet, 841 F.3d at 1382.
Furthermore, in the context of the ’842 patent, the
claimed “device for communicating information” as a

51a
whole is an apparatus used in the administration and
management of the recited vending machine and ATM
and, consequently, is a financial product. Ex. 1001,
14:43−67. Notably, the claimed remote device is used for
communicating financial and service information from a
vending machine or an ATM to a central location. Ex.
1001, 14:43−67, Figs. 1A, 5. Indeed, the concept of communicating financial and service information from the
vending machine or ATM is central to the operation of
the claimed device. Id. at 1:43–65, 2:23–25, 3:12−14,
3:22−23, 4:32−37, 6:19−28, Figs. 1A, 5. As explained in
the Specification, “in the banking industry, when a user
accesses an automated teller machine (ATM), it may be
desirable to communicate the user identifying information (e.g., account and PIN number) to a central location to verify that the PIN number matches the account
number.” Id. at 1:43−49. In addition, “if the ATM breaks
down, malfunctions, runs out of money, takes in a predetermined amount of money, or for a variety of other reasons, it may be desirable to communicate such information to a central location that can respond accordingly
(e.g., dispatch a person to repair or otherwise service
machine).” Id. at 1:49−54. The Speciﬁcation also explains that “[i]n the vending machine industry, it may be
desirable to communicate information relating to the
product status (e.g., low or out of stock) of a given vending machine to a central location, so that service personnel may be dispatched to replenish the product.” Id. at
1:55−59. Further, “if the vending machine malfunctions,
runs out of change, acquires too much currency, or for
other reasons, it may be desired to communicate this information to a centralized location.” Id. at 1:62−65. Patent Owner also admits that the “‘low power transceiver
module’ disclosed in original claim 1 is clearly a remote
device associated with a vending machine because it

52a
transmits instruction data associated with a vending machine such as ‘Vending Machine n is out of order,’ and
‘Vending machine n is tilted.’” PO Resp. 83 (citing Ex.
1001, 16:9−11, Fig. 5). As such, the other claim elements
are intended to assist the vending machine and ATM
(the remote device of dependent claims 3 and 4, respectively) in performing the financial activities of selling
goods and/or dispensing money.
For the foregoing reasons, we determine that Petitioner has demonstrated sufficiently that claims 3 and 4
are directed to an apparatus for performing data processing used in the practice, administration, or management of a financial product or service. Consequently,
the ’842 patent satisfies the “financial product or service” component of the definition for a covered business
method patent under § 18(d)(1) of the AIA.
2. Technological Invention Exception
The definition of “covered business method patent”
in § 18(d)(1) of the AIA excludes patents for “technological inventions.” To determine whether a patent falls
within this exception, we consider “whether the claimed
subject matter as a whole recites a technological feature
that is novel and unobvious over the prior art; and solves
a technical problem using a technical solution.” 37
C.F.R. § 42.301(b). Both requirements must be satisfied
in order for the patent to be excluded as a technological
invention. See Versata, 793 F.3d at 1326–27; Apple Inc.
v. Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016).
Therefore, a patent would not be excluded as a technological invention if one of the prongs is not satisfied.
Further, the following claim drafting techniques, for
example, typically do not render a patent a technological
invention:

53a
(a) Mere recitation of known technologies, such as computer hardware, communication or computer networks, software,
memory, computer-readable storage medium, scanners, display devices or databases, or specialized machines, such as an
ATM or point of sale device.
(b) Reciting the use of known prior art
technology to accomplish a process or
method, even if that process or method is
novel and non-obvious.
(c) Combining prior art structures to
achieve the normal, expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756,
48,763–64 (Aug. 14, 2012). A claim does not include a
“technological feature” if its “elements are nothing more
than general computer system components used to carry
out the claimed process.” Versata, 793 F.3d at 1327 (“the
presence of a general purpose computer to facilitate operations through uninventive steps does not change the
fundamental character of an invention”).
Here, Petitioner asserts that the ’842 patent is not
directed to a technological invention and, thus, should
not be excluded from the definition of a covered business
method patent. Pet. 9–13. In Petitioner’s view, the technology recited in the claims at issue is generic and was
well-known. Id. at 9–12. Petitioner also argues that the
claims do not solve a technical problem using a technical
solution. Id. at 12–13.
Patent Owner counters that the claims here solve a
technical problem, including: (1) “the unlawful interception of the electromagnetic signals”; (2) interference

54a
from a second user’s device; and (3) “different machines
manufactured by different companies associate different
meanings with different codes.” PO Resp. 31–43. Patent
Owner argues that the ’842 patent addresses these technical problems with a technical solution of using a
low-power transceiver receiving an instruction data
from a remote device, an interface circuit, and a controller coupled to the interface circuit and the low power
transceiver establishing a communication link between
the remote device and central location. Id. at 32.
Upon consideration of the parties’ contentions, we
are persuaded by Petitioner’s showing. Notably, claims
3 and 4 are directed to a device for communicating information, comprising a low-power transceiver, an interface circuit, and a controller to establish a communication link between a remote device that is associated with
a vending machine or an ATM and a central location. Ex.
1001, 14:43−67. We agree with Petitioner that claims 3
and 4 recite no more than generic and known hardware
elements and routine computer functions. Pet. 9–13. As
the Specification and other evidence confirm, wireless
communication using a low-power transceiver was
known in the art. See, e.g., Ex. 1001, 5:23–25 (“[S]mall
transmitters of this type are known for activating and
deactivating automobile alarm systems.”); see also Ex.
2001, 1 (“Low-power, non-licensed transmitters are used
virtually everywhere. Cordless phones, baby monitors,
garage door openers, wireless home security systems,
keyless automobile entry systems and hundreds of other
types of common electronic equipment rely on such
transmitters to function.”). The Specification admits
that (1) the “invention is directed to a general purpose
transceiver,” (2) “the “actual structure . . . of the central
station 62 is unimportant,” (3) “controller 256 may be a

55a
general purpose microprocessor or microcontroller,” (4)
“interface 258 . . . is designed to interface with . . . typical/standard telephone circuitry 263,” and (5) the system
provides “general purpose communications to a central
location” using the public-switched telephone network
(PSTN). Ex. 1001, Abs., 2:46–48, 7:53–55, 10:13–14,
10:21–23, Figs. 1A, 1B.
We agree with Petitioner that the claimed subject
matter as a whole does not solve a technical problem using a technical solution. Pet. 9–13. The Specification
states that the “invention is generally directed to a system for communicating information to a predetermined
location.” Ex. 1001, 2:23–25. When a vending machine
or ATM breaks down, malfunctions, or runs out of
money, it may be desired to communicate this information to a centralized location using an automated process to replace the relatively expensive manual process
of dispatching a person to check on the machine periodically. Id. at 1:43–2:11. Automating service requests of
vending machines and ATMs to reduce the cost is a financial problem, not a technical problem purportedly
solved by the ’842 patent.
The Specification also confirms that the solutions to
the purported technical problems relied upon by Patent
Owner involve features that are not recited in the
claims. Notably, the Specification discloses using an extremely low power transmitter to prevent “the unlawful
interception of the electromagnetic signals” and interference from a second user’s device. Ex. 1001, 6:1−9,
9:3−23. Claims 3 and 4 depend from claim 1, which recites “a low-power transceiver,” not “an extremely low
power transmitter.” Id. at 14:45. As discussed in the
claim construction section below (Section II. A), these
claims also do not recite “codes.”

56a
As such, we are persuaded by Petitioner’s showing
that the subject matter, as a whole, in each of claims 3
and 4 does not recite a technological feature that is novel
and non-obvious over the prior art, and the claimed subject matter does not solve a technical problem using a
technical solution. Accordingly, the ’842 patent is not excluded from covered business method patent review as
being directed to a technological invention.
For the foregoing reasons, we conclude that the ’842
patent is a covered business method patent under AIA §
18(d)(1) and is eligible for review using the transitional
covered business method patent program.
E. Instituted Grounds of Unpatentability
We instituted this trial based on the following
grounds (Dec. 50−51):
Challenged Claims

Basis

1, 7, 9, 19, and 17

§ 101

1, 7, 9, 19, and 17

§ 103(a)

1, 7, 9, 19, and 17

§ 112, ¶ 1

Reference

Tymes4

II. ANALYSIS
A. Claim Construction
Claims of an expired patent are given their ordinary
and customary meaning in accordance with Phillips v.
AWH Corp., 415 F.3d 1303 (Fed. Cir. 2005) (en banc).
See In re Rambus Inc., 694 F.3d 42, 46 (Fed. Cir. 2012).
However, claim terms in an unexpired patent are inter-

4

U.S. Patent No. 5,157,687, issued on Oct. 20, 1992 (“Tymes,” Ex.
1005).

57a
preted according to their broadest reasonable construction in light of the specification of the patent in which
they appear. 37 C.F.R. § 42.300(b). “In many cases, the
claim construction will be the same under [both] standards.” In re CSB-System Int’l, Inc., 832 F.3d 1335, 1341
(Fed. Cir. 2016).
In the Decision on Institution, we applied the broadest reasonable interpretation standard to construe two
claim terms, “low-power transceiver” and “instruction
data.” Dec. 14−20. We also indicated that, during trial,
parties may present arguments in their briefs regarding
whether the Phillips standard should be applied. Id. at
14. After institution, both parties agree that the ’842 patent has expired and the Phillips standard should apply.
PO Resp. 9−10; Reply 1−2 n.1. However, neither party
provides, nor can we discern, any reason the broadest
reasonable interpretation standard would lead to a different result than the Phillips standard.
We note that only those claim terms that are in controversy need to be construed, and “only to the extent
necessary to resolve the controversy.” Nidec Motor
Corp. v. Zhongshan Broad Ocean Motor Co. Ltd., 868
F.3d 1013, 1017 (Fed. Cir. 2017) (citing Vivid Techs., Inc.
v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999)). For purposes of this Decision, we find it necessary to address only the claim terms “low-power transceiver” and “instruction data.”
“low-power transceiver”
Claim 1 recites “a low-power transceiver configured
to wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable devices.”
Ex. 1001, 14:45–47. In our Institution Decision, we
agreed with the Patent Owner insofar as an ordinarily

58a
skilled artisan would have recognized that a transceiver5
is a device that can transmit and receive signals and that,
at the time of the invention, low-power transceivers may
have a limited transmission range, such as those used in
baby monitors and garage door openers. Dec. 14−17. In
view of the Specification and other evidence in the record, we construed the claim term “low-power transceiver” to encompass “a device that transmits and receives signals having a limited transmission range.” Id.
After institution, Petitioner agrees with our claim
construction set forth in the Institution Decision. Reply
2. However, Patent Owner maintains that the proper
construction is a “transceiver that transmits and receives signals having a limited transmission range,” advancing several arguments. PO Resp. 12−15.
Petitioner counters that Patent Owner’s proposed
construction would improperly import the limitation
“limited transmission range” into the claims. Reply 1−2.
Petitioner argues that plain and ordinary meaning
should apply, and that the term “a low-power transceiver” refers to a “transceiver that consumes less
power, e.g., by transmitting and receiving low power signals.” Id. at 2; Ex. 1038 ¶¶ 34−39 (emphasis added).
Upon consideration of the parties’ contentions, we
are not persuaded by Patent Owner’s arguments, as
they conflate “power” with “transmission range”—the
claim term recites “low-power,” not “low-transmission
range.” We agree with Petitioner that Patent Owner’s

See MICROSOFT COMPUTER DICTIONARY at 474 (3rd ed.
1997) (defining “transceiver” as a “device that can both transmit and
receive signals.”) (Ex. 3001, 4)
5

59a
proposed construction would import improperly a limitation into the claims, and we credit Mr. James T. Geier’s
testimony (Ex. 1038 ¶¶ 34−39) as it consistent with the
other evidence of record before us. We address below
each of Patent Owner’s arguments in turn.
First, Patent Owner argues that “the claim language itself indicates that the claimed low-power transceiver transmits low-power signals,” citing the language
of claim 2, “wherein the low-power signal comprises a
logical IP address.” PO Resp. 12 (citing Ex. 1001, 14:60–
61). However, “the low-power signal” does not necessarily require a transceiver to transmit signals having a
limited transmission range. Patent Owner does not explain meaningfully, or provide persuasive evidence to
show, how a “low-power signal” is necessarily related to
the transmission range of a transceiver. Consistent
with the plain and ordinary meaning of the term, “a
low-power transceiver” refers to a transceiver that consumes less power, e.g., by transmitting and receiving low
power signals. Ex. 1038 ¶¶ 34−39.
Second, Patent Owner avers that the Specification
relates low-power to a limited transmission range by distinguishing a low-power transmitter from cellular transmitters. PO Resp. 12−13 (citing Ex. 1001, 14:15–21). Patent Owner also argues the Specification states that an
extremely low-power transmitter has a range of only
several feet. Id.; Ex. 1001, 6:1–3. However, that disclosure does not support Patent Owner’s proposed construction, as it addresses a low-power RF transmitter.
Id. at 14:15−21. The claims merely recite a “low-power
transceiver,” which could be, but may not necessarily be,
a low-power RF transceiver. Furthermore, the use of a
cellular transmitter instead of a low-power RF transmitter in the context of an automobile could be based on the

60a
availability of cell towers versus payphones, not necessarily the transmission range. Ex. 1038 ¶ 38. We also do
not discern the preferred embodiment using an extremely low-power transmitter supports Patent
Owner’s positon. Our reviewing Court “has repeatedly
cautioned against limiting the claimed invention to preferred embodiments or specific examples in the specification.” Williamson v. Citrix Online, LLC, 792 F.3d
1339, 1346–47 (Fed. Cir. 2015).
Third, Patent Owner argues that an ordinarily
skilled artisan would have understood that a low-power
transceiver has a significantly lower transmission range
than the range of a cellular transmitter, citing
Mr. Geier’s cross-examination testimony. Id. at 12–13
(citing Ex. 2007, 37:6−9).
However, Mr. Geier’s
cross-examination testimony does not support Patent
Owner’s construction. Ex. 2007, 36:2−14, 36:12−17 (testifying that “it really depends on the situation”), 37:6−9
(“you could have . . . less, range with a lower power
transmitter”); Ex. 1038 ¶¶ 36−37. In fact, Mr. Geier’s
cross-examination testimony is consistent with his testimony filed in support of Petitioner’s Reply that a relevant artisan would have recognized that changing the
“power” does not necessarily change the “transmission
range,” which depends numerous factors, including the
signal frequency and environment. Ex. 1038 ¶¶ 36−37.
Fourth, Patent Owner argues that “low-power
transceiver” should be construed as “having a limited
transmission range to be consistent with its function of
limiting contention, interference and the unlawful interception of data.” PO Resp. 13−14. However, none of the
claims contains that functional language. As described
in the Specification, the “function of limiting contention,
interference and the unlawful interception of data” is

61a
achieved by an extremely low power transmitter—an
unclaimed feature. Ex. 1001, 5:65−6:11. Once again, Patent Owner improperly attempts to import a limitation
from a preferred embodiment into the claims.
Finally, Patent Owner argues that the Federal
Communication Commission (FCC) defined low-power
radio transmitters as having a range of only a few meters, citing to the following passage:
Low-power, non-licensed transmitters are
used virtually everywhere.
Cordless
phones, baby monitors, garage door openers, wireless home security systems, keyless automobile entry systems and hundreds of other types of common electronic
equipment rely on such transmitters to
function. At any time of day, most people
are within a few meters of consumer products that use low-power, non-licensed
transmitters.
PO Resp. 14−15; Ex. 2001, 1 (emphasis added).6 However, the FCC Bulletin does not support Patent Owner’s
argument that the term “low-power transceiver” is limited to a transmission range of a few meters because the
distance between “people” and the “consumer products
that use low-power, non-licensed transmitters” is not
necessarily equal to the transmission range of signals—
the distance between the transmitter that sends the signals and the receiver that receives the signals.

6

The Office of Engineering and Technology of the Federal Communications Commission, Understanding the FCC Regulations for
Low-Power, Non-Licensed Transmitters, OET Bulletin No. 63 (Edited and Reprinted Feb. 1996) (“the FCC Bulletin”).

62a
Therefore, based on the record in this proceeding,
we maintain our construction for “low-power transceiver” to encompass “a device that transmits and receives signals having a limited transmission range.”
“instruction data”
Claim 1 recites “a low-power transceiver configured
to wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable devices.”
Ex. 1001, 14:45–47 (emphasis added). In our Institution
Decision, we rejected Patent Owner’s proposed claim
construction for the term “instruction data” as it would
import improperly a limitation from a preferred embodiment into the claims, attempting to replace “data” with
“code.” Dec. 18−20. Rather, in light of the Speciﬁcation,
we construed “instruction data” as “items of information
that allows a computer system to identify a function or
an instruction to be performed.” Id. After institution,
Petitioner agrees with our claim construction. Reply 4.
However, Patent Owner maintains that the proper
construction for “instruction data” is a “code identifying
a function to be performed or identifying a status that
triggers a function to be performed.” PO Resp. 15–18.
According to Patent Owner, the language of claim 10
supports its interpretation—the controller is “configured to decode the instruction data and implement an associated instruction.” Ex. 1001, 15:14–19. Patent Owner
also cites the following passages of the Specification as
support:
In accordance with one aspect of the invention, the system includes a transmitter disposed at a first location and configured to
transmit a signal containing an instruction
code to a transceiver. The instruction code

63a
uniquely identifies an instruction to be
carried out.
Ex. 1001, 2:25–30 (emphasis added).
The instruction code is a relatively small
data value that may be decoded to define a
wide variety of functions. For example, an
instruction code a single byte (eight bits)
in size may define up to two hundred fifty
six different functions or instructions Similarly, an instruction code two bytes in size
may define over sixty-five thousand (216)
functions or instructions.
Id. at 2:51–57 (emphases added).
In fact, for purposes of the present invention, the message transmitted by the
transmitter may be as simple as an instruction code that defines some condition, that
a central station may decode and act upon.
Id. at 13:58–61 (emphasis added).
Again, Patent Owner’s proposed construction would
improperly import a limitation from a preferred embodiment into the claims. The Specification, including claim
10, does not redefine “instruction data” as an instruction
code that is a relative small data value uniquely identifying a function to be performed or a status that triggers a
function to be performed. Rather, in the context of the
Specification, an ordinarily skilled artisan would have
understood “data” as plural of datum, “an item of information.” See MICROSOFT COMPUTER DICTIONARY at 129 (3rd ed. 1997) (defining “data” as “[p]lural of
the Latin datum, meaning an item of information”) (Ex.

64a
3001, 3). As the Specification confirms, the “signal comprising instruction data” itself does not include an instruction, but instead contains information for a computer system at the central location, or other locations,
to identify the function or instruction to be performed.
Ex. 1001, 14:50–59 (reciting a controller that is configured to “communicate information contained within the
signals to the central location”), 3:3–7 (explaining the
predetermined location, e.g., a central dispatch location,
identifies the function or instruction), Fig. 4. Furthermore, the portion of Mr. Geier’s cross-examination testimony relied upon by Patent Owner (Ex. 2007, 59:10−17,
61:1−5) also does not support Patent Owner’s construction because, in the very next two sentences in that testimony, Mr. Geier explained that the cited passages in
the Specification are “referring to codes,” while the
claims refer to “instruction data.” Ex. 2007, 59:18−21.
For the foregoing reasons, we decline to adopt Patent Owner’s proposed construction for the term “instruction data.” Rather, in light of the Specification and
the basic knowledge of an ordinarily skilled artisan, we
construe “instruction data” as “items of information that
allows a computer system to identify a function or an instruction to be performed.”
B. Patentable Subject Matter Under 35 U.S.C § 101
Petitioner asserts that claims 1, 7, 9, 16, and 17 are
directed to an abstract idea that is not eligible subject
matter for a patent under § 101. Pet. 16–28. Petitioner
takes the position that these challenged claims are directed to an abstract idea of “establishing a communications route between two points to relay information,”
and no other component recited in the claims transforms

65a
the patent-ineligible concept to a patent-eligible application. Id. Patent Owner opposes. PO Resp. 58–77.
A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of matter, or any new and useful improvement thereof.” 35
U.S.C. § 101. The Supreme Court has held that this provision contains an implicit exception: laws of nature, natural phenomena, and abstract ideas are not patentable.
Alice Corp. v. CLS Bank International, 134 S. Ct. 2347,
2354 (2014); Gottschalk v. Benson, 409 U.S. 63, 67 (1972)
(“Phenomena of nature, through just discovered, mental
processes, and abstract intellectual concepts are not patentable, as they are the basic tools of scientific and technological work.”). Notwithstanding that a law of nature
or an abstract idea, by itself, is not patentable, the practical application of these concepts may be deserving of
patent protection. Mayo Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293–94 (2012).
In Alice, the Supreme Court reaffirmed the framework set forth previously in Mayo “for distinguishing
patents that claim laws of nature, natural phenomena,
and abstract ideas from those that claim patent-eligible
applications of these concepts.” Alice, 134 S. Ct. at 2355.
The first step in the analysis is to “determine whether
the claims at issue are directed to one of those patent-ineligible concepts.” Id. If the claims are directed to a patent-ineligible concept, the second step in the analysis is
to consider the elements of the claims “individually and
‘as an ordered combination’” to determine whether there
are additional elements that “‘transform the nature of
the claim’ into a patent-eligible application.” Id. (quoting
Mayo, 132 S. Ct. at 1298, 1297). The prohibition against
patenting an abstract idea “cannot be circumvented by
attempting to limit the use of the formula to a particular

66a
technological environment or adding insignificant
post-solution activity.” Bilski v. Kappos, 561 U.S. 593,
610–11 (2010) (citation and internal quotation marks
omitted).
Whether the challenged claims are directed to an abstract idea
As the first step of our analysis, we determine
whether claims 1, 7, 9, 16, and 17 of the ’842 patent are
directed to a patent-ineligible concept, such as an abstract idea. See Alice, 134 S. Ct. at 2355. In determining
whether the claims are directed to an abstract idea, we
must avoid oversimplifying the claim because “all inventions at some level embody, use, reflect, rest upon, or apply laws of nature, natural phenomena, or abstract
ideas.” Mayo¸132 S. Ct. at 1293. To that end, we consider the claims “in light of the specification, based on
whether ‘their character as a whole is directed to excluded subject matter.’” Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016) (citing Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1346
(Fed. Cir. 2015)). In that regard, we determine whether
the claims “focus on a specific means or method that improves the relevant technology” or are “directed to a result or effect that itself is the abstract idea and merely
invoke generic processes and machinery.” McRO, Inc.
v. Bandai Namco Games Am. Inc., 837 F.3d 1299, 1314
(Fed. Cir. 2016).
Here, Petitioner argues that claims 1, 7, 9, 16, and 17
are directed to the patent-ineligible abstract idea of “establishing a communication route between two points to
relay information.” Pet. 17. According to Petitioner,
“[t]his concept has been practiced for centuries in applications such as the Postal Service, Pony Express, and

67a
telegraph, where a route is established to relay mail or
other communications from one point to another.” Id.
(citing Ex. 1003 ¶¶ 26–30, 44–57, 59–63; Ex. 1019–Ex.
1021).
Upon consideration of the parties’ contentions, we
determined in our Institution Decision that Petitioner
has demonstrated sufficiently for purposes of instituting
a CBM patent review that claims 1, 7, 9, 16, and 17 are
directed to a patent-ineligible abstract idea because the
claims appear to require no more than the use of conventional or generic technology in sending information between two locations. Dec. 22−27. As Petitioner explains,
the Specification confirms that each claim, as a whole, is
drawn to the abstract concept of “establishing a communication route between two points to relay information.”
Pet. 19.
Notably, the Specification states that “the present
invention is generally directed to a system for communicating information to a predetermined location.” Ex.
1001, 2:23–25. The Specification confirms that the
claimed device merely replaces the manual process of
dispatching a human to check periodically on remote devices (e.g., a vending machine or ATM), and notifying the
central service location of any problems (e.g., out of a
product or money). Id. at 1:43–2:11. The Specification
explains that another aspect of the invention is to provide a method “for performing an automated service request.” Id. at 3:28–3:30. The Specification further confirms that “the invention is directed to a general purpose
transceiver having a receiver for receiving an information signal and a transmitter configured to transmit
an outgoing signal to a central station.” Id. at Abs., 2:23–
25 (emphasis added).

68a
Patent Owner argues that the claimed device is “a
concrete solution for resolving particular problems that
first arose with the development of networks hosting
wireless devices: how to receive and transmit data from
wireless devices while preventing unlawful interruption
of that data, interference, and contention.” PO Resp.
63−65. Patent Owner contends that “the problem of
transforming received data from a wireless communication protocol to a different protocol for transmission to a
central location arises in the realm of computer systems.” Id. at 71−73. Patent Owner argues that the
claims are “directed to an improvement in communication technology between remote devices that are accessible by wireless communication and a central location
via a circuit interface.” Id. at 66−70.
However, Patent Owner’s arguments are not commensurate in scope with the claims. The purported
problems that arose with the development of networks
hosting wireless device—unlawful interruption of that
data, interference, and contention—are addressed by using an extremely low-power transmitter. Ex. 1001,
5:65−6:11. As discussed above, the challenged claims recite a generic “low-power transceiver,” not an extremely
low-power transmitter. Additionally, the alleged problem of transforming data to a different protocol is addressed by an unclaimed feature, as the ’842 patent itself
recognizes that the invention is not necessarily limited
to certain protocol or requires a protocol conversion. Id.
at 13:55−14:5. Moreover, the challenged claims do not
requires a protocol conversion or recite a device for converting data from one protocol to a different protocol.
Rather, they recite generically a “network of addressable devices.”

69a
Patent Owner’s argument that the claims are “directed to an improvement in communication technology
between remote devices that are accessible by wireless
communication and a central location via a circuit interface” is unavailing. Significantly, the claims are not directed to a new type of transceiver, interface circuit, or
controller to establish a communication link between a
remote device and the central location. Instead, the
claims are directed to transmitting data between locations using conventional or generic computer components.
The challenged claims essentially recite a device for
communicating information that comprises:
(1) a
low-power transceiver for transmitting or receiving
data; (2) an interface circuit for communicating with a
central location; and (3) a controller for establishing a
communication link. The Specification confirms that
these features were known in the art. Ex. 1001, 5:23–25,
6:62–64 (“As is well known by those skilled in the art, a
variety of transducers can perform this functionality adequately.”), 10:13–15 (“[T]he controller 256 may be a
general purpose microprocessor or microcontroller.”),
10:21–23 (“The interface 258 within the transceiver 270
is designed to interface with this typical/standard telephone circuitry 263.”), 10:23–26 (“The specific implementation of the circuitry of [interface] 258 will be appreciated by persons skilled in the art and need not be described in detail herein.”). Indeed, the FCC Bulletin also
confirms that low-power wireless transmitters were
“used virtually everywhere,” noting that “[c]ordless
phones, baby monitors, garage door openers, wireless
home security systems, keyless automobile entry systems and hundreds of other types of common electronic
equipment rely on such transmitters to function.” Ex.

70a
2001, 1. Moreover, the ’842 patent itself recognizes that
the communication link between the remote device and
central location can be established by initiating a phone
call over a telephone line that is part of the public-switched telephone network. Ex. 1001, 2:34−38.
There is no dispute that such a communication link was
known in the art. Id. at 10:21−26.
Although the challenged claims recite physical components, not every claim reciting “concrete, tangible
components escapes the reach of the abstract-idea inquiry.” In re TLI Commc’ns LLC Patent Litig., 823 F.3d
607, 611 (Fed. Cir. 2016) (holding that claims reciting a
“telephone unit” and “server” were nonetheless directed
to an abstract idea because the specification made clear
that the recited physical components “merely provide a
generic environment in which to carry out the abstract
idea of classifying and storing digital images in an organized manner”). “The bare fact that a computer exists in
the physical rather than purely conceptual realm ‘is beside the point.’” DDR Holdings, LLC v. Hotels.com,
L.P., 773 F.3d 1245, 1256 (citing Alice, 134 S. Ct. at 2358).
“[C]laims purporting to improve the functioning of the
computer itself, or improving an existing technological
process[,] might not succumb to the abstract idea exception.” Enfish, 822 F.3d at 1335 (internal quotation
marks, brackets, and citation omitted). The question is
“whether the focus of the claims is on the specific asserted improvement in computer capabilities” or
whether “computers are invoked merely as a tool.” Id.
at 1335−36. For example, in Enfish, the court held that
claims “directed to a specific improvement to the way
computers operate, embodied in [a] self-referential table,” did not fall within the realm of abstract ideas. Id.

71a
In DDR Holdings, the court also held that claims “necessarily rooted in computer technology in order to overcome a problem specifically arising in the realm of computer networks” did not merely recite an abstract idea.
773 F.3d at 1257. However, these decisions do not support Patent Owner’s position in the instant proceeding.
As Petitioner explains, unlike the claims in Enfish,
822 F.3d at 1335– 36, which were “directed to any specific improvement to the way computers operate,” the
challenged claims here “simply substitute generic,
well-known computer components for a human in performing age-old communications.” Pet. 21–23, n.6. Additionally, the challenged claims, unlike those in DDR
Holdings, do not recite features that are “necessarily
rooted in computer technology in order to overcome a
problem specifically arising in the realm of computer
networks.” 773 F.3d at 1257. Patent Owner’s arguments
that the claimed device is directed to a solution to overcome problems arising with the development of networks of wireless devices or “in the realm of computer
networks” are based on unclaimed features. The Specification acknowledges that the claimed features were
known in the art. Ex. 1001, 2:34−38, 5:23−25, 6:62−64,
10:13−26. The Speciﬁcation also conﬁrms that the
claimed device using known generic components in the
known ways (e.g., using a wireless transceiver to transmit data or initiating a phone call across the PSTN)
merely replaces the manual process of dispatching a human to check periodically on remote devices (e.g., a
vending machine or ATM), and notifying the central service location of any problems (e.g., out of a product or
money). Id. at 1:43–2:11. The Specification makes clear
that the recited physical components merely provide a

72a
generic environment in which the service data is transmitted to the central location. Id. at Abs., 2:23–25.
“[A]fter Alice, there can remain no doubt: recitation of
generic computer limitations does not make an otherwise ineligible claim patent-eligible.” DDR Holdings,
773 F.3d at 1256.
The challenged claims also are unlike those in
McRO, which were focused on “a specific asserted improvement in computer animation, i.e., the automatic use
of rules of a particular type.” 837 F.3d at 1314. As the
court explained in McRO, “the claimed improvement
[was] allowing computers to produce accurate and realistic lip synchronization and facial expressions in animated characters that previously could only be produced
by human animators.” Id. at 1313 (internal quotation
marks omitted.). In contrast, the claims here do not address how the communication technology itself would be
improved. Nor do the claims recite an improved transceiver, interface, or controller. The Specification does
not provide “any technical details for the tangible components, but instead predominately describes the system and methods in purely functional terms.” TLI, 823
F.3d at 612.
As Petitioner notes (Pet. 21), the concept of automating a service request process with a general purpose
computer with known electronic components is an abstract idea ineligible for patenting. CyberSource Corp.
v. Retail Decisions, Inc., 654 F.3d 1366, 1372 (Fed. Cir.
2011) (finding claim directed to “unpatentable mental
processes” where the “steps can be performed in the human mind, or by a human using a pen and paper”); SiRF
Tech., Inc. v. Int’l Trade Comm’n, 601 F.3d 1319, 1333
(Fed. Cir. 2010); see also TLI, 823 F.3d at 612 (holding
the claims patent ineligible, where, inter alia, “[t]he

73a
specification does not describe a new telephone, a new
server, or a new physical combination of the two.”). In
buySAFE, the claims were held patent ineligible because they recited no more than using a computer to
send and receive information over a network in order to
implement the abstract idea of creating a “transaction
performance guaranty.” buySAFE, Inc. v. Google, Inc.,
765 F.3d 1350, 1355 (Fed. Cir. 2014). The claims here are
similar to those claims in buySAFE, reciting a general
purpose or conventional transceiver, interface, and controller for sending or receiving information between two
locations to implement the abstract idea of “establishing
a communication route between two points to relay information.” Further, like the claims in Apple, the challenged claims here do not address a particular way of
programming or designing the software to establish the
communication link between a remote device and the
central service center, but rather merely claim a general
purpose system that is directed to certain functionality.
Apple, 842 F.3d at 1240−41. The challenged claims also
are similar to those claims in Affinity Labs, reciting generic, well-known components to establish a communication link between two locations for transmitting data
wirelessly, but do not sufficiently describe how to perform these functions in a non-abstract way. Affinity
Labs of Tex., LLC v. DirectTV, LLC, 838 F.3d 1253,
1258−59 (Fed. Cir. 2016) (holding that claims, reciting a
wireless cellular telephone device, regional broadcasting
channel, and graphical user interface, were directed to
an abstract idea where they claimed “the function of
wirelessly communicating regional broadcast content to
an out-of-region recipient, not a particular way of performing that function.”). Notably, “limitations recite
routine computer functions, such as the sending and re-

74a
ceiving information . . . are no more than the performance of well-understood routine, and conventional activities previously known to the industry.” Intellectual
Ventures I LLC v. Erie Indemnity Co., 850 F.3d 1315,
1328−29 (Fed. Cir. 2017). In short, the challenged claims
do not “focus on a specific means or method that improves the relevant technology,” but rather are “directed to a result or effect that itself is the abstract idea
and merely invoke generic processes and machinery.”
McRO, 837 F.3d at 1314.
For the foregoing reasons, we are persuaded that
Petitioner has demonstrated sufficiently that claims 1, 7,
9, 16, and 17 of the ’842 patent are directed to a patent-ineligible abstract idea.
Whether the challenged claims lack a patent-eligible inventive concept
Turning to the second step in the analysis, we look
for additional elements that can “transform the nature
of the claim” into a patent-eligible application of an abstract idea. That is, we determine whether the claims
include an “inventive concept,” i.e., an element or combination of elements sufficient to ensure that the patent in
practice amounts to significantly more than a patent on
the abstract idea itself. Alice, 134 S. Ct. at 2357. The
additional elements must be more than “well-understood, routine, conventional activity.” Mayo, 768 S. Ct.
at 1297−98.
Here, Petitioner argues that claims 1, 7, 9, 16, and 17
are unpatentable because they are “directed only to an
abstract idea with nothing more added than generic
computing components and ‘well-understood, routine,
conventional activity’ previously performed in the field
(both individually and as an ordered combination in the

75a
claims).” Pet. 23–24 (citing Mayo, 132 S. Ct. at 1294).
According to Petitioner, the challenged claims “recite
the concept of establishing a communication route between two points ‘as performed by a generic computer,’
without disclosing any ‘novel or unusual’ improvement
to ‘the functioning of the computer itself’ or any advance
in computer technology that makes the performance of
[routine] functions more effective.” Id. at 24 (citing Alice, 134 S. Ct. at 2358–60).
We are persuaded by Petitioner’s explanations. In
view of the Specification, we agree with Petitioner that
the claimed elements, individually and as an ordered
combination, in each challenged claim, do not transform
the claimed abstract idea into a patent-eligible application.
Patent Owner counters that the challenged claims
“address problems specific to the new technology of
wireless devices and the proliferation of different types
of devices from different manufacturers that transmit
different types of data.” PO Resp. 73−77. In Patent
Owner’s view, the claims “provide a novel method for
communicating data originating from a wide variety of
different devices while preventing unlawful interception
of that data, interference, and contention.” Id. However, Patent Owner’s arguments again are not commensurate in scope with the claims, relying on unclaimed features. The Specification confirms that those purported
problems—interception of data, interference, and contention—are addressed by using an extremely
low-power transmitter, which is not recited in the challenged claims. Ex. 1001, 5:65−6:11. Moreover, the challenged claims do not recite “different types of devices
from different manufacturers,” but rather, they generically recite “a network of addressable devices.”

76a
We also are not persuaded by Patent Owner’s argument that the challenged claims “address problems specific to the new technology of wireless devices and the
proliferation of different types of devices from different
manufacturers that transmit different types of data.” In
fact, the challenged claims are not directed to specific details of the transceiver or other new wireless device. Rather, the claimed elements—transceiver, interface, and
controller—are generic, well-known electronic components performing their known functions to transmit
data.
Considering the elements individually, we are not
persuaded that the elements are sufficient to transform
the nature of the claims into a patent-eligible application
of the abstract idea of “establishing a communication
route between two points to relay information.” Even
when considering the elements as an ordered combination, we are not persuaded that challenged claims contain a combination of elements sufficient to ensure that
any of the claims amounts to significantly more than a
patent on the abstract idea.
The Specification itself confirms that the claimed
subject matter merely replaces a conventional business
practice with an electronic device having known computer components for sending and receiving information.
Ex. 1001, 1:66–2:11, 2:23–25, 3:28–3:30, 6:62–64. The
Specification explains that “the invention is directed to
a general purpose transceiver,” and that “[a]s is well
known by those skilled in the art, a variety of transducers can perform this functionality adequately.” Id. at
Abs., 2:23–25, 6:62–64. Indeed, the FCC Bulletin confirms that low-power transmitters were “used virtually
everywhere,” including in cordless phones, baby moni-

77a
tors, garage door openers, wireless home security systems, and keyless automobile entry systems. Ex. 2001,
1. The “transceiver” element requires nothing more
than a generic device performing a conventional function
(transmitting or receiving information). Using a generic
computer to send and receive information over a network does not transform the abstract idea into a patent-eligible invention. buySAFE, 765 F.3d at 1355; see
also Alice, 134 S. Ct. at 2358–59 (noting that “the use of
a computer to create electronic records, track multiple
transactions, and issue simultaneous instructions” does
not improve the functioning of the computer or any other
technology).
As to the “interface circuit” element, the Specification does not teach how the interface circuitry was to improve the communication or wireless technology. Nor
does it teach how this element was to be implemented
technologically. Instead, the Specification merely discloses that “[t]he specific implementation of the circuitry
of [the interface] will be appreciated by persons skilled
in the art and need not be described in detail herein.”
Ex. 1001, 10:23–26. The Specification also suggests that
the interface circuit uses preexisting technology to send
information, using a telephone line. Id. at 2:34–38 (“The
transceiver circuit includes a line interface circuit configured to interface with a telephone line that is part of
the public-switched telephone network.”), 10:17–26
(“The interface 258 within the transceiver 270 is designed to interface with this typical/standard telephone
circuitry 263.”). Simply adding preexisting technologies
to an otherwise unpatentable claim does not make the
claim patentable. Apple, 842 F.3d at 1242 (finding that
appending preexisting handwriting and voice capture
technologies onto otherwise unpatentable claims does

78a
not make them patentable); Content Extraction &
Transmission LLC v. Wells Fargo Bank, Nat. Ass’n,
776 F.3d 1343, 1348 (Fed. Cir. 2014) (holding that a recitation of the use of “existing scanning and processing
technology to recognize and store data from specific data
fields such as amounts, addresses, and dates” did not
amount to significantly more than the “abstract idea of
recognizing and storing information from hard copy documents using a scanner and a computer”).
Finally, with respect to the “controller” element, the
Specification teaches that the controller “may be a general purpose microprocessor or microcontroller.” Ex.
1001, 10:13–15. The Specification discloses that the controller establishes a communication link by initiating a
phone call over a telephone line that is part of the public
telephone network “for providing general purpose communications to a central location.” Id. at 2:34–48. As articulated in Alice, “the mere recitation of a generic computer cannot transform a patent-ineligible abstract idea
into a patent-eligible invention.” Alice, 134 S. Ct. at
2358. Like in Alice, the function performed by the controller as recited in the challenged claims here is “purely
conventional.” The computers in Alice were receiving
and sending information over networks connecting the
intermediary to the other institutions involved, and the
Court found those roles of the computers insufficient for
patent eligibility. Id. at 2359–60. Moreover, the use of
telephone lines for sending information is not an improvement to the communication technology, but rather
a well-understood, routine, conventional activity that
does not add significantly more to the abstract idea.
Mayo, 132 S. Ct. at 1298.

79a
The additional elements recited in dependent claims
7 and 9—requiring no more than communicating an identification code, or a field that indicates a destination device, along with the data, using the same generic
well-known computing components—also do not add significantly more to the abstract idea as to render the
claims patent-eligible. Patent Owner does not make separate, specific arguments directed to these claims.
For the foregoing reasons, we determine that each
claim element “does no more than require a generic computer to perform generic computer functions,” as in Alice, 134 S. Ct. at 2359. Even when the claimed elements
are considered “as an ordered combination,” as is the
case in Alice, they “add nothing that is not already present when the [elements] are considered separately.”
Id. (citing Mayo, 132 S. Ct. at 1298) (internal quotation
marks omitted). Each of claims 1, 7, 9, 16, and 17, as a
whole, conveys nothing meaningfully more than the abstract idea of establishing a communication route between two points to relay information as performed by a
generic computer system. Simply implementing an abstract concept on a computer, without meaningful limitations to that concept, does not transform a patent ineligible claim to a patent-eligible claim. Accenture Global
Servs. GmbH v. Guidewire Software, Inc., 728 F.3d 1336,
1345 (Fed. Cir. 2013).
On this record, we do not find that the claimed subject matter as a whole “improves the functioning of the
computer itself,” or “effect[s] an improvement in any
other technology or technical field,” as there is no specific recitation in the claims of improved computer technology or advanced programing techniques. See Alice,
134 S. Ct. at 2359. As is the case in Alice, the claims here
amount to “nothing significantly more” than applying an

80a
abstract idea on a generic computer system, which is not
enough to transform an abstract idea into a patent-eligible invention. Id. at 2360.
Furthermore, the restriction of using a wireless device to transmit the data does not alter the result. Confining the abstract idea to a particular technological environment, such as wireless delivery of regional broadcast content using only cellphones, does not render the
claims any less abstract. Affinity, 838 F.3d at 1258−59
(noting that “[t]he Supreme Court and this court have
repeatedly made clear that merely limiting the field of
use of the abstract idea to a particular existing technological environment does not render the claims any less
abstract”) (citing Alice, 134 S. Ct. at 2358; Mayo, 132 S.
Ct. at 1294; Bilski, 561 U.S. at 612; Content Extraction,
776 F.3d at 1348; buySAFE, 765 F.3d at 1355).
In view of the foregoing, we determine that Petitioner has shown by a preponderance of the evidence
that claims 1, 7, 9, 16, and 17 are directed to patent-ineligible subject matter under § 101.
C. Principles of Law on Obviousness
A patent claim is unpatentable under 35 U.S.C. §
103(a) if the differences between the claimed subject
matter and the prior art are such that the subject matter, as a whole, would have been obvious at the time the
invention was made to a person having ordinary skill in
the art to which said subject matter pertains. KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question of obviousness is resolved on the basis of underlying
factual determinations including: (1) the scope and content of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level of
ordinary skill in the art; and (4) objective evidence of

81a
nonobviousness. Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).
D. Level of Ordinary Skill
In determining the level of ordinary skill in the art,
various factors may be considered, including the “type of
problems encountered in the art; prior art solutions to
those problems; rapidity with which innovations are
made; sophistication of the technology; and educational
level of active workers in the field.” In re GPAC Inc., 57
F.3d 1573, 1579 (Fed. Cir. 1995) (citation omitted).
Mr. Geier testifies that a person with ordinary skill in
the art “would have had a minimum of a bachelor’s degree in electrical engineering or its equivalent and 2−3
years of experience in the development and design, or
technical marketing, of radio communications or computer network systems.” Ex. 1003 ¶¶ 9−10. Patent
Owner’s declarant, Kevin Almeroth, Ph.D., testifies similarly that such an artisan would have had a Bachelor of
Science Degree “in computer science, computer engineering or the equivalent and at least two years of experience with, or exposure to the design and development
of wireless communication network systems, including
familiarity with protocols used therein.” Ex. 2006 ¶ 103.
We adopt Mr. Geier’s assessment of a person with
ordinary skill in the art. However, we do not discern any
meaningful differences between the parties’ assessments of the level of ordinary skill in the art, and our
findings and conclusions would be the same under either
assessment. We further note that the prior art of record
in the instant proceeding reflects the appropriate level
of ordinary skill in the art. See Okajima v. Bourdeau,

82a
261 F.3d 1350, 1354–55 (Fed. Cir. 2001) (noting that, under some circumstances, “the prior art itself reflects an
appropriate level” of ordinary skill in the art).
E. Obviousness over Tymes
Petitioner asserts that claims 1, 7, 9, 16, and 17 are
unpatentable under § 103(a) as obvious over Tymes. Pet.
63–85. Petitioner provides detailed explanations as to
how Tymes teaches or suggests each limitation and articulates a reason to combine the teachings of Tymes, citing to Mr. Geier’s testimony for support. Id.; Ex. 1003.
Patent Owner counters that Tymes does not disclose
certain limitations, citing to Dr. Almeroth’s testimony
for support. PO Resp. 43–58; Ex. 2006.
We have considered the parties’ contentions and
supporting evidence in this entire trial record. Based on
the evidence before us, we determine that Petitioner has
established by a preponderance of the evidence that
Tymes renders the challenged claims obvious. We begin
our discussion below with an overview of Tymes, and
then we address the parties’ contentions in turn, focusing on the disputed claim limitations.
Tymes
Tymes discloses a packet data transmission system
that links a plurality of remote hand-held data-gathering
units to a central computer. Ex. 1005, Abs., Fig. 1. According to Tymes, it is an object of its invention to provide an improved, low-cost, low-power, data communication network, preferably a network using an RF link, in
which the remote terminal units can send data packets
to a central station, and receive acknowledged data signals from the central station.
Figure 1 of Tymes is reproduced below.

83a

Figure 1 of Tymes illustrates a communication network that includes host computer 10, a plurality of base
stations 12−14, and a plurality of remote terminals 15.
Host computer 10 is a central computer that maintains a
database management system. Id. at Abs., 4:61–5:44.
Remote units 15 send information to host computer 10
via intermediary base stations 12–14. Id. Each base station is connected to one or more remote units 15 via an
RF link. Id. Base stations 12–14 are connected to central host computer either by a wire connection or by a
similar RF link. Id. at 3:23–25.
Low-Power Transceiver
Claims 1 requires a device for communicating information that comprises “a low-power transceiver configured to wirelessly transmit a signal comprising instruction data for delivery to a network of addressable devices.” Ex. 1001, 14:45–47. Likewise, by virtue of their
dependency, claims 7 and 9 require this limitation. Id. at
15:5–7, 15:12–14. Claim 16 requires a device for communicating information that comprises a processor and
a memory that “are configured to cause the device to:
wirelessly transmit a signal comprising instruction data
for delivery to a network of addressable low-power

84a
transceivers.” Id. at 16:5–11. Claim 17 requires a device
for communicating information that comprises “a
low-power transceiver that is configured to wirelessly
receive a signal including an instruction data from a remote device.” Id. at 16:24–26.
As discussed above in our claim construction analysis (Section II.A.), we construe a “low-power transceiver” to encompass “a device that transmits and receives signals having a limited transmission range.” We
interpret “instruction data” as “items of information
that allows a computer system to identify a function or
an instruction to be performed.” We decline to adopt Patent Owner’s proposed constructions. Nevertheless,
even if we were to apply Patent Owner’s proposed construction, our obviousness determination below would
not be affected.
In regard to the aforementioned “low-power transceiver” limitations, the parties’ dispute centers on (1)
whether the RF transceiver in Tymes’ base station is
“low-power,” and (2) whether the RF transceiver in the
base station transmits “instruction data” to a network of
addressable devices or remote units. There is no dispute
that the RF transceivers in Tymes’ remote units are
“low-power.” PO Resp. 45−46; Pet. 65−68; Ex. 1005,
2:36−56.
Petitioner asserts that Tymes teaches or suggests
all of the limitations recited in the challenged claims, including a low-power transceiver in the device for communicating information (an RF transceiver in Tymes’
base station) and a network of addressable low-power
transceivers (the RF transceivers in Tymes’ remote terminals). Pet. 65−85. Petitioner also asserts that an ordinarily skilled artisan would have implemented

85a
low-power transceivers in the base stations because
Tymes teaches (1) a low-power data communication network for indoors, and (2) RF links for transmitting and
receiving signals between the base stations and remote
terminals “without site licensing under F.C.C. regulations.” Id. at 65−68, n.38.
In particular, Petitioner explains that Tymes meets
the “low-power transceiver” limitations because Tymes’
base station includes an RF transceiver configured to
wirelessly transmit or receive a signal (a response to a
distress call) via an RF transmission, and Tymes’ response packet, indicating “which antenna worked the
best,” is a signal that comprises instruction data. Id. at
63–68, 78–84. Tymes describes an RF data link usable
without site licensing under FCC regulations, which
limit the power for unlicensed transmitters to less than
or equal to one watt for the disclosed 902–928 MHz
range. Id. at 66, n.38 (citing Ex. 1005, 2:53–55, 14:49–51;
Ex. 1010, 18; Ex. 1017, 7:9–11, 31–34). Petitioner asserts
that an ordinarily skilled artisan “would thus have found
it advantageous and obvious to use ‘low power’ transceivers for the base stations of the network for use ‘indoor[s]’, and to keep the devices unlicensed.” Id.; Ex.
1003 ¶¶ 358−359.
Patent Owner counters that Tymes’ remote terminal cannot meet the claimed device because it does not
have an interface circuit or a controller. PO Resp. 47–
48. Patent Owner takes the position that Tymes’ base
stations do not include a low-power transceiver because
Petitioner’s citations to “low-power” refer to the remote
terminals, not the base stations. Id. at 44–45. Patent
Owner avers that Tymes teaches “a non-low-powered
transceiver to accomplish robust communication.” Id. at
49−50. Patent Owner also contends that Tymes teaches

86a
away from using a low-power transceiver in the base station. Id. at 46–47. Patent Owner further argues that
Tymes does not describe a “signal comprising instruction data” because the remote unit selects the antenna
that receives the stronger signal, “not rely on instruction
data from base stations to make a selection.” Id. at
50−53.
Based on the evidence before us, we determine that
Petitioner has provided a sufficient showing that Tymes
suggests the aforementioned “low-power transceiver”
limitations and that, in view of Tymes’ teachings, one of
ordinary skill in the art would have been motivated to
implement a low-power transceiver in Tymes’ base station. Patent Owner’s arguments and evidence do not undermine Petitioner’s obviousness showing.
First, Patent Owner’s argument that Tymes’ remote
terminal does not meet the claimed device as it does not
have an interface circuit and a controller is misplaced.
PO Resp. 47–48. Petitioner relies upon Tymes’ base stations to disclose the claimed device for communicating
information. Pet. 63–68. Petitioner’s annotated Figure
3 of Tymes is reproduced below.

87a
As shown in annotated Figure 3 of Tymes above,
host processor 10 (central location) is connected to base
station 13 (a device for communication information) via
link 11. Base station 13 includes CPU 30 (controller),
which is coupled to RF transceiver 34, communication
adapter 33 (interface circuit), and memory 31, via local
bus 32. Id. at 6:63–7:35. RF transceiver 34 in base station 13 is connected to antenna 35 for receiving and
transmitting data to and from remote units 15. Id.
As Petitioner notes (Pet. 65−68), Tymes’ network
includes host computer 10, base stations 12−14, and remote terminals 15 (addressable devices). Ex. 1005,
3:31−32 (“A feature of the protocol is to include an ID
number for the remote unit in the transmitted packet,
and to include this same ID number in the reply packet,
so acknowledgement by an assigned base station is conﬁrmed.”), 6:3−5, Figs. 1, 3. Host computer 10 maintains
a database management system to which remote units
15 make entries or inquires via base stations 12–14. Id.
at Abs., 4:61–5:44, 6:34–40. Remote units 15 also have
RF transceivers for transmitting and receiving wirelessly coded RF signals to and from a base station, via an
RF link. Id. at 8:32−9:18. As Patent Owner conﬁrms
(PO Resp. 45−46), the RF transceivers in the remote terminals are low-power (a network of addressable
low-power transceivers). Ex. 1005, 2:36−56.
Accordingly, Petitioner has shown sufficiently that
Tymes suggests a device for communicating information
(a base station) that comprises: (1) an RF transceiver
configured to transmit and receive wirelessly a signal to
and from a network of addressable low-power transceivers (remote terminals); (2) an interface circuit (communication adapter 33) for communicating with a central location (host computer 10); (3) a controller (CPU 30) that

88a
is coupled to the interface circuit (communication
adapter 33) and RF transceivers 34, as required by the
challenged claims. Pet. 63−68. Patent Owner’s argument that Tymes’ remote terminal does not meet the
claimed device for communicating information is inapposite.
Second, we are not persuaded by Patent Owner’s arguments that Tymes does not teach that the RF transceiver in the base station is “low-power” and that Tymes
teaches “a non-low-powered transceiver to accomplish
robust communication.” PO Resp. 45−46, 49−50. Patent
Owner’s arguments rest on an unduly narrow reading of
Tymes, limiting the “low-power” disclosure to only the
remote units. A person of ordinary skill in the art, reading Tymes as a whole, would have understood that
Tymes’ RF transceiver in the base station is
“low-power.” See Sundance, Inc. v. DeMonte Fabricating Ltd., 550 F.3d 1356, 1361 n.3 (Fed. Cir. 2008) (“What
a prior art reference discloses or teaches is determined
from the perspective of one of ordinary skill in the art.”);
In re Hedges, 783 F.2d 1038, 1041 (Fed. Cir. 1986) (noting
that when evaluating claims for obviousness, “the prior
art as a whole must be considered”).
As Petitioner notes (Pet. 66−68; Ex. 1003 ¶¶
353−366), Tymes discloses “an improved, low-cost,
low-power, data communication network in which a
number of remote terminal units are able to send packets of data to a central station, and . . . to receive
acknowledge signals and data from the central station.”
Ex. 1005, 2:36−56 (emphasis added). Tymes describes
that the central station includes a number of base stations connected to a central computer. Id. at 3:21−25. As
shown in Figure 1, the network includes base stations

89a
12−14, each of which “is coupled by an RF link to a number of remote units.” Id. at 4:61−5:44. The RF link is
used for sending “data packets from the remote terminals to the base stations and return.” Id. at 3:48−51 (emphasis added), 6:66–7:2. In fact, Tymes teaches that the
“advantage of this type of RF data link is that a band
may be used which does not require site licensing by the
F.C.C.” Id. at 3:55−59. Contrary to Patent Owner’s assertion that “low-power” refers to only the remote terminals, Tymes describes a low-power network that includes base stations.
As Petitioner also notes (Pet. 66–67, n.38), Tymes
teaches an “indoor” limited range network and an RF
data link “usable without site licensing under F.C.C. regulations, so that the expense and delays incident to such
licensing are eliminated or minimized.” Ex. 1005, 2:36–
56. Significantly, Tymes discloses that the optimum frequency is in the 902−928 MHz range for the RF transceivers in the base stations. Id. at 6:66–7:2, 13:58–61,
18:1−3. The FCC limits the power for unlicensed transmitters, and the power limit under the FCC regulations
is less than or equal to one watt for the disclosed 902–928
MHz range. Ex. 1010, 217; Ex. 1017, 7:9–11, 31–34.
Mr. Geier testifies that an ordinarily skilled artisan
“would have understood that an indoor communications
network as taught by Tymes requires only a limited
range (e.g., 1 mile or less (the length of a storage facility)), so that high-powered transceivers would be unnecessary and disfavored,” and that such an artisan “would
have considered a transmission of 1 Watt to be a
‘low-power’ transmission, with a limited range of approximately 1 mile.” Ex. 1003 ¶¶ 358−359. Mr. Geier
7

Our citations are to the page numbers in the lower right corner.

90a
also testifies that such an artisan would have had a reason to use low-power transceivers in the base stations so
that they are usable indoors without licensing under the
FCC regulations. Id. We credit Mr. Geier’s testimony
as it is consistent with Tymes’ teachings and other evidence. Ex. 1005, 2:36–56, 6:66–7:2, 13:58−61, 18:1−3,
Figs. 1, 3, 10; Ex. 1010, 21; Ex. 1017, 7:9−11, 29−34 (explaining that “unlicensed systems using conventional
modulation techniques attain ranges on the order of
500−1000 feet” (emphasis added)).
We are not persuaded by Dr. Almeroth’s testimony
that “[t]here is no teaching in Tymes that 902 to 928 MHz
is to be used,” that “using 902 to 928 MHz band at 1 W is
not the only way to” avoid “the need to obtain an FCC
site license,” and that “[t]here are other ways that interference can be avoided, e.g., using non-overlapping frequencies.” Ex. 2006 ¶¶ 130−133. We note that “case law
does not require that a particular combination must be
the preferred, or the most desirable, combination described in the prior art in order to provide [the] motivation [or reason] for the current invention.” In re Fulton,
391 F.3d 1195, 1200 (Fed. Cir. 2004).
More importantly, Dr. Almeroth’s testimony contradicts Tymes’ teachings, which discloses that “[t]he
optimum frequency for the carrier (in the 902 to 928 MHz
band), and the optimum antenna 35a to 35n [for the base
stations], can thus be selected.” Ex. 1005, 18:1−3.
Dr. Almeroth also fails to consider the general
knowledge of an ordinarily skilled artisan—e.g., “unlicensed systems using conventional modulation techniques attain ranges on the order of 500−1000 feet” and
“[b]ecause the spread spectrum signal produces a low interference level, the FCC presently allows unlicensed
operation at output power up to 1 watt, whereas the

91a
FCC limits conventional modulation techniques to lower
power outputs” (Ex. 1017, 7:29–35). See Ariosa Diagnostics v. Verinata Health, Inc., 805 F.3d 1359, 1365
(Fed. Cir. 2015) (explaining that “[a]rt can legitimately
serve to document the knowledge that skilled artisans
would bring to bear in reading the prior art identified as
producing obviousness”); Randall Mfg. v. Rea, 733 F.3d
1355, 1362 (Fed. Cir. 2013) (noting that when considering
whether a claim would have been obvious, “the
knowledge of such an artisan is part of the store of public
knowledge that must be consulted”). As Mr. Geier also
points out (Ex. 1038 ¶ 75), Dr. Almeroth is overlooking
the FCC regulation that non-licensed transmitter must
be low-power. Ex. 1010, 1, 5.
We are not persuaded by Dr. Almeroth’s testimony
that Mr. Geier does not “identify how much power would
be saved and whether it would result in any particular
advantage, for example, cost savings” or “address any of
the disadvantages of using low power, e.g., communication errors.” Ex. 2006 ¶¶ 130−131. Dr. Almeroth again
disregards certain portions of Tymes that disclose a
low-cost, low-power network usable indoors without site
licensing under the FCC regulations and having an optimum frequency in the 902−928 MHz range. Ex. 1005,
2:36−56, 3:21−24, 18:1−3. Neither Patent Owner nor
Dr. Almeroth considers the advantages and reasons
stated in Tymes for using low-power transceivers in the
base stations and low-power network. See SightSound
Techs., LLC v. Apple Inc., 809 F.3d 1307, 1318−19 (Fed.
Cir. 2015) (affirming the Board’s obviousness determination that was based on the “[f]inding that the reason to
combine was manifested by the references themselves”).
In short, we credit the testimony of Mr. Geier (Ex. 1003
¶¶ 353−366) over that of Dr. Almeroth (Ex. 2006 ¶¶

92a
130−133). The Board has broad discretion as to the
weight to be accorded to evidence. Velander v. Garner,
348 F.3d 1359, 1371 (Fed. Cir. 2003) (stating that it is
“within the discretion of the trier of fact to give each
item of evidence such weight as it feels appropriate”).
For the reasons stated above, we determine that Petitioner has established by a preponderance of the evidence that Tymes suggests using low-power transceivers in the base stations, as required by challenged
claims, and that Petitioner has articulated a sufficient
reason as to why an ordinarily skilled artisan would have
been motivated to use a low-power transceiver in the
base station. Patent Owner’s arguments that Tymes
does not teach that a low-power transceiver in the base
station and that Tymes teaches “a non-low-powered
transceiver to accomplish robust communication” are
unavailing.
Third, we are not persuaded by Patent Owner’s argument that Tymes teaches away from using a
low-power transceiver in the base station. PO Resp.
46−47; Ex. 2006 ¶¶ 126−127. A reference does not teach
away if it merely expresses a general preference for an
alternative invention but does not “criticize, discredit, or
otherwise discourage” investigation into the invention
claimed. Fulton, 391 F.3d at 1201.
Patent Owner and Dr. Almeroth rely upon a sentence in Tymes that “[t]he base stations are usually powered by line current rather than being battery operated,
and so there is less concern for power dissipation in these
devices compared to that for the remote terminals.” Ex.
1005, 7:44–47. Tymes merely expresses a general preference for line current to power the entire base station.

93a
Id. We do not discern such a disclosure criticizes, discredits, or otherwise discourages investigation into using a low-power transceiver, which is merely one of the
components in the base station. Ex. 1005, 6:63−7:2, Fig.
3. As Mr. Geier explains, Patent Owner and Dr. Almeroth conflate the current used by the entire base station
with the power used by the RF transceiver. Ex. 1038 ¶
72.
Patent Owner’s argument and Dr. Almeroth’s testimony that “Tymes discloses that low power consumption
on the Remote Terminals is achieved by turning off the
receiver when not in use, not by reducing the transmission range like the claimed device” also does not support
Patent Owner’s position that Tymes teaches away from
using a low-power transceiver in the base station. PO
Resp. 46−47; Ex. 2006 ¶ 127 (emphasis added). Patent
Owner and Dr. Almeroth narrowly focus on a single example for reducing the power at the remote terminals,
disregarding Tymes’ disclosure concerning the base stations. Notably, Tymes discloses that the RF transceiver
in the base station is useable indoors, having an optimum
frequency in the 902−928 MHz range, without licensing
under the FCC regulations. Ex. 1005, 2:36−56, 3:48−59,
18:1−3. As noted above, an indoor network requires only
a limited range, the power limit under the FCC regulations is less than or equal to one watt for the disclosed
902–928 MHz range, and the FCC regulation that non-licensed transmitted must be low-power. Ex. 1003 ¶ 359;
Ex. 1010, 1, 5, 21; Ex. 1017, 7:9−11, 31−34. The cited portion of Mr. Geier’s cross-examination testimony also
does not support Patent Owner’s position, as Mr. Geier
was answering questions directed to the remote terminals. Ex. 2007, 75:1−22.

94a
Accordingly, Patent Owner’s argument that Tymes
teaches away from using low-power transceivers in the
base station is unavailing.
Finally, we are not persuaded by Patent Owner’s argument that Tymes does not teach a “signal comprising
instruction data” because the remote unit selects the antenna that receives the stronger signal, “not rely on instruction data from base stations to make a selection.”
PO Resp. 50−53. Patent Owner ignores certain portions
of Tymes, focusing narrowly on a portion of Tymes that
is not relied upon by Petitioner, to substantiate its position. Notably, Patent Owner’s and Dr. Almeroth’s reliance on Tymes’ disclosure regarding “how remote units
choose between their two antennae” in normal situations
is misplaced. Id.; Ex. 2006 ¶¶ 137−141 (citing Ex. 1005,
15:60−69). The portion of Tymes relied upon by Petitioner (Pet. 67−68, 83−84; Ex. 1003 ¶¶ 364−365, 452) addresses the problem where a remote unit sends a distress call when it has moved out of range of the base station in charge of the remote unit. Ex. 1005, 21:27−47. In
fact, Tymes states that the distress call is sent “twice,
once from each of the two antennae” in the remote unit.
Id. Clearly, both antennae in the remote unit are being
used in the “distress call” situation. Neither Patent
Owner nor Dr. Almeroth explains how a remote unit
chooses between its own two antennas to use in normal
situations is relevant to the “distress call” situation.
Patent Owner also conflates selecting which antenna in the remote unit to use in normal situation with
selecting which antenna in the base station to use for
reestablishing the communication link in the “distress
call” situation. Mr. Geier’s cross-examination testimony
does not support Patent Owner’s position that the remote unit does not rely on instruction data from the base

95a
station, as he was answering questions regarding selecting an antenna in the remote use in normal situation, not
selecting which antenna in the base station to use in the
“distress call” situation. Ex. 2007, 80:18−81:8.
More importantly, even if we were to adopt Patent
Owner’s proposed construction for “instruction data”—
a “code identifying a function to be performed or identifying a status that triggers a function to be performed”—Tymes would render the challenged claims
obvious. As Petitioner notes (Pet. 83, n.56), the remote
unit that has moved out of range of the base station in
charge sends a distress call—a short packet consisting
of the standard synchronization signal and its serial
number. Ex. 1005, 21:29−45. Mr. Geier explains (Ex.
1003 ¶ 452) that, by sending the distress call, the remote
unit instructs “any base station hearing the distress call
to communicate by an exchange with the base station
normally in charge of this remote unit” so that “the base
station in charge . . . can determine which one should be
the new base station in charge and ‘pass the baton’ to
that base station in time for that base station to send the
response packet 18.” Ex. 1005, 21:29−45. An ordinarily
skilled artisan would have recognized that the distress
call includes a code that identifies a status (the remote
unit has moved out of range from the base station in
charge) that triggers a function to be performed. Ex.
1005, 12:30–13:22 (each packet and response packet include a 22-bytes data field, which contains 1s and 0s),
21:29–47, Fig. 7. Consequently, such an artisan would
have recognized that the distress call to the base stations
comprises “instruction data.” Ex. 1003 ¶ 452. Therefore,
Petitioner has established sufficiently that Tymes suggests a device (base station) having a low-power transceiver that is configured to wirelessly receive a signal

96a
including an instruction data (distress call) from a remote device, as recited in claim 17.
In addition, as Petitioner points out (Pet. 67−68,
n.39), the response packet sent to the remote unit “will
indicate which antenna worked the best” in the new base
station in charge. Ex. 1005, 21:40−47. An ordinarily
skilled artisan would have understood that the response
packet includes a code that identifies a status (the reassignment, indicating that the new base station is within
the transmission range and it is the current base station
in charge) that triggers a function to be performed—the
remote unit should send its packets to the new base station in charge, instead of the previous base station. Id.
at 12:30−13:22, 21:29−55, Fig. 7. As Mr. Geier explains
also, this response packet sent by the new base station
in charge comprises “instruction data” because it instructs the remote unit that the communication link has
been reestablished and it can stop sending distress calls.
Id.; Ex. 1003 ¶¶ 364−365. Accordingly, Petitioner has
established sufficiently that Tymes suggests a device
(base station) having a low-power transceiver that is
configured to wirelessly transmit a signal including an
instruction data (response packet) to a network of addressable low-power transceivers (RF transceivers in
the remote units), as recited in claims 1, 7, 9, and 16.
Establishing Communication Link
Claim 1 requires a controller “configured to establish a communication link between at least one device in
the network of addressable devices and the central location using an address included in the signal.” Claims 7,
9, 16, and 17 similarly require this limitation.

97a
Petitioner asserts that CPU 30 (controller) in
Tymes’ base station is configured to establish a communication link between a remote unit with ID number (addressable device) and the host computer (central location) using device identification 74 (an address) included
in the signal, citing to Mr. Geier’s testimony for support.
Pet. 70−74, n.41, n.42, 81−82, 84−85 (citing Ex. 1003 ¶¶
377−379, 384−386, 429−438, 457−463). Petitioner explains that the base station establishes a communication
link between a remote unit and host computer when the
base station: (1) receives a distress call containing an ID
of a remote unit that has moved out of range of another
base station, (2) is assigned the remote unit, and then (3)
sends a response packet containing the ID of the remote
unit that sent the distress call. Id. Upon review of the
record, we are persuaded by Petitioner’s showing.
Patent Owner counters that Tymes’ remote unit,
not the base station, establishes the communication link
because the remote unit initiates sending the packets
and “the base stations cannot initiate communication to
the remote units,” relying on Dr. Almeroth’s testimony
and Mr. Geier’s cross-examination testimony. PO Resp.
54−58. However, Patent Owner’s argument and Dr. Almeroth’s testimony (Ex. 2006 ¶¶ 144−150) are not commensurate with the scope of the challenged claims,
which do not require the controller to initiate the data
transmission. In fact, claim 1, for example, requires the
controller (the CPU in the base station) “to receive one
or more signals” and “communicate information contained within the signals to the central location.” Ex.
1001, 14:56−59 (emphases added). In short, the claims
require the signal transmission itself to be initiated from
a remote unit, not the base station, and then communicated to the host computer.

98a
Patent Owner also conflates establishing a communication link with initiating a data transmission.
Mr. Geier’s cross-examination testimony does not support Patent Owner’s argument that the base station
does not establish the communication link, as Mr. Geier
was answering questions related to initiating a packet
transmission. Ex. 2007, 86:7−87:11.
More importantly, as Petitioner notes (Pet. 81−82),
Tymes’ base station is an intermediary for the remote
unit to communicate with the host processor, relaying
data signals from a remote unit to the host computer, or
from the host computer to a remote unit. Ex. 1005,
7:61−66. There is no dispute that “host processor 10 is
connected by a communications link 11 to a number of
base stations” and each base station “is coupled by an RF
link to a number of remote units.” Id. at 4:63−68, 8:6−14.
In the “distress call” situation, the new base station establishes a communication link with the remote unit that
was moved out of range from the original base station,
when the original base station “pass[es] the baton” to the
new base station, sending a response packet to the remote unit. Id. at 21:40−47. As a result, the remote unit
is assigned to the new base station and, after the reassignment, the new base station will receive subsequent
data packets from the remote unit, and relay the packets
to the host computer. Id. at 7:61−66, 11:53−59 (The base
station “receives the RF transmission packet 17 from
the remote unit 15, . . . and reformats the data in memory
31 by instructions executed by the CPU 30 for sending
to the host computer 10 via communication link 11.”).
Based on the evidence before us, we determine that Petitioner has established sufficiently that Tymes discloses
a controller (CPU in the base station) that is configured
to establish a communication link between at least one

99a
device in the network of addressable devices (remote
units) and central location (host computer) using an address included in the signal (device identification 74), as
required by the challenged claims.
Summary
For the foregoing reasons, Petitioner has demonstrated by a preponderance of the evidence that Tymes
renders obvious claims 1, 16, and 17.
Patent Owner does not advance separate arguments
with respect to claims 7 and 9. Upon review of Petitioner’s explanations regarding these claims, we are persuaded that Petitioner has shown sufficiently Tymes discloses the limitations recited in these claims. Pet. 75–78.
Notably, for claim 7, which requires the controller “to
communicate a transceiver identification code to the central location,” Petitioner explains that CPU 30 also is
configured to communicate a transceiver identification
code (device-identification field 74 or remote unit’s ID
number) to the host processor. Pet. 75−76 (citing Ex.
1005, 3:25−37 (noting that the ID number for the remote
unit is included in the transmitted packet, and reply
packet), 6:36−40, 65−66, 11:53−59, 12:30−47, 20:56−64,
Fig. 7; Ex. 1003 ¶¶ 396−404). For claim 9, which requires
the signals to include a field that indicates a destination
device for a subsequent transmission path to follow,
Mr. Geier testifies that the device-identification field 74
in a “remote-to-base” packet 17 (received signal) is used
to transmit a response packet back to the same remote
unit from the base station, indicating a destination device for a subsequent transmission path to follow. Ex.
1003 ¶ 406. Mr. Geier also testifies that the device-identification field 74 in a “base-to-remote” packet 18 (trans-

100a
mitted signal) is used to route the packet back to the remote device, indicating a destination device for a subsequent transmission path to follow. Id. ¶ 407. We credit
Mr. Geier’s unrebutted testimony as it is consistent with
Tymes’ disclosure. Ex. 1003 ¶¶ 396−407; Ex. 1005,
5:39−6:15, 12:30−50. Based on the evidence in the entire
record, we determine that Petitioner has demonstrated
by a preponderance of the evidence that Tymes renders
claims 7 and 9 obvious.
In view of the foregoing, we conclude that Petitioner
has established by a preponderance of the evidence that
claims 1, 7, 9, 16, and 17 are unpatentable under § 103(a)
as obvious over Tymes.
F. Written Description
Petitioner contends that the ’842 patent lacks adequate written description support under § 112, ¶ 1, for
certain claim limitations. Pet. 85–89. Patent Owner opposes. PO Resp. 77–90.
Principles of Law
The written description test involves a determination of whether the original disclosure of the application
relied upon reasonably conveys to a person of ordinary
skill in the art that the inventor had possession of the
claimed subject matter as of the filing date. Ariad
Pharms., Inc. v. Eli Lilly & Co., 598 F.3d 1336, 1351
(Fed. Cir. 2010) (en banc). The original disclosure is not
required to describe the claimed subject matter in exactly the same way as the terms used in the claims. See
In re Wright, 866 F.2d 422, 425 (Fed. Cir. 1989). However, a description which renders obvious the invention
sought is not sufficient. Lockwood v. Am. Airlines, Inc.,
107 F.3d 1565, 1572 (Fed. Cir. 1997). Moreover, even if
the claimed subject matter could have been “envisioned”

101a
from the earlier disclosure, it is not enough to establish
adequate written description support. Goeddel v.
Sugano, 617 F.3d 1350, 1356 (Fed. Cir. 2010).
The Scope of the Original Disclosure
As a first step of our written description analysis,
we determine the scope of the original disclosure of the
application (U.S. Patent Application No. 13/717,384,
“the ’384 application”) that issued as the ’842 patent
(“the ’842 Original Disclosure”). In that regard, the parties’ dispute centers on: (1) whether the original claims
of the ’384 application are part of the ’842 Original Disclosure; and (2) whether the earlier-filed applications
identified in the first two sentences of the Specification
were incorporated by reference effectively. We address
each of these issues in turn.
1. Original Claims
According to our reviewing court, “original claims
are part of the original specification.” Ariad, 598 F.3d at
1349 (citing In re Gardner, 480 F.2d 879, 879 (CCPA
1973)). Here, we are persuaded that original claims
1−17, which were submitted as part of the ’384 application on the filing date, are part of the ’842 Original Disclosure. Ex. 1002, 30:5−32:28.
In its Petition, Petitioner’s showing proffers no explanation as to why the original claims cannot be part of
the ’842 Original Disclosure. Pet. 85−89; Ex. 1003 ¶¶
470−481. In its Reply, Petitioner advances two new arguments. Reply 17−20. Such arguments should have
been introduced in the Petition. In any event, these arguments are without merit.
First, Petitioner argues that Patent Owner’s “analysis of the ’842 application’s claims (PO Resp. 82−83) is

102a
irrelevant at least because ‘a claim in a later application
receives the benefit of the filing date of an earlier application so long as the disclosure in the earlier application
meets the requirements of 35 U.S.C. § 112, ¶ 1, including
the written description requirement,’ and the ’842 [patent] claims priority to applications filed years earlier.”
Reply 18 (citing Tech. Licensing Corp. v. Videotek, Inc.,
545 F.3d 1316, 1326 (Fed. Cir. 2008)) (emphasis added by
Petitioner). Petitioner’s argument is misplaced, conflating patentability requirement under § 112, ¶ 1, with the
requirements for priority claims under § 120. See Reiffin
v. Microsoft Corp., 214 F.3d 1342, 1345−46 (Fed. Cir.
2000) (holding that the district court erred in looking to
the earlier-filed application to determine whether the
later-filed patents comply with the written description
requirement).
Petitioner’s reliance on Tech. Licensing also is inapposite. In Tech. Licensing, the court addressed the underlying priority claim issue under § 120 because, unlike
here, the asserted reference was an intervening prior
art. Tech. Licensing, 545 F.3d at 1326. That decision
does not support Petitioner’s position that the challenged claims are unpatentable under § 112, ¶ 1, for lack
of written description support, which is determined
based on the original disclosure of the later-filed application that issued as the ’842 patent. See Reiffin, 214 F.3d
at 1345−46.
Petitioner did not challenge the priority claims of
the ’842 patent in its Petition. To the extent Petitioner
now attempts to introduce such a challenge, it would be
a new argument improperly raised for the first time in
its Reply. Such a new argument is not considered. See
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756,
48,767 (Aug. 14, 2012).

103a
Second, Petitioner argues that “application claim 1
is, at best, indefinite reciting ‘wirelessly transmit a signal comprising [an] instruction data frame for delivery
of a network of addressable low power transceivers.’”
Reply 18 (citing Ex. 1038 ¶¶ 102−103) (emphasis added
by Petitioner). As support, Mr. Geier testifies that “it is
unclear how to interpret ‘for delivery of a network of addressable low power transceivers,’” and, “[i]n the context of the claims, specification, and prosecution history,
it does not make any sense to deliver the network of addressable low power transceivers.” Ex. 1038 ¶¶ 102−103
(emphasis added).
However, Petitioner’s argument that original claim
1 is indefinite is conclusory. Neither Petitioner nor
Mr. Geier provides sufficient explanation as to why a
person of ordinary skill in the art, in view the Specification and prosecution history, would not have recognized
the typographical error—reading “for delivery of a network” as “for delivery to a network.” Notably, the applicant submitted an amendment to original claim 1, correcting the typographical error by replacing “of” with
“to.” Ex. 1002, 86:5. Indeed, as Dr. Almeroth testifies,
original claim 1 “clearly discloses that one low power
transceiver (i.e., the “low power transceiver module”)
wirelessly transmits a signal containing instruction data
for delivery to a network of addressable devices.” Ex.
2006 ¶ 155 (emphasis added). Dr. Almeroth’s reading is
reasonable in view of the Specification and prosecution
history. As such, we credit the testimony of Dr. Almeroth over that of Mr. Geier. Moreover, even assuming
the scope of original claim 1, as a whole, could not be discerned with reasonable certainty, Petitioner does not
explain why certain specific teachings disclosed in original claim 1 (e.g., a low-power transceiver module that is

104a
configured to wirelessly transmit a signal) cannot be
part of the ’842 Original Disclosure.
For the reasons stated above, we are not persuaded
by Petitioner’s arguments, and we determine that original claims 1−17 of the ’384 application are part of the ’842
Original Disclosure. Ex. 1002, 30:5−32:28.
2. Incorporation by Reference
“Incorporation by reference provides a method for
integrating material from various documents into a host
document . . . by citing such material in a manner that
makes clear that the material is effectively part of the
host document as if it were explicitly contained therein.”
Advanced Display Sys. v. Kent State Univ., 212 F.3d
1272, 1282 (Fed. Cir. 2000). “[T]he standard is whether
one reasonably skilled in the art would understand the
application as describing with sufficient particularity the
material to be incorporated.” Harari v. Lee, 656 F.3d
1331, 1334 (Fed. Cir. 2011). Our reviewing court has “reviewed the incorporation statements from the person of
ordinary skill vantage point.” Hollmer v. Harari, 681
F.3d 1351, 1357 (Fed. Cir. 2012).
Here, the first two sentences of the original Specification identify, with sufficient particularity, six earlier-filed non-provisional applications (Exs. 1011−1016)
and two earlier-filed provisional applications (Exs. 1007,
1008) by their application numbers and filing dates, as
well as their patent numbers and/or titles. Ex. 1002,
10:5−19. In the very next sentence, the original Specification also states that “[a]ll of said above-listed applications are hereby incorporated by reference as is fully set
forth herein.” Id. at 10:19−20 (emphasis added). We are
persuaded that a person of ordinary skill in the art would

105a
have reasonably understood that each earlier-filed application has been identified in a manner that makes clear
that the application, in its entirety, is effectively part of
the ’842 Original Disclosure as if it were explicitly contained therein. See Advanced Display, 212 F.3d at 1282;
Harari, 656 F.3d at 1334; Hollmer, 681 F.3d at 1357.
Petitioner argues that “the incorporation is deficient and insufficient,” because the ’842 patent fails to
“identify with detailed particularity what specific material it incorporates and clearly indicate where that material is found in the various documents.” Pet. 88−89 (citing Hollmer, 681 F.3d at 1357). Petitioner also contends
that “the specification never ‘fully set[s] forth’ what portions and/are not incorporated or where the material is
found.” Reply 19 (citing Advanced Display, 212 F.3d at
1282).
We disagree with Petitioner’s characterization of
the incorporation statement. Petitioner’s reliance on
Hollmer and Advanced Display is inapposite. Unlike
Hollmer, 681 F.3d at 1354, where the prior application
was not identified by the application number and filing
date, the original Specification here identifies, with sufficient particularity, each earlier-filed application by its
application number and filing date, as well as the patent
number and/or title. Ex. 1002, 10:5−20.
In Advanced Display, the court held that the magistrate judge improperly instructed the jury that their
role was to determine whether and to what extent material from other documents was incorporated by reference into the host patent. 212 F.3d at 1280−84. That case
does not stand for the proposition that the entire document itself cannot be incorporated by reference into the
host patent, as Petitioner implies. In fact, 37 C.F.R. §

106a
1.57(c) allows an applicant to incorporate by reference an
earlier-filed application by submitting an “incorporation
by reference” statement that identifies the referenced
application by application number and filing date. The
Manual of Patent Examining Procedure (“MPEP”) explains that “[a]n applicant may incorporate by reference
the prior application by including, in the [continuing] application-as-filed, an explicit statement that such specifically enumerated prior application or applications are
‘hereby incorporated by reference.’” MPEP §
201.06(c)(IV) (8th ed. Rev. 9) (2012).
Here, the applicant for the ’384 application has provided an incorporation statement in accordance with the
procedure set forth in 37 C.F.R. § 1.57(c) and MPEP §
201.06(c)(IV). Ex. 1002, 10:5−20. One of ordinary skill in
the art would have understood, in view of the identification of the earlier-filed applications and incorporation
statement, that the applicant has expressed a clear intent to incorporate by reference each cited application,
in its entirety, as if it were fully set forth in the ’384 application.
We are not persuaded by Petitioner’s argument that
the phrase “as is fully set forth herein” requires the applicant to identify separately each portion of an application and where each portion is found. Petitioner once
again relies upon a typographical error to substantiate
its position. Based on the context of the statement in the
Specification, an ordinarily skilled artisan would have
read “as is fully set forth herein” to mean “as if it were
fully set forth herein.”
For the reasons stated above, the ’842 Original Disclosure includes original claims 1−17 of the ’384 applica-

107a
tion (Ex. 1002, 30:5−32:8) and the earlier-filed applications (Exs. 1007, 1008, 1011−1016) identified in the first
sentence of the original Speciﬁcation (Ex. 1002, 10:5−19).
Low-Power Transceiver and Communication Link
In its Petition, Petitioner argues that the ’842 patent
lacks written description support for a device that could
perform “delivery to a network of addressable devices,”
in claims 1, 7, and 9 or “delivery to a network of addressable low-power transceivers,” as in claim 16, or could
“communicate information . . . to the remote device,” as
in claim 17. Pet. 86−87. As support, Petitioner maintains
that “[i]n all embodiments, the transmitting device
transmits information sent to a central location,” but
the ’842 patent does not disclose “the transmitting device receiving information.” Id. (emphases added). Petitioner also notes that, during prosecution, the Examiner determined that “Applicant did not disclose or
demonstrate possession of remote units that receive
communication from the central location” because remote transmitting unit 20 in Figure 1B and vending machine 120 in Figure 2B have no receiver. Id. (citing Ex.
1002, 77) (emphasis added). Petitioner further avers
that the Specification discloses “having only one device
(e.g., transmitter 20) in the communication link, and
nothing suggests Applicant possessed a system where
the communication link comprised multiple devices,” as
required by claims 1 and 16. Id. at 88–89 (emphasis
added).
Patent Owner counters that original claim 1 of
the ’384 application provides written description support
for “a low-power transceiver configured to wirelessly
transmit a signal comprising instruction data for delivery to a network of addressable devices,” as recited in

108a
claims 1, 7, and 9, as well as for “wirelessly transmit a
signal comprising instruction data for delivery to a network of addressable low-power transceivers,” as recited
in claim 16. PO Resp. 82−83 (citing Ex. 1002, 30). Patent
Owner also avers that both original claim 1 and the ’643
provisional application8, which disclose a remote device
that includes a transceiver, provide written description
support for receiving information at the remote device,
as recited in claim 17. Id. at 83−85 (citing Ex. 1002, 30;
Ex. 1007, 6). Patent Owner further asserts that original
claim 1 discloses a “communication link comprising one
or more low-power transceivers,” as recited in claims 1
and 16 of the ’842 patent. Id. at 89−90.
In its Reply, Petitioner argues that the ’842 patent
fails to disclose “a receiver in one of the addressable devices.” Reply 17−20. Although Petitioner conﬁrms that
the ’643 provisional application “states that the vending
machine has a transceiver,” Petitioner argues that “the
remainder of the reference describes it only as a ‘transmitter’ and never discloses sending information to the
transceiver.” Id. at 19.
Upon consideration of the parties’ contentions, we
agree with Patent Owner that Petitioner has not established that the ’842 Original Disclosure lacks adequate
written description support for the challenged claims.
Notably, original claim 1 recites:
1. A device for communicating information, the device comprising:
8

U.S. Provisional Patent Application No. 60/059, 643 (Ex. 1007, “the
’643 provisional application”), in its entirety, was incorporated by
reference into the ’842 Original Disclosure, as discussed above. Ex.
1002, 10:5−20.

109a
a low-power transceiver module that is
configured to wirelessly transmit a signal
comprising a instruction data frame for delivery of a network of addressable low
power transceivers wherein at least one
low power transceiver has a communication link with a central location;
an interface circuit configured to establish
a communication link with the central location based on a to address included in a signal, the communication link comprising
one or more low-power transceivers; and
a controller configured to receive one or
more low power RF signals and communicate information contained within the signals to a central location along with a
unique transceiver identification number
over the communication link.
Ex. 1002, 30:5−15 (emphases added).
As Dr. Almeroth testifies, original claim 1 discloses
that a low-power transceiver transmits a signal containing instruction data for delivery to a network of addressable low-power transceivers. Ex. 2006 ¶ 155. As noted
above, a transceiver is a “device that can both transmit
and receive signals.” Based on the evidence before us,
we conclude that Petitioner does not show sufficiently
that the ’842 Original Disclosure lacks written description support for “delivery to a network of addressable
devices,” as recited in claims 1, 7, and 9 or “delivery to a
network of addressable low-power transceivers,” as recited in claim 16. Pet. 86−87. We also are not persuaded

110a
by Petitioner’s argument that the ’842 Original Disclosure does not disclose “a receiver in one of the addressable devices.” Reply 17−19.
As Patent Owner explains also, because the remote
device disclosed in original claim 1 includes a low-power
transceiver module, the remote device has the capacity
to receive data. PO Resp. 83. Figure 2 of U.S. Patent
Application No. 08/895,7209 shows data travels in both
directions, to and from the central location. Ex. 1015,
29. Figure 1 of the ’643 provisional application shows a
transceiver at the remote device (a vending machine).
Ex. 1007, 6. In fact, Petitioner concedes that the ’643
provisional application “states that the vending machine
has a transceiver.” Reply 19. Accordingly, we are not
persuaded by Petitioner’s argument that the ’842 patent
does not disclose a remote unit that has a receiver in one
of the addressable devices. Pet. 86−87; Reply 19−20.
Rather, we agree with Patent Owner that Petitioner has
not established the ’842 Original Disclosure as a whole
lacks adequate written description support for receiving
information at the remote device, as recited in claim 17.
Moreover, we are not persuaded by Petitioner’s arguments in the Petition because they ignore the original
claims and the earlier-filed applications, which are part
of the ’842 Original Disclosure. Pet. 86−87; Ex. 1003 ¶¶
470−481. Petitioner narrowly focuses on the ’842 patent,
not the ’842 Original Disclosure, and fails to consider the
disclosure from the perspective of a person of ordinary
skill in the art. See Ariad, 598 F.3d at 1351 (noting that

9

U.S. Patent Application No. 08/895,720, in its entirety, was incorporated by reference into the ’842 Original Disclosure. Ex. 1002,
10:5−20.

111a
“the test requires an objective inquiry into the four corners of the specification from the perspective of a person
of ordinary skill in the art”); Blue Calypso, 815 F.3d at
1345 (noting that “the exact terms appearing in the claim
need not be used in haec verba”). For example, Petitioner does not explain sufficiently why an ordinarily
skilled artisan would not have recognized that a
low-power transceiver, as described in original claim 1,
provides written description support for “a low-power
transceiver that is configure to wirelessly receive a signal,” as recited in claim 17. As discussed above, such an
artisan would have known that a transceiver is a “device
that can both transmit and receive signals.” Ex. 3001, 4.
Nor does Petitioner explain adequately why the artisan
would not have reasonably understood that the transceiver at the vending machine, as shown in Figure 1 of
the ’643 provisional application, provides written description support for receiving data at a remote device.
Petitioner’s reliance on the Examiner’s determination (Ex. 1002, 77) concerning original claim 7 is misplaced, as that determination appears to be based only
on the Specification, not the ’842 Original Disclosure,
which includes original claims 1−17. The prosecution
history also show that, in response to the Examiner’s rejection, the applicant cancelled original claim 7 and
added new claims, noting that the written description
support for these new claims was found in original claims
1−17 and paragraphs 42 and 51 of U.S. Patent Application Publication No. 2013-0182831 B1. Id. at 90. Upon
review of Applicant’s remarks and amendment, the Examiner withdrew the rejection. Id. at 110. Therefore,
the cited portion of the prosecution history of the ’842
patent does not support Petitioner’s position.

112a
We also are not persuaded by Petitioner’s arguments in the Reply and Mr. Geier’s testimony, as they
overlook the original claims. Reply 17−26; Ex. 1038 ¶¶
10−19, 96−100. For example, Mr. Geier’s testifies that
“the ’842 patent specification discloses transmitters (not
transceivers or receivers) in the network of addressable
devices” and that “a device that merely contains a transmitter, and no receiver, cannot receive information.”
Ex. 1038 ¶ 100; Ex. 1003 ¶ 471. Mr. Geier’s testimony
does not take into account original claim 1, which discloses “a network of addressable low power transceivers
wherein at least one low power transceiver has a communication link with a central location.” Ex. 1002, 30.
Petitioner and Mr. Geier appear to decline to consider original claim 1 as they believe that the claim is indefinite, relying on a typographical error. Reply 18; Ex.
1038 ¶¶ 102−103. As discussed above, original claim 1 is
part of the ’842 Original Disclosure, and we are not persuaded by Petitioner’s argument that original claim 1 is
indefinite. In view of the prosecution history, an ordinarily skilled artisan would have recognized the typographical error and read “for delivery of a network” as
“for delivery to a network.” Ex. 1002, 86:5. Petitioner
fails to explain why the ’842 Original Disclosure, which
includes the original claims, would not have reasonably
conveyed to such an artisan that the inventor had possession of the claimed subject matter. See Ariad, 598
F.3d at 1349.
For the foregoing reasons, we determine that Petitioner has not demonstrated by a preponderance of the
evidence that claims 1, 7, 9, 16, and 17 are unpatentable
under § 112, ¶ 1, for lack of written description support.

113a
G. Motion for Observation
Patent Owner’s observations are directed to the
cross-examination testimony of Petitioner’s declarant,
Mr. Geier, who submitted a declaration with Petitioner’s
Reply (Ex. 1038) and subsequently was cross-examined
after Petitioner filed its Reply (Ex. 2019). We have considered Patent Owner’s observations (Paper 30) and Petitioner’s responses (Paper 32) in rendering this Decision, and have accorded the testimony the appropriate
weight as explained above.
III. CONCLUSION
For the foregoing reasons, we determine that Petitioner has established by a preponderance of the evidence that claims 1, 7, 9, 16, and 17 of the ’842 patent are
unpatentable based on the following grounds:
Challenged Claims

Basis

1, 7, 9, 19, and 17

§ 101

1, 7, 9, 19, and 17

§ 103(a)

Reference

Tymes

However, we determine that Petitioner has not
demonstrated by a preponderance of the evidence that
claims 1, 7, 9, 16, and 17 are unpatentable under § 112, ¶
1, for lack of written description support.
IV. ORDER
Accordingly, it is
ORDERED that claims 1, 7, 9, 16, and 17 of the ’842
patent are held unpatentable; and
FURTHER ORDERED that, because this is a Final Written Decision, parties to the proceeding seeking
judicial review of the decision must comply with the notice and service requirements of 37 C.F.R. § 90.2.

114a
For PETITIONER:
James L. Davis, Jr.
James R. Batchelder
Matthew R. Shapiro
ROPES & GRAY LLP
james.l.davis@ropesgray.com
james.batchelder@ropesgray.com
matthew.shapiro@ropesgray.com

For PATENT OWNER:
Gregory J. Gonsalves
GONSALVES LAW FIRM
gonsalves@gonsalveslawfirm.com
James E. Schutz
TROUTMAN SANDERS LLP
james.schutz@troutmansanders.com

115a
APPENDIX D
IN THE UNITED STATES PATENT AND
TRADEMARK OFFICE BEFORE THE PATENT
TRIAL AND APPEAL BOARD
EMERSON ELECTRIC CO.,
PETITIONER,
V.

SIPCO, LLC,
PATENT OWNER.
CASE NO. CBM 2016 00095
PATENT 8,908,842 B2
(January 23, 2017)
Before KEVIN F. TURNER, JONI Y. CHANG, and
CHRISTOPHER G. PAULRAJ, Administrative Patent Judges.
CHANG, Administrative Patent Judge.
DECISION
Granting Institution of Covered Business Method
Patent Review
37 C.F.R. § 42.208
I.

INTRODUCTION

Emerson Electric Company (“Petitioner”) filed a
Petition requesting a review of claims 1, 7, 9, 16, and 17
of U.S. Patent No. 8,908,842 B2 (Ex. 1001, “the ’842 pa-

116a
tent”) under the transitional program for covered business method patents.1 Paper 2, “Pet.” SIPCO, LLC
(“Patent Owner”) filed a Preliminary Response to the
Petition. Paper 10, “Prelim. Resp.”
For the reasons that follow, we institute a covered
business method patent review, pursuant to 35 U.S.C. §
324(a), as to claims 1, 7, 9, 16, and 17 (the “challenged
claims”) of the ’842 patent.
A.

Related Matters

The parties indicate that the ’842 patent is involved
in SIPCO, LLC v. Emerson Electric Co., Case No. 6:15cv-00907-JRG-KNM (E.D. Tex.). Pet. 4–5; Paper 3, 1–2.
The parties also identify two pending U.S. Patent Applications that claim priority to the ’842 patent, and two
pending inter partes reviews that involve related patents. Pet. 4–5; Paper 3, 1–2.
B.

The ’842 patent

The ’842 patent is “directed to a general purpose
transceiver and a method for communicating information from remote sites to a central location.” Ex. 1001,
Abstract, 4:27–29, Figs. 1A–4. The ’842 patent discloses
two embodiments: (1) an “automatic financial transaction machine” embodiment, in which information is communicated from financial transaction machines to a central location, as illustrated in Figures 1A and 1B; and (2)
an “vending machine” embodiment, in which information
is communicated from vending machines to a central location, as illustrated in Figures 2A and 2B. Id. at 4:30–
37.

1
See § 18(a) of the Leahy-Smith America Invents Act, Pub. L. No.
112-29, 125 Stat. 284, 329 (2011) (“AIA”).

117a
Figure 1A of the ’842 patent is reproduced below.

Figure 1A of the ’842 patent illustrates a block diagram of automatic financial transaction machine
(AFTM) 10, which includes display 12, card receiving
slot 14 for receiving a bank or credit card, key pad 16 for
inputting information such as a personal identification
number (PIN) and transaction amounts, and receiving
unit 18 for receiving signal 30 from transmitter 20 and
interpreting the signal in order to allow a user access to
AFTM 10. Id. at 4:54–5:1. Transmitter 20 transmits signal 30 to receiving unit 18. Id. at 5:9–15. AFTM 10 communicates across public-switched telephone network
(PTSN) 60 to central station 62, which may comprise a
database of financial and/or account information for verifying user information. Id. at 7:41–44.

118a
C.

Illustrative Claim

Of the challenged claims, claims 1, 16, and 17 are independent. Claims 7 and 9 depend directly from claim 1.
Claim 1 is reproduced below:
1. A device for communicating information, the device comprising:
a low-power transceiver configured to
wirelessly transmit a signal comprising
instruction data for delivery to a network
of addressable devices;
an interface circuit for communicating
with a central location; and
a controller coupled to the interface circuit and to the low-power transceiver,
the controller configured to establish a
communication link between at least one
device in the network of addressable devices and the central location using an address included in the signal, the communication link comprising one or more devices in the network of addressable [devices], the controller further configured
to receive one or more signals via the
low-power transceiver and communicate
information contained within the signals
to the central location.
Ex. 1001, 14:43–59.
D.

Standing to Seek a Covered Business Method
Patent Review

Section 18 of the AIA governs covered business
method patent reviews. Section 18(a)(1)(B) of the AIA

119a
limits such reviews to persons or their privies that have
been sued or charged with infringement of a covered
business method patent. Here, it is undisputed that Petitioner has been sued for infringement of the ’842 patent
in SIPCO, LLC v. Emerson Electric Co., Case No. 6:15cv-00907-JRG-KNM (E.D. Texas). Pet. 4.
1.

Financial Product or Service

A “covered business method patent” is a patent that
“claims a method or corresponding apparatus for performing data processing or other operations used in the
practice, administration, or management of a financial
product or service, except that the term does not include
patents for technological inventions.” AIA § 18(d)(1). A
patent is eligible for review if it has at least one claim
directed to a covered business method. Transitional
Program for Covered Business Method Patents—Definitions of Covered Business Method Patent and Technological Invention, 77 Fed. Reg. 48,734, 48,736 (Response
to Comment 8) (Aug. 14, 2012) (Final Rule).
Here, Petitioner takes the position that the ’842 patent is a covered business method patent because it “is
directed to and claims activities financial in nature.” Pet.
6–9. Patent Owner counters that the ’842 patent is not
directed to financial products or services, but instead directed to a radio frequency transceiver that communicates data between remote devices and a central location. Prelim. Resp. 16–22. Patent Owner also argues that
communicating financial data is not sufficient to demonstrate that it is directed to financial products or services.
Id. at 19–22.
Upon consideration of the parties’ contentions and
supporting evidence, we are not persuaded by Patent

120a
Owner’s arguments. Rather, we determine that Petitioner has established sufficiently that claims 3 and 4 of
the ’842 patent each recite an apparatus for performing
data processing or other operations used in the practice,
administration, or management of a financial product or
service.
As Petitioner notes, claim 3 recites that “the remote
device is . . . associated with a vending machine,” and
claim 4 recites that “the remote device is associated with
an automated teller machine (ATM).” Ex. 1001, 14:64–67
(emphasis added); Pet. 8–9. Turning to the Specification
of the ’842 patent to assess the scope of these claims, we
note that the Specification repeatedly describes the
claimed subject matter in a financial context of selling
goods in exchange for money or providing banking services. Id. at 1:43–65, 2:23–25. For example, the Specification describes a vending machine, such as a soda dispensing machine, “a snack dispensing apparatus, a candy dispensing apparatus, a cigarette dispensing apparatus, a
newspaper dispensing apparatus, [or] an ice dispensing
apparatus.” Id. at 8:12–19, Figs. 2A, 2B. In another embodiment, the Specification describes “an automatic financial transaction machine (AFTM),” which “may be
any of a number of devices, including, most commonly,
an automated teller machine for banking . . . [or] gas
pumps of the type equipped to receive credit cards for
charging an otherwise cash transaction.” Id. at 4:43–53,
Figs. 1A, 1B.
Significantly, selling goods or providing banking
services are activities that are financial in nature. See
SightSound Techs., LLC v. Apple Inc., 809 F.3d 1307,
1315 (Fed. Cir. 2015) (a financial activity (e.g., electronic
sales of digital audio) not directed to money management or banking can constitute a “financial product or

121a
service” within the meaning of the statute). An automated teller machine, as recited in claim 4, is an apparatus for performing financial activities directed to
money management or banking.
For the foregoing reasons, we determine that Petitioner has demonstrated sufficiently that claims 3 and 4
of the ’842 patent are directed to an apparatus for performing data processing used in the practice, administration, or management of a financial product or service.2 Consequently, the ’842 patent satisfies the “financial product or service” component of the definition for a
covered business method patent under § 18(d)(1) of the
AIA.
2.

Technological Invention Exception

The definition of “covered business method patent”
in § 18(d)(1) of the AIA excludes patents for “technological inventions.” To determine whether a patent falls
within this exception, we consider “whether the claimed
subject matter as a whole recites a technological feature
that is novel and unobvious over the prior art; and solves
a technical problem using a technical solution.” 37 C.F.R.
§ 42.301(b). Both requirements must be satisfied in order
for the patent to be excluded as a technological invention. Therefore, a patent would not be excluded as a technological invention if one of the prongs is deficient.
Further, the following claim drafting techniques,
2

Although the patentability of claims 3 and 4 are not challenged by
Petitioner in this proceeding, there is no requirement that only challenged claims may be considered for purposes of determining a patent is eligible for covered business method patent review. As discussed above, a patent is eligible for review if it has at least one
claim directed to a covered business method. 77 Fed. Reg. at 48,736
(Response to Comment 8).

122a
for example, typically do not render a patent a technological invention:
(a)
Mere recitation of known
technologies, such as computer hardware, communication or computer networks, software, memory, computerreadable storage medium, scanners, display devices or databases, or specialized
machines, such as an ATM or point of sale
device.
(b)
Reciting the use of known
prior art technology to accomplish a process or method, even if that process or
method is novel and non-obvious.
(c)
Combining prior art structures to achieve the normal, expected, or
predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756,
48,763–64 (Aug. 14, 2012).
Here, Petitioner asserts that the ’842 patent is not
directed to a technological invention and, thus, should
not be excluded from the definition of a covered business
method patent. Pet. 9–13. In Petitioner’s view, the technology recited in the claims at issue is generic and was
well-known. Id. 9–12. Petitioner also argues that the
claims do not solve a technical problem using a technical
solution. Id. at 12–13.
Patent Owner counters that each claim of the ’842
patent “solves the technical problem of communicating
data wirelessly between a low power radio transceiver
and a network of addressable devices and between the
transceiver and a central location.” Prelim. Resp. 22–30.

123a
Upon consideration of the parties’ contentions, we
are not persuaded by Patent Owner’s arguments. Rather, we agree with Petitioner that claims 3 and 4 recite
no more than generic and known hardware elements and
routine computer functions. Pet. 9–13.
The only wireless transmission required by claims 3
and 4 is a signal from a low-power transceiver. Ex. 1001,
14:45–46. As the Specification of the ’842 patent and
other evidence in this record confirm, wireless communication using a low-power transceiver was known in the
art at the time of the invention. See, e.g., id. at 5:23–25
(“[S]mall transmitters of this type are known for activating and deactivating automobile alarm systems.”); see
also Ex. 2001, 1 (“Low-power, non-licensed transmitters
are used virtually everywhere. Cordless phones, baby
monitors, garage door openers, wireless home security
systems, keyless automobile entry systems and hundreds of other types of common electronic equipment
rely on such transmitters to function.”). In addition, as
Petitioner points out, the Specification expressly admits
that (1) the “invention is directed to a general purpose
transceiver,” (2) “the “actual structure . . . of the central
station 62 is unimportant,” (3) “controller 256 may be a
general purpose microprocessor or microcontroller,” (4)
“interface 258 . . . is designed to interface with . . . typical/standard telephone circuitry 263,” and (5) the system
provides “general purpose communications to a central
location” using the public-switched telephone network
(PSTN). Pet. 11; Ex. 1001, Abstract, 2:46–48, 7:53–55,
10:13–14, 10:21–23, Figs. 1A, 1B.
We also agree with Petitioner that the claimed subject matter as a whole does not solve a technical problem
using a technical solution. Pet. 9–13. The Specification
expressly states that the “invention is generally directed

124a
to a system for communicating information to a predetermined location.” Ex. 1001, 2:23–25. According to the
Specification, when a vending machine or ATM breaks
down, malfunctions, or runs out of money, it may be desired to communicate this information to a centralized
location using an automated process to replace the relatively expensive manual process of dispatching a person
to check on the machine periodically. Ex. 1001, 1:43–2:11.
Automating service requests of vending machines and
ATMs to reduce the cost is a financial problem rather
than a technical problem.
In view of the foregoing, we are persuaded by Petitioner’s explanation that the claimed subject matter, as
a whole, in each of claims 3 and 4 does not recite a technological feature that is novel and non-obvious over the
prior art, and the claimed subject matter does not solve
a technical problem using a technical solution. Accordingly, the ’842 patent is not excluded as a technological
invention.
3. Conclusion
For the foregoing reasons, we conclude that the ’842
patent is a covered business method patent under AIA §
18(d)(1) and is eligible for review using the transitional
covered business method patent program.
E.

Prior Art Relied Upon

Petitioner relies upon the following prior art references:
Tymes

US 5,157,687 Oct. 20, 1992 (Ex. 1005)

Robert E. Kahn, et al., Advances in Packet Radio
Technology, 66 (11) Proceedings of the IEEE 1468–96
(Nov. 1978) (“Kahn,” Ex. 1004, 7–35).

125a

J. Burchfiel, et al., Functions and Structure of a
Packet Radio Station, AFIPS Conference Proceedings,
National Computer Conference 245–251 (1975) (“Burchfiel,” Ex. 1006).
F.

Asserted Grounds of Unpatentability

Petitioner asserts the following grounds3 of unpatentability (Pet. 2):
Challenged
Claims

Basis

Reference(s)

1, 7, 9, 16, and 17

§ 101

1, 7, 9, 16, and 17

§ 103(a)

Kahn

1, 7, 9, 16, and 17

§ 103(a)

Kahn in view of
Burchfiel

1, 7, 9, 16, and 17

§ 103(a)

Tymes

1, 7, 9, 16, and 17

§ 112, ¶ 1
II.

A.

ANALYSIS
Claim Construction

Claims of an expired patent are given their ordinary
and customary meaning in accordance with Phillips v.
AWH Corp., 415 F.3d 1303 (Fed. Cir. 2005) (en banc). See

3

Because the claims at issue have a filing date prior to March 16,
2013, the effective date of the Leahy-Smith America Invents Act,
Pub. L. No. 112-29, 125 Stat. 284 (2011) (“AIA”), we apply the preAIA version of 35 U.S.C. §§ 101, 103, and 112 in this Decision.

126a
In re Rambus Inc., 694 F.3d 42, 46 (Fed. Cir.
2012); cf. Black & Decker, Inc. v. Positec USA, Inc.,
646 F. App’x. 1019, 1024 (non-precedential) (applying the
Phillips standard to construe the claims of an expired
patent in an inter partes review). Under the Phillips
standard, we only depart from the plain meaning where
the patentee has acted as his or her own lexicographer
by clearly setting forth a definition of the claim term or
where he or she has disavowed the full scope of the claim
term using clear and unmistakable statements of disclaimer. GE Lighting Solutions, LLC v. AgiLight, Inc.,
750 F.3d 1304, 1309 (Fed. Cir. 2014).
However, claim terms in an unexpired patent are interpreted according to their broadest reasonable construction in light of the specification of the patent in
which they appear. 37 C.F.R. § 42.300(b); cf. Cuozzo
Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2142 (2016)
(upholding the Office regulation requiring the use of the
broadest reasonable interpretation standard in the analogous context of inter partes review). Under the broadest reasonable interpretation (“BRI”) standard, claim
terms generally are given their ordinary and customary
meaning, as would be understood by one of ordinary skill
in the art in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007). An inventor may rebut that presumption by
providing a definition of the term in the specification
with reasonable clarity, deliberateness, and precision. In
re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994).
“The broadest reasonable interpretation of a claim
term may be the same as or broader than the construction of a term under the Phillips standard.” Facebook,
Inc. v. Pragmatus AV, LLC, 582 F. App’x 864, 869 (Fed.

127a
Cir. 2014) (non-precedential) (explaining that construction of term under the BRI standard “cannot be narrower” than that under the Phillips standard). “In many
cases, the claim construction will be the same under
[both] standards.” In re CSB-System Int’l, Inc., 832 F.3d
1335, 1341 (Fed. Cir. 2016).
In certain proceedings before us, as here, a party
may request the Phillips standard, if the party timely
files a motion and certifies that the challenged patent
will expire within 18 months of the entry of the Notice of
Filing Data Accorded to Petition. 37 C.F.R. § 42.300(b).
Although Petitioner asserts that the ’842 patent “will expire no later than March 31, 2017” (Pet. 14) and Patent
Owner acknowledges that assertion (Prelim.
Resp. 9), neither parties filed such a motion or made
a request for applying the Phillips claim construction
standard in this proceeding. Moreover, neither party
provides any basis on which the broadest reasonable interpretation standard would lead to a different result
than the Phillips standard. Because this Decision is entered before the purported expiration date of the ’842
patent, we apply the broadest reasonable interpretation
standard for the purposes of this Decision. During trial,
parties may present arguments in their briefs regarding
whether the Phillips standard should be applied and
how application of that standard would lead to a result
that is different from the application of the BRI standard.
On the present record, the parties propose constructions for several claim terms. Pet. 4–8; Prelim. Resp. 11–
15. We note that only those claim terms that are in controversy need to be construed, and only to the extent
necessary to resolve the controversy. Vivid Techs., Inc.

128a
v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999). For purposes of this Decision, we find it necessary
to address only the claim terms “low-power transceiver”
and “instruction data.”
“low-power transceiver”
Claim 1 recites “a low-power transceiver configured
to wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable devices.”
Ex. 1001, 14:45–47. Claim 17 recites “a low-power transceiver that is configured to wirelessly receive a signal
including an instruction data from a remote device.” Id.
at 16:24–26.
At this juncture, Petitioner did not proffer a construction for the claim term “low-power transceiver.”
Patent Owner proposes to construe this claim term as a
device “that transmits and receives signals having a limited transmission range.” Prelim. Resp. 11. In support of
its proposed construction, Patent Owner argues that
“the claim language itself indicates that the claimed lowpower transceiver transmits low-power signals,” citing
the language of claim 2, “wherein the low-power signal
comprises a logical IP address.” Id. at 11; Ex. 1001,
14:60–61. Patent Owner also alleges that the Specification relates low-power to a limited transmission range
by distinguishing a low-power transmitter from cellular
transmitters. Id. at 12 (citing Ex. 1001, 14:15–21). Patent
Owner further contends that the Specification states
that an extremely low-power transmitter has a range of
only several feet. Id. (citing Ex. 1001, 6:1–3). Finally, Patent Owner argues that a person with ordinary skill in
the art would have understood that a low-power transceiver has a significantly lower transmission range than

129a
the range of a cellular transmitter. Id. at 12–13. As support, Patent Owner alleges that the Federal Communication Commission (FCC) defined low-power radio
transmitters as having a range of only a few meters, citing to the following passage:
Low-power, non-licensed transmitters
are used virtually everywhere. Cordless
phones, baby monitors, garage door
openers, wireless home security systems, keyless automobile entry systems
and hundreds of other types of common
electronic equipment rely on such transmitters to function. At any time of day,
most people are within a few meters of
consumer products that use low-power,
non-licensed transmitters.
Id.; Ex. 2001, 1 (emphasis added).4
At the outset, we observe that the terms “lowpower” and “limited transmission range” are words of
degree. That being said, we are not persuaded by Patent
Owner’s argument that the language “the low-power
signal” in claim 2 necessarily requires the “low-power
transceiver” recited in claim 1 to be a device “that transmits and receives signals having a limited transmission
range.” Patent Owner does not explain meaningfully, or
provide persuasive evidence to show, how a “low-power
signal” is related to the transmission range of a transceiver.

4

The Office of Engineering and Technology of the Federal Communications Commission, Understanding the FCC Regulations for
Low-Power, Non- Licensed Transmitters, OET Bulletin No. 63 (Edited and Reprinted Feb. 1996) (“the FCC Bulletin”).

130a
Additionally, we do not discern the cited portion of
the Specification that purportedly distinguishes a lowpower transmitter from cellular transmitters supports
Patent Owner’s proposed claim construction. That disclosure addresses a low-power radio frequency (RF)
transmitter. Ex. 1001:14:15–18. The claims merely recite a “low-power transceiver,” which could be, but may
not necessarily be, a low-power RF transceiver. We also
do not discern the cited portion of the Specification— explaining that an extremely low-power transmitter has a
range of only several feet—limits the claim term “lowpower transceiver” to a transmission range of several
feet because that disclosure only addresses extremely
low-power transmitters. Moreover, we observe that the
cited passage of the FCC Bulletin (Ex. 2001, 1 (“At any
time of day, most people are within a few meters of consumer products that use low-power, non-licensed transmitters.”)) does not limit the term “low-power transceiver” to a transmission range of a few meters because
the distance between “people” and the “consumer products that use low-power, non-licensed transmitters” is
not necessarily equal to the transmission range of signals— the distance between the low-power transmitter
that sends the signals and the receiver that receives the
signals.
Nevertheless, we agree with the Patent Owner insofar as an ordinarily skilled artisan would have recog5

nized that a transceiver is a device that can transmit
and receive signals and that, at the time of the invention,
low-power transceivers may have a limited transmission
5

See MICROSOFT COMPUTER DICTIONARY at 474 (3rd ed.
1997) (defining “transceiver” as a “device that can both transmit and
receive signals.”) (Ex. 3001, 4)

131a
range, such as those used in baby monitors and garage
door openers. In view of the Specification and other evidence currently before us, we construe the claim term
“low-power transceiver,” for purposes of this Decision,
to encompass “a device that transmits and receives signals having a limited transmission range.”
“instruction data”
Claim 1 recites “a low-power transceiver configured
to wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable devices.”
Ex. 1001, 14:45–47 (emphasis added).
At this juncture, Petitioner does not proffer a construction for the claim term “instruction data.” Patent
Owner proposes to construe this claim term as a “code
identifying a function to be performed or identifying a
status that triggers a function to be performed.” Prelim. Resp. 13–15. According to Patent Owner, the claim
language itself supports its proposed interpretation, directing our attention to the language of claim 10—the
controller is “configured to decode the instruction data
and implement an associated instruction.” Id. at 13–14
(citing Ex. 1001, 15:14–19). Patent Owner also cites the
following passages of the Specification:
In accordance with one aspect of the invention, the system includes a transmitter disposed at a first location and configured to transmit a signal containing an
instruction code to a transceiver. The instruction code uniquely identifies an instruction to be carried out.
Ex. 1001, 2:25–30 (emphasis added).
The instruction code is a relatively small

132a
data value that may be decoded to define
a wide variety of functions. For example,
an instruction code a single byte (eight
bits) in size may define up to two hundred fifty six different functions or instructions Similarly, an instruction code
two bytes in size may define over sixtyfive thousand (216) functions or instructions.
Id. at 2:51–57 (emphases added).
In fact, for purposes of the present invention, the message transmitted by the
transmitter may be as simple as an instruction code that defines some condition that a central station may decode and
act upon.
Id. at 13:58–61 (emphases added).
However, Patent Owner’s proposed claim construction would improperly import a limitation from a preferred embodiment into the claims. The cited passages
of the Specification, including claim 10, do not set forth a
definition that redefines “instruction data” as an instruction code that is a relative small data value uniquely
identifying a function to be performed or a status that
triggers a function to be performed.
An ordinarily skilled artisan would have understood
“data” as plural of datum, “an item of information.” See
MICROSOFT COMPUTER DICTIONARY at 129 (3rd
ed. 1997) (defining “data” as “[p]lural of the Latin datum,
meaning an item of information.”) (Ex. 3001, 3). As the
Specification confirms, the “signal comprising instruction data” itself does not include an instruction, but instead contains information for a computer system at the

133a
central location, or other locations, to identify the function or instruction to be performed. Ex. 1001, 14:50–59
(reciting a controller that is configured to “communicate
information contained within the signals to the central
location”), 3:3–7 (explaining the predetermined location,
e.g., a central dispatch location, identifies the function or
instruction), Fig. 4.
For the foregoing reasons, we decline to adopt Patent Owner’s proposed claim construction for the term
“instruction data.” Rather, in light of the Specification
and the basic knowledge of an ordinarily skilled artisan,
we construe “instruction data” as “items of information
that allows a computer system to identify a function or
an instruction to be performed.”
B.

Patentable Subject Matter Under 35 U.S.C § 101

Petitioner asserts that claims 1, 7, 9, 16, and 17 are
directed to an abstract idea that is not eligible subject
matter for a patent under § 101. Pet. 16–28. In particular, Petitioner takes the position that these challenged
claims are directed to an abstract idea of “establishing a
communications route between two points to relay information,” and no other component recited in the claims
transforms the patent-ineligible concept to a patent-eligible application. Id. Patent Owner opposes. Prelim.
Resp. 43– 54.
A patent may be obtained for “any new and useful
process, machine, manufacture, or composition of matter, or any new and useful improvement thereof.” 35
U.S.C. § 101. The Supreme Court has held that this provision contains an implicit exception: laws of nature, natural phenomena, and abstract ideas are not patentable.
Alice Corp. v. CLS Bank International, 134 S. Ct. 2347,
2354 (2014); Gottschalk v. Benson, 409 U.S. 63, 67 (1972)

134a
(“Phenomena of nature, through just discovered, mental
processes, and abstract intellectual concepts are not patentable, as they are the basic tools of scientific and technological work.”). Notwithstanding that a law of nature
or an abstract idea, by itself, is not patentable, the practical application of these concepts may be deserving of
patent protection. Mayo Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293–94 (2012).
In Alice, the Supreme Court reaffirmed the framework set forth previously in Mayo “for distinguishing
patents that claim laws of nature, natural phenomena,
and abstract ideas from those that claim patent-eligible
applications of these concepts.” Alice, 134 S. Ct. at 2355.
The first step in the analysis is to “determine whether
the claims at issue are directed to one of those patentineligible concepts.” Id. If the claims are directed to a
patent-ineligible concept, the second step in the analysis
is to consider the elements of the claims “individually
and ‘as an ordered combination’” to determine whether
there are additional elements that “‘transform the nature of the claim’ into a patent-eligible application.” Id.
(quoting Mayo, 132 S. Ct. at 1298, 1297). The prohibition
against patenting an abstract idea “cannot be circumvented by attempting to limit the use of the formula to a
particular technological environment or adding insignificant post-solution activity.” Bilski v. Kappos, 561 U.S.
593, 610–11 (2010) (citation and internal quotation marks
omitted).
Whether the challenged claims are directed to an abstract idea
As the first step of our analysis, we determine
whether claims 1, 7, 9, 16, and 17 of the ’842 patent are

135a
directed to a patent-ineligible concept, such as an abstract idea. See Alice, 134 S. Ct. at 2355. In determining
whether the claims are directed to an abstract idea, we
must avoid oversimplifying the claim because “all inventions at some level embody, use, reflect, rest upon, or apply laws of nature, natural phenomena, or abstract
ideas.” Mayo¸132 S. Ct. at 1293. To that end, we consider
the claims “in light of the specification, based on whether
‘their character as a whole is directed to excluded subject matter.’” Enfish, LLC v. Microsoft Corp., 822 F.3d
1327, 1335 (Fed. Cir. 2016) (citing Internet patents Corp.
v. Active Network Inc., 790 F.3d 1343, 1346 (Fed. Cir.
2015)). In that regard, we determine whether the claims
“focus on a specific means or method that improves the
relevant technology” or are “directed to a result or effect
that itself is the abstract idea and merely invoke generic
processes and machinery.” McRO, Inc. v. Gandai
Namco Games Am. Inc., 837 F.3d 1299, 1314 (Fed. Cir.
2016).
Here, Petitioner alleges that claims 1, 7, 9, 16, and
17 are directed to the patent-ineligible abstract idea of
“establishing a communication route between two points
to relay information.” Pet. 17. According to Petitioner,
“[t]his concept has been practice for centuries in applications such as the Postal Service, Pony Express, and telegraph, where a route is established to relay mail or
other communications from one point to another.” Id.
(citing Ex. 1003 ¶¶ 26–30, 44–57, 59–63; Ex. 1019–Ex.
1021). Patent Owner counters that the challenged claims
are not directed to an abstract idea, but rather to “an
improvement in communication technology between remote devices that are accessible by wireless communication and a central location via a circuit interface.” Prelim.
Resp. 44–51.

136a
On this record, we are persuaded that Petitioner has
shown sufficiently for purposes of this Decision that
claims 1, 7, 9, 16, and 17 are directed to a patent-ineligible abstract idea. We are not persuaded by Patent
Owner’s argument that the claims are drawn to a specific
improvement to communication technology, as the
claims appear to require no more than the use of conventional or generic technology in sending information between two locations.
Claims 1, 7, 9, 16, and 17 essentially recite a device
for communicating information that comprises: (1) a
transceiver for transmitting or receiving a signal; (2) an
interface circuit for communicating with a central location; and (3) a controller for establishing a communication link via a network to transmit a signal. Ex. 1001,
14:43–59, 15:5–7, 15:11– 13, 16:3–37. As Petitioner explains, the Specification confirms that each claim, as a
whole, is drawn to the abstract concept of “establishing
a communication route between two points to relay information.” Pet. 19. Notably, the Specification states
that “the present invention is generally directed to a system for communicating information to a predetermined
location.” Ex. 1001, 2:23–25. The Specification confirms
that the claimed device merely replaces the manual process of dispatching a human to check periodically on remote devices (e.g., a vending machine), and notifying the
central service location of any problems (e.g., out of a
product). Id. at 1:66–2:11. The Specification explains that
another aspect of the invention is to provide a method
“for performing an automated service request.” Id. at
3:28–3:30.
The Specification further confirms that “the invention is directed to a general purpose transceiver having
a receiver for receiving an information signal and a

137a
transmitter configured to transmit an outgoing signal to
a central station.” Id. at Abs., 2:23–25 (emphasis added).
The Specification also acknowledges that the claimed
features were known in the art at the time of the invention. Ex. 1001, 5:23–25; 6:62–64 (“As is well known by
those skilled in the art, a variety of transducers can perform this functionality adequately.”); 10:13–15 (“[T]he
controller 256 may be a general purpose microprocessor
or microcontroller.”); 10:21–23 (“The interface 258 within
the transceiver 270 is designed to interface with this typical/standard telephone circuitry 263.”); 10:23–26 (“The
specific implementation of the circuitry of [interface] 258
will be appreciated by persons skilled in the art and need
not be described in detail herein.”). Indeed, the FCC
Bulletin confirms that, at the time of the invention, lowpower wireless transmitters were “used virtually everywhere,” noting that “[c]ordless phones, baby monitors,
garage door openers, wireless home security systems,
keyless automobile entry systems and hundreds of other
types of common electronic equipment rely on such
transmitters to function.” Ex. 2001, 1.
Claims 1, 7, 9, 16, and 17 do no more than require a
general purpose or generic transceiver, controller, and
interface to automate a service request process, which is
a conventional business practice. Our reviewing Court
has noted that certain fundamental economic and conventional business practices if performed on a generic
computer are abstract ideas. DDR Holdings, LLC v.
Holtels.com. L.P., 773 F.3d 1245, 1256 (Fed. Cir. 2014)).
For example, the Supreme Court in Alice determined
that the claims at issue there were patent ineligible because they “simply instruct the practitioner to implement the abstract idea of intermediated settlement on a
generic computer.” 134 S. Ct. at 2359.

138a
We are cognizant that claims 1, 7, 9, 16, and 17 require a device with electronic components. However, not
every claim reciting “concrete, tangible components escapes the reach of the abstract-idea inquiry.” In re TLI
Commc’ns LLC Patent Litig., 823 F.3d 607, 611 (Fed.
Cir. 2016) (holding that claims reciting “a telephone unit”
and a “server” were nonetheless directed to an abstract
idea); see also Content Extraction & Transmission LLC
v. Wells Fargo Bank, 776 F.3d 1343, 1347 (Fed. Cir. 2014)
(holding claims reciting a “scanner” were directed to an
abstract idea); Mortg. Grader, Inc. v. First Choice Loan
Serv. Inc., 811 F.3d 1314, 1324– 25 (Fed. Cir. 2016) (holding that claims reciting an “interface,” “network,” and a
“database” were directed to an abstract idea). In
buySAFE, our reviewing court held the claims patent
ineligible because they recited no more than using a computer to send and receive information over a network in
order to implement the abstract idea of creating a
“transaction performance guaranty.” buySAFE, Inc. v.
Google, Inc., 765 F.3d 1350, 1355 (Fed. Cir. 2014). Claims
1, 7, 9, 16, and 17 here are similar to those claims in
buySAFE, reciting a general purpose or conventional
transceiver, interface, and controller for sending or receiving information to establish communication route
between two locations.
As Petitioner explains, unlike the claims in Enfish,
822 F.3d at 1335– 36 (Fed. Cir. 2016), which were “directed to a specific improvement to the way computers
operate,” the challenged claims here “simply substitute
generic, well-known computer components for a human
in performing age-old communication.” Pet. 21–23, n.6
(citing Ex. 1001 1:66–2:11). Claims 1, 7, 9, 16, and 17 also
are unlike those in McRO, which were focused on “a specific asserted improvement in computer animation, i.e.,

139a
the automatic use of rules of a particular type.” 837 F.3d
at 1314. As the court explained in McRO, “the claimed
improvement [was] allowing computers to produce accurate and realistic lip synchronization and facial expressions in animated characters that previously could only
be produced by human animators.” Id. at 1313 (internal
quotation marks omitted.). In contrast, claims 1, 7, 9, 16,
and 17 here do not address how the communication technology itself would be improved. Nor does the Specification describe an improved transceiver, interface, or
controller. As noted above, the Specification does not
provide “any technical details for the tangible components, but instead predominately describes the system
and methods in purely functional terms.” TLI, 823 F.3d
at 612.
As Petitioner notes (Pet. 21), the concept of automating a service request process with a general purpose
computer with known electronic components is an abstract idea ineligible for patenting. CyberSource Corp. v.
Retail Decisions, Inc., 654 F.3d 1366, 1372 (Fed. Cir.
2011) (finding claim directed to “unpatentable mental
processes” where the “steps can be performed in the human mind, or by a human using a pen and paper”); SiRF
Tech. v. Int’l Trade Comm’n, 601 F.3d 1319, 1333 (Fed.
Cir. 2010); see also TLI, 823 F.3d at 612 (holding the
claims patent ineligible, where, inter alia, “[t]he specification does not describe a new telephone, a new server,
or a new physical combination of the two.”). Like the
claims in Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229
(Fed. Cir. 2016), claims 1, 7, 9, 16, and 17 here do not address a particular way of programming or designing the
software to establish the communication link between
the remote device and the central service center, but ra-

140a
ther merely claim a general purpose system that is directed to certain functionality.
For the foregoing reasons, we are persuaded that
Petitioner has demonstrated sufficiently for purposes of
this Decision that claims 1, 7, 9, 16, and 17 of the ’842 patent are directed to a patent-ineligible abstract idea.
Whether the challenged claims lack a patent-eligible inventive concept
Turning to the second step in the analysis, we look
for additional elements that can “transform the nature
of the claim” into a patent-eligible application of an abstract idea. That is, we determine whether the claims include an “inventive concept,” i.e., an element or combination of elements sufficient to ensure that the patent in
practice amounts to significantly more than a patent on
the abstract idea itself. Alice, 134 S. Ct. at 2357. Merely
limiting the use of abstract idea “to a particular technological environment” or implementing the abstract idea
on a “wholly generic computer” is not sufficient as an additional feature to provide “practical assurance that the
process is more than a drafting effort designed to monopolize the abstract idea itself.” Id. at 2358 (quoting
Mayo, 132 S. Ct. at 1297).
Here, Petitioner argues that claims 1, 7, 9, 16, and 17
are unpatentable because they are “directed only to an
abstract idea with nothing more added than generic
computing components and ‘well-understood, routine,
conventional activity’ previously performed in the field
(both individually and as an ordered combination in the
claims).” Pet. 23–24 (citing Mayo, 132 Ct. at 1294). According to Petitioner, the challenged claims “recite the
concept of establishing a communication route between

141a
two points ‘as performed by a generic computer,’ without disclosing any ‘novel or unusual’ improvement to ‘the
functioning of the computer itself’ or any ‘advance in
computer technology that makes the performance of
[routine] functions more effective.” Id. at 24 (citing Alice, 134 S. Ct. at 2358–60).
Patent Owner counters that the challenged claims
are directed to “an improvement in communication technology between remote devices that are accessible by
wireless communication and a central location via a circuit interface.” Prelim. Resp. 45. In Patent Owner’s
view, the claims required a device comprising a particular structure of components including a low-power transceiver configured to transmit wirelessly a signal and a
controller that is coupled to both the low-power transceiver and an interface circuit. Id. at 45–48.
Upon review of parties’ contentions and supporting
evidence in the present record, we are persuaded that
Petitioner has shown sufficiently for purposes of this Decision that the claimed elements, individually and as an
ordered combination, do not transform the claimed abstract idea into a patent-eligible application. As we discuss above, the claimed elements— transceiver, interface, and controller—are generic electronic components
performing their known functions. Considering the elements individually, we are not persuaded on this record
that the elements are sufficient to transform the nature
of the claims into a patent-eligible application of the abstract idea of “establishing a communication route between two points to relay information.” Even when considering the elements as an ordered combination, we are
not persuaded that claims 1, 7, 9, 16, and 17 contain a
combination of elements sufficient to ensure that any of
the claims amounts to significant more than a patent on

142a
the abstract idea.
As noted previously, the Specification confirms that
the claimed subject matter merely replaces a conventional business practice with an electronic device having
known computer components for sending and receiving
information. Ex. 1001, 1:66–2:11, 2:23–25, 3:28–3:30, 6:62–
64. Notably, the Specification explains that “the invention is directed to a general purpose transceiver,” id. at
Abstract, 2:23–25 (emphasis added), and that “[a]s is well
known by those skilled in the art, a variety of transducers can perform this functionality adequately,” id. at
6:62–64. Indeed, the FCC Bulletin confirms that, at the
time of the invention, low-power transmitters were
“used virtually everywhere,” including in cordless
phones, baby monitors, garage door openers, wireless
home security systems, and keyless automobile entry
systems. Ex. 2001, 1. The “transceiver” element requires
nothing more than a generic device performing a conventional function (transmitting or receiving information). As our reviewing court has explained, using a
generic computer to send and receive information over a
network does not transform the abstract idea into a patent-eligible invention. buySAFE, 765 F.3d at 1355; see
also Alice, 134 S. Ct. at 2358–59 (noting that “the use of
a computer to create electronic records, track multiple
transactions, and issue simultaneous instructions” does
not improve the functioning of the computer itself or any
other technology).
As to the “interface circuit” element, the Specification does not teach how the interface circuitry was to improve the communication technology, as alleged by Patent Owner. Nor does it teach how this element was to
be implemented technologically. Instead, the Specification merely discloses that “[t]he specific implementation

143a
of the circuitry of [the interface] will be appreciated by
persons skilled in the art and need not be described in
detail herein.” Ex. 1001, 10:23–26. The Specification further suggests that the interface circuit uses preexisting
technology to send information over the PSTN via a telephone line. Id. at 2:34–38 (“The transceiver circuit includes a line interface circuit configured to interface
with a telephone line that is part of the public-switched
telephone network (PSTN) . . . .”), 10:17–26 (“The interface 258 within the transceiver 270 is designed to interface with this typical/standard telephone circuitry 263.”
(emphasis added)). As our reviewing court has explained, simply adding preexisting technologies to an
otherwise unpatentable claim does not make the claim
patentable. Apple, 842 F.3d at 1242 (finding that appending preexisting handwriting and voice capture technologies onto otherwise unpatentable claims does not make
them patentable); Content Extraction & Transmission
LLC v. Wells Fargo Bank, Nat’l Ass’n, 776 F.3d 1343,
1348 (Fed. Cir. 2014) (holding that a recitation of the use
of “existing scanning and processing technology to recognize and store data from specific data fields such as
amounts, addresses, and dates” did not amount to significantly more than the “abstract idea of recognizing and
storing information from hard copy documents using a
scanner and a computer”).
Finally, with respect to the “controller” element, the
Specification teaches that the controller “may be a general purpose microprocessor or microcontroller.” Ex.
1001, 10:13–15. The Specification discloses that the controller establishes a communication link by initiating a
phone call over a telephone line that is part of the public
telephone network “for providing general purpose communications to a central location.” Id. at 2:34–48. As the

144a
Supreme Court articulated in Alice, “the mere recitation
of a generic computer cannot transform a patent-ineligible abstract idea into a patent-eligible invention.” Alice,
134 S. Ct. at 2358. Like in Alice, the function performed
by the controller as recited in claims 1, 7, 9, 16, and 17
here is “purely conventional.” The computers in Alice
were receiving and sending information over networks
connecting the intermediary to the other institutions involved, and the Court found those roles of the computers
insufficient for patent eligibility. Id. at 2359–60. Moreover, the use of telephone lines in the public telephone
network for sending information is not an improvement
to the communication technology, as alleged by Patent
Owner, but rather a well-understood, routine, conventional activity that does not add significantly more to the
abstract idea. Mayo, 132 S. Ct. at 1298.
For the foregoing reasons, we determine that each
claim element “does no more than require a generic computer to perform generic computer functions,” as in Alice, 134 S. Ct. at 2359. Even when the claimed elements
are considered “as an ordered combination,” as is the
case in Alice, they “add nothing that is not already present when the [elements] are considered separately.” Id.
(citing Mayo, 132 S. Ct. at 1298) (internal quotation
marks omitted). Each of claims 1, 7, 9, 16, and 17, as a
whole, conveys nothing meaningfully more than the abstract idea of establishing a communication route between two points to relay information as performed by a
generic computer system. Simply implementing an abstract concept on a computer, without meaningful limitations to that concept, does not transform a patent ineligible claim to a patent-eligible claim. Accenture Global
Servs. GmbH v. Guidewire Software, Inc., 728 F.3d 1336,
1345 (Fed. Cir. 2013).

145a
On this record, we do not find that the claimed subject matter as a whole “improves the functioning of the
computer itself,” or “effect[s] an improvement in any
other technology or technical field,” as there is no specific recitation in the claims of improved computer technology or advanced programing techniques. See Alice,
134 S. Ct. at 2359. As is the case in Alice, claims 1, 7, 9,
16, and 17 here amount to “nothing significantly more”
than applying an abstract idea on a generic computer
system, which is not enough to transform an abstract
idea into a patent-eligible invention. Id. at 2360.
In view of the foregoing, we determine that Petitioner has shown that it is more likely than not that
claims 1, 7, 9, 16, and 17 are directed to patent-ineligible
subject matter under § 101.
C.

Written Description

Petitioner contends that the ’842 patent lacks adequate written description support under 35 U.S.C. §
112, ¶ 1, for certain claim limitations. Pet. 85–89. Patent
Owner opposes. Prelim. Resp. 54–58.
At the outset, we note that the challenged claims
are not the original claims submitted with the application that issued as the ’842 patent. Ex. 1002, 86–89
(Amendment filed on December 4, 2013). We begin our
discussion below with a brief summary of the principle
of law concerning the written description requirement,
and then we address each of the contentions advanced
by the parties in turn, focusing on the disputed claim limitations.
Principles of Law
The written description test involves a determination of whether the original disclosure of the application

146a
relied upon reasonably conveys to a person of ordinary
skill in the art that the inventor had possession of the
claimed subject matter as of the filing date. Ariad
Pharms., Inc. v. Eli Lilly & Co., 598 F.3d 1336, 1351
(Fed. Cir. 2010) (en banc). “Based on that inquiry, the
specification must describe an invention understandable
to that skilled artisan and show that the inventor actually invented the invention claimed.” Id. The original disclosure is not required to describe the claimed subject
matter in exactly the same way as the terms used in the
claims. See In re Wright, 866 F.2d 422, 425 (Fed. Cir.
1989). However, a description which renders obvious the
invention sought is not sufficient. Lockwood v. Am. Airlines, Inc., 107 F.3d 1565, 1572 (Fed. Cir. 1997). Moreover, even if the claimed subject matter could have been
“envisioned” from the earlier disclosure, it is not enough
to establish adequate written description support.
Goeddel v. Sugano, 617 F.3d 1350, 1356 (Fed. Cir. 2010).
Low-Power Transceiver
Claim 1 recites “a low-power transceiver configured
to wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable devices.”
Ex. 1001, 14:45–47. By virtue of their dependency, claims
7 and 9 also require this limitation. Id. at 15:5–7, 15:12–
14.
Claim 16 recites a processor and a memory that “are
configured to cause the device to: wirelessly transmit a
signal comprising instruction data for delivery to a network of addressable low-power transceivers.” Id. at
16:5–11. Claim 17 recites “a low-power transceiver that
is configured to wirelessly receive a signal including an
instruction data from a remote device.” Id. at 16:24–26.
Claim 17 also requires a controller that is configured to

147a
receive a signal from the central location and communicate the information contained within the signal to the
remote device. Id. at 16:34–37. As discussed above in our
claim construction analysis, a transceiver is a device that
transmits and receives signals. Ex. 3001, 4.
Petitioner alleges that “[i]n all embodiments, the
transmitting device transmits information sent to a central location,” but the ’842 patent does not disclose “the
transmitting device receiving information.” Pet. 86–87.
Petitioner notes that, during the prosecution of the ’842
patent, the Examiner determined that “Applicant did
not disclose or demonstrate possession of remote units
that receive communication from the central location”
because remote transmitting unit 20 in Figure 1B and
vending machine 120 in Figure 2B have no receiver. Id.
(citing Ex. 1002, 77).
Patent Owner counters that the Specification discloses a device comprising a low-power transceiver, an
interface circuit and a controller, as required by the challenged claims. Prelim. Resp. 55. According to Patent
Owner, the “Specification discloses that this device can
perform the claimed delivery to a network of addressable devices,” because the Specification illustrates “the
specially-equipped telephone 110 in FIG. 2B and the
open ended transceiver 270 in FIG. 4.” Id. at 55–56. Patent Owner contends that each of these devices has both
a receiver and a transmitter. Id.
Upon consideration of parties’ contentions and supporting evidence, we are not persuaded by Patent
Owner’s arguments regarding the aforementioned claim
limitations. Rather, we determine it is more likely than
not that Petitioner would prevail in showing that the
subject matter in each of claims 1, 7, 9, 16, and 17 lacks

148a
adequate written description support under § 112, ¶ 1,
as to the aforementioned limitations.
At the outset, Patent Owner’s argument is inconsistent with its claim construction contention that a
“low-power transceiver” transmits low-power signals
(signals having a limited transmission range) because
the transceiver in the intermediary device (telephone
110 or transceiver 270) does not transmit low-power signals. Prelim. Resp. 11–13, 55–56. As the original disclosure of the ’842 patent describes, the transceiver includes a receiver for receiving a signal and a transmitter
for communicating data via the PSTN to central station
(Ex. 1002, 20:5–8), but the original disclosure does not
show that transmitter 158 in telephone 110 (as shown in
Figure 2B) and telephone circuitry interface 258 in
transceiver 270 (as shown in Figure 4) send low-power
signals (signals having a limited transmission range).
Moreover, as Petitioner notes, the original disclosure of
the ’842 patent does not disclose a remote device for receiving a signal from the central location.
Patent Owner’s arguments also conflate the lowpower transmitter in the remote unit (RF transmitter 48
in remote transmitting unit 20, as shown in Figure 1B,
and RF transmitter 149 in vending machine 120, as
shown in Figure 2B) with the transceiver in the intermediary device (the transceiver in AFTM 10, as shown in
Figure 1B, or in telephone 110, as shown in Figure 2B).
Figure 1B is reproduced below with annotations.

149a

Annotated Figure 1B above illustrates the “automatic financial transaction machine (AFTM)” embodiment, in which remote transmitting unit 20 (annotated
with a green circle) sends signal 30 to AFTM 10 (annotated with a red rectangle) that includes RF receiver 50
and transmitter 58. Ex. 1002, 17:24–19:26, 35. Transmitting unit 20 is not the claimed low-power transceiver—a
device that transmits and receives signals having a limited transmission range—because transmitting unit 20
does not have a receiver. Id. AFTM 10 also is not the
claimed low-power transceiver because transmitter 58
in AFTM 10 does not appear to be a low-power transmitter. Id. The original disclosure does not disclose a lowpower transmitter in AFTM 10. Id.

150a
Figure 2B is reproduced below with annotations.

Figure 2B illustrates the “vending machine” embodiment, in which vending machine 120 (annotated with a
green oval) sends signal 130 to a transceiver of telephone
110 (annotated with a red rectangle). Id. at 19:27– 22:4,
37. Vending machine 120 is not the claimed low-power
transceiver because vending machine 120 does not have
a receiver. Telephone 110 also is not the claimed lowpower transceiver because neither transmitter 158 in
telephone 110 (as shown in Figure 2B), nor 258 telephone
circuitry interface in transceiver 270 (as shown in Figure
4), appears to be a low-power transmitter. Id. at 22:17–
24:4, 37, 39.
In sum, we do not discern at this juncture the original disclosure of the ’842 patent adequately describes an
intermediary device (telephone 110 or transceiver 270)
having: (1) a low-power transceiver that is “configured

151a
to wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable devices,”
as required by claims 1, 7 and 9; (2) a processor and a
memory configured to cause the device to “wirelessly
transmit a signal comprising instruction data for delivery to a network of addressable low-power transceivers,” as required by claim 16; or (3) “a low- power transceiver that is configured to wirelessly receive a signal
including an instruction data from a remote device,” as
required by claim 17. Moreover, on this record, we do not
find the original disclosure describe adequately an intermediary device (telephone 110 or transceiver 270) having a controller that is configured to receive a signal from
the central location and communicate the information
contained within the signal to the remote device, as required by claim 17.
For the foregoing reasons, we determine it is more
likely than not that Petitioner would prevail in showing
that the subject matter in each of claims 1, 7, 9, 16, and
17 lacks adequate written description support under §
112, ¶ 1, as to the aforementioned “low-power transceiver” limitations.
Communication Link
Claim 1 recites “a communication link between at
least one device in the network of addressable devices
and the central location . . . , the communication link comprising one or more devices in the network of addressable” devices. Ex. 1001, 14:55–56. By virtue of their dependency, claims 7 and 9 also require this limitation. Id.
at 15:5–7, 15:12–14. Claim 16 recites “a communication
link between at least one low-power transceiver in the
network of addressable low-power transceivers and a
central location . . . , the communication link comprising

152a
one or more low-power transceivers in the network of
addressable low-power transceivers.” Id. at 16:15–18.
Petitioner asserts that the Specification discloses
“having only one device (e.g., transmitter 20) in the communication link, and nothing suggests Applicant possessed a system where the communication link comprised multiple devices.” Pet. 88–89.
Patent Owner counters that the Specification discloses a device that “can perform the claimed delivery to
a network of addressable devices.” Prelim. Resp. 55. Patent Owner alleges that the ’842 patent describes communication links comprising multiple devices in that Figure 2B “illustrates a communication link between a central station 162 and a vending machine 120 that comprises multiple devices including a specially equipped
telephone 110, a transmitter 158, a phone circuit interface, a R.F. receiver 110, and a R.F. transmitter 149.” Id.
at 57. According to Patent Owner, the communication
link of Figure 4 also comprises “multiple devices such as
the receiver 250, the device that communicates with the
receiver 250 via the radio link 230, the telephone circuitry interface 258 for communicating information via
telephone circuitry 263 over the public switched telephone network (PSTN 260).” Id. at 57–58.
However, Patent Owner’s arguments are not persuasive because they rest on the premise that each component (e.g., transmitter 158, receiver 250) within the
transceiver or vending machine is a separately addressable device. Patent Owner does not direct us to, nor do
we find, the original disclosure of the ’842 patent where
it discloses that each of these components is an addressable device. Ex. 1002, 1–46. Based on the evidence in the
present record, we determine it is more likely than not

153a
that Petitioner would prevail in showing that the subject
matter in each of claims 1, 7, 9, and 16 lacks adequate
written description support under § 112, ¶ 1, as to the
aforementioned “communication link” limitations.
D.

Principles of Law on Obviousness

A patent claim is unpatentable under 35 U.S.C. §
103(a) if the differences between the claimed subject
matter and the prior art are such that the subject matter, as a whole, would have been obvious at the time the
invention was made to a person having ordinary skill in
the art to which said subject matter pertains. KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007). The question of obviousness is resolved on the basis of underlying
factual determinations including: (1) the scope and content of the prior art; any differences between the
claimed subject matter and the prior art; the level of ordinary skill in the art; and (4) objective evidence of nonobviousness. Graham v. John Deere Co., 383 U.S. 1, 17–
18 (1966).
We observe that the prior art of record in the instant
proceeding reflects the appropriate level of ordinary
skill in the art. See Okajima v. Bourdeau, 261 F.3d 1350,
1354–55 (Fed. Cir. 2001) (“[T]he prior art itself reflects
an appropriate level” of ordinary skill in the art. (quoting
Litton Indus. Prods., Inc. v. Solid State Sys. Corp., 755
F.2d 158, 163 (Fed. Cir. 1985))).
E.

Obviousness over Tymes

Petitioner asserts that claims 1, 7, 9, 16, and 17 are
unpatentable under § 103(a) as obvious over Tymes. Pet.
63–85. As support, Petitioner provides detailed explanations as to how Tymes teaches or suggests each limitation. Id. Petitioner also directs us to relevant portions of
Dr. Geier’s Declaration for support. Ex. 1003. Patent

154a
Owner counters that Tymes does not teach or suggest
certain claim limitations. Prelim. Resp. 39–43.
We have carefully considered the parties’ contentions and supporting evidence in this record. At this
juncture, we determine that Petitioner has established
sufficiently for purposes of this Decision that Tymes renders the challenged claims obvious. We begin our discussion below with an overview of Tymes, and then we address the parties’ contentions in turn, focusing on the deficiencies alleged by Patent Owner.
Tymes
Tymes discloses a packet data transmission system
that links a plurality of remote hand-held data-gathering
units to a central computer. Ex. 1005, Abs., Fig. 1. According to Tymes, it is an object of its invention to provide an improved, low-cost, low-power, data communication network, preferably a network using an RF link, in
which the remote terminal units can send data packets
to a central station, and receive acknowledged data signals from the central station. Figure 1 of Tymes is reproduced below.

155a
Figure 1 of Tymes illustrates a communication network that includes host computer 10, a plurality of base
stations 12, 13, 14, and a plurality of remote terminals 15.
Host computer 10 is a central computer that maintains a
database management system. Id. at Abs., 4:61–5:44. Remote units 15 send information to host computer 10 via
intermediary base stations 12–14. Id. Each base station
is connected to one or more remote units 15 via a radio
frequency (RF) link. Id. Base stations 12–14 are connected to central host computer either by a wire connection or by a similar RF link. Id. at 3:23–25.
Discussion
Claims 1 recites “a low-power transceiver configured to wirelessly transmit a signal comprising instruction data for delivery to a network of addressable devices.” Ex. 1001, 14:45–47 (emphasis added). By virtue of
their dependency, claims 7 and 9 also require this limitation. Id. at 15:5–7, 15:12–14. Claim 16 recites a processor
and a memory that “are configured to cause the device
to: wirelessly transmit a signal comprising instruction
data for delivery to a network of addressable low-power
transceivers.” Id. at 16:5–11. Claim 17 recites “a lowpower transceiver that is configured to wirelessly receive a signal including an instruction data from a remote
device.” Id. at 16:24–26 (emphasis added).
Petitioner alleges that Tymes teaches or suggests
these limitations because Tymes’ base station includes
an RF transceiver configured to wirelessly transmit or
receive a signal via an RF transmission, and Tymes’ response packet, indicating “which antenna worked the
best,” is a signal that comprises instruction data. Pet. 63–
68, 78–84. Petitioner submits that Tymes teaches an RF

156a
data link usable without site licensing under FCC regulations and that the FCC limits the power for unlicensed
transmitters, such as < 1 Watt for the 902–928 MHz
range of frequency taught by Tymes. Id. at 66, n. 38 (citing Ex. 1005, 2:53–55, 14:49–51; Ex. 1010, 18; Ex. 1017,
7:9–11, 31–34). Petitioner contends that a person with ordinary skill in the art “would thus have found it advantageous and obvious to use ‘low power’ transceivers for
the base stations of the network for use ‘indoor[s]’, and
to keep the devices unlicensed.” Id. (citing Ex. 1003 ¶¶
358-59).
Patent Owner counters that Tymes does not suggest a low-power transceiver or a signal having instruction data. Prelim. Resp. 39–43. In particular, Patent
Owner argues that Tymes’ base station does not include
a low-power transceiver. Id. at 40. Patent Owner contends that Tymes teaches away from using a low-power
transceiver in the base station. Id. at 40–41. Patent
Owner further alleges that Tymes’ remote terminal cannot meet the claimed device because it does not have an
interface circuit for communicating with a central location, and a controller that is coupled to the interface circuit and the low-power transceiver. Id. at 41–42. Patent
Owner further argues that Tymes’ response packet is
not a code that identifies a function to be performed or a
status that triggers a function to be performed. Id. at 42–
43.
On this record, we are not persuaded by Patent
Owner’s arguments. Rather, we determine that Petitioner has provided a sufficient showing for purposes of
this Decision that Tymes at least suggests the disputed
claim limitations.

157a
First, we are not persuaded by Patent Owner’s assertion that Tymes does not teach a low-power transceiver in the base station. Prelim. Resp. 40–41. Although
Petitioner does not cite a secondary reference in its
statement for the asserted ground based on Tymes, Petitioner’s obviousness analysis nevertheless combines
Tymes’ teachings of low-power transceivers and RF
data links (Ex. 1005, 2:36–56) with the teachings of base
stations (id. at 6:66–7:2). Pet. 65–68. As Petitioner explains, Tymes teaches an “indoor” limited range network
and an RF data link “usable without site licensing under
FCC regulations, so that the expense and delays incident to such licensing are eliminated or minimized” (Ex.
1005, 2:36–56). Pet. 66– 67, n. 38. Tymes also discloses
that the RF transmission method is used for sending and
receiving data packets between the remote units and
base stations, as well as for the communications between
the base stations. Ex. 1005, 6:66–7:4, 13:58–61. Tymes
further explains that all of the base stations are connected to the central computer, either by a wire connection, or by a similar RF link. Id. at 3:23–25. As noted
above, Petitioner submits that the FCC limits the power
for unlicensed transmitters, such as < 1 Watt for the
902–928 MHz range of frequency taught by Tymes. Pet.
66, n. 38; Ex. 1005, 2:53–55, 18:1–3 (“The optimum frequency for the carrier (in the 902 to 928 MHz band), and
the optimum antenna 35a to 35n [for the base stations],
can thus be selected), Figs 1, 3, 10; Ex. 1010, 18; Ex. 1017,
7:9– 11, 31–34. Petitioner also asserts that an ordinarily
skilled artisan would have had a reason to use low-power
transceivers in the base stations so that they are usable
indoors without licensing under the FCC regulations.
Pet. 66, n. 38 (citing Ex. 1003 ¶¶ 358–59; Ex. 1005, 2:36–
53, 6:66–7:2, Figs. 1, 3). For purposes of this Decision, we

158a
are persuaded by Petitioner’s articulated reason to combine the teachings of Tymes.
Second, we are not persuaded by Patent Owner’s argument that Tymes teaches away from using a lowpower transceiver in the base station. Prelim. Resp. 41.
A reference does not teach away if it merely expresses a
general preference for an alternative invention but does
not “criticize, discredit, or otherwise discourage” investigation into the invention claimed. In re Fulton, 391
F.3d 1195, 1201 (Fed. Cir. 2004). As Patent Owner recognizes, Tymes teaches powering the base stations either by line current or by battery. Ex. 1005, 7:44–47.
Tymes merely expresses a general preference for line
current. Id. (noting that the “base stations are usually
powered by line current rather than being battery operated and so there is less concern for power dissipation”
(emphasis added)). We do not discern such a teaching
criticizes, discredits, or otherwise discourages investigation into using battery operated or low-power transceivers in the base stations.
Third, Patent Owner’s argument that Tymes’ remote terminal does not meet the claimed device is misplaced, as it conflates the remote terminals with the base
stations. Prelim. Resp. 41–42. Petitioner relies upon
Tymes’ base stations to teach or suggest an intermediary device for communicating information from a remote
unit to the host computer, or from the host computer to
a remote unit. Pet. 63–68. Petitioner’s annotated Figure
3 of Tymes is reproduced below (id. at 64).

159a

As shown in annotated Figure 3 of Tymes above,
host processor 10 (central location) is connected to base
station 13 via link 11. Host processor 10 maintains a database management system to which remote units 15
make entries or inquires via base stations 12–14. Ex.
1005, 6:34–40. Base stations 12–14 each utilize CPU 30
(controller), which is coupled to RF transceiver 34, communication adapter 33 (interface circuit), and memory
31, via local bus 32. Id. at 6:63–7:35. RF transceiver 34 is
connected to antenna 35 for receiving data from, and
transmitting data to, remote units 15 and other base stations. Id. At this juncture, we are persuaded that Petitioner has established sufficiently for purposes of this
Decision that Tymes teaches or suggests a device for
communicating information that comprises a low-power
transceiver, an interface circuit, and a controller, as recited in claims 1, 16, and 17.
Finally, we are not persuaded by Patent Owner’s argument that Tymes does not disclose “a signal comprising instruction data,” as it rests on Patent Owner’s un-

160a
duly narrow interpretation of the claim term “instruction data.” Prelim. Resp. 42–43. As discussed above in
our claim construction analysis, we decline to adopt that
interpretation, but rather construe the claim term “instruction data” as “items of information that allows a
computer system to identify a function or an instruction
to be performed.”
Even if we were to apply Patent Owner’s narrower
construction, Tymes still appears to teach a “signal comprising instruction data,” adequately for purposes of this
Decision. As Petitioner explains, Tymes discloses that,
in response to a “distress call” from a remote unit, the
base station sends a response packet, instructing it to
use the antenna that works the best. Pet. 67–68, n. 39
(citing Ex. 1005, 6:3–5, 6:66–7:2, 3:21–32, 21:27–46), 83, n.
56. An ordinarily skilled artisan would have recognized
that Tymes’ distress call includes a code that identifies a
status (the remote unit has moved out of range from the
base station in charge) that triggers a function to be performed—after the base station normally in charge has
heard from other base stations, it determines which one
should be the new base station in charge and “pass[es]
the baton” to that base station in time for that base station to send the response packet, indicating “which antenna worked the best, i.e., produced the fewest errors.”
Ex. 1005, 12:30–13:22 (each packet and response packet
include a 22-bytes data field, which contains 1s and 0s),
21:29–47, Fig. 7. Therefore, we are persuaded at this
juncture that Tymes’ transceiver in the base station is
“configured to wirelessly receive a signal including an instruction data from a remote device,” as recited in claim
17.
More importantly, an ordinarily skilled artisan also

161a
would have understood that the response packet includes a code that identifies a status (the reassignment,
indicating that the new base station is within the transmission range and it is the current base station in
charge) that triggers a function to be performed—the
remote unit should send its packets to the new base station in charge, instead of the previous base station. Id.
Furthermore, the response packet, indicating “which antenna worked the best,” also includes a code that identifies a function to be performed—the remote unit should
use that particular antenna for sending its packets for
quality transmissions. Id. Tymes further discloses that
each packet and response packet include a 22-bytes data
field, but if the data to be sent exceed 22 bytes, then a
code is included to indicate more is coming, which also is
a function to be performed. Id. at 13:19–22, Fig. 7. On this
record, we are persuaded by Petitioner’s contentions
and supporting evidence that Tymes teaches or suggests
a transceiver in the base station “configured to wirelessly transmit a signal comprising instruction data,” as
required by claims 1 and 16.
For the reasons discussed above, Petitioner has
demonstrated that it is more likely than not that Tymes
renders obvious claims 1, 16, and 17 of the ’842 patent.
Patent Owner does not advance separate arguments
with respect to dependent claims 7 and 9. Prelim. Resp.
39–43. We have reviewed Petitioner’s arguments and
supporting evidence regarding these claims and we are
persuaded on this record that Petitioner has shown sufficiently for purposes of this Decision that Tymes also
renders these claims obvious. Pet. 75–78. In view of the
foregoing, we conclude that Petitioner has established
that it is more likely than not that claims 1, 7, 9, 16, and
17 are unpatentable under § 103(a) as obvious over

162a
Tymes.
F.

Remaining Asserted Grounds of
Unpatentability

Pursuant to 35 U.S.C. § 326(b), rules for covered
business method patent proceedings were promulgated
to take into account the “regulation on the economy, the
integrity of the patent system, the efficient administration of the Office, and the ability of the Office to timely
complete proceedings.” The promulgated rules provide
that they are to “be construed to secure the just, speedy,
and inexpensive resolution of every proceeding.” 37
C.F.R. § 42.1(b). As a result, and in determining whether
to institute a review of a patent, the Board, in its discretion, may “deny some or all grounds for unpatentability
for some or all of the challenged claims.” 37 C.F.R. §
42.208(b).
Based on the record before us, we exercise our discretion and decline to institute review based on the remaining asserted grounds advanced by Petitioner that
are not identified below as being part of the trial. See,
e.g., 37 C.F.R. § 42.208(a).
III.

CONCLUSION

For the foregoing reasons, we determine that the information presented in the Petition establishes that it is
more likely than not that claims 1, 7, 9, 16, and 17 of the
’842 patent are unpatentable. At this stage in the proceeding, we have not made a final determination with respect to the patentability of the challenged claims, nor
with respect to claim construction.
IV.
Accordingly, it is

ORDER

163a
ORDERED that pursuant to 35 U.S.C. § 324(a), a
covered business method patent review is instituted for
the following ground of unpatentability:
Challenged Claims

Basis

1, 7, 9, 16, and 17

§ 101

1, 7, 9, 16, and 17

§ 103(a)

1, 7, 9, 16, and 17

§ 112, ¶ 1

Reference

Tymes

FURTHER ORDERED that no other ground of unpatentability asserted in the Petition is authorized for
this covered business method patent review; and
FURTHER ORDERED that pursuant to 35 U.S.C.
§ 324(d) and 37 C.F.R. § 42.4, notice is hereby given of
the institution of a trial; the trial commences on the entry date of this Decision.
For PETITIONER:
James L. Davis, Jr.
Ian B. Brooks
Matthew R. Shapiro
ROPES & GRAY LLP
james.l.davis@ropesgray.com
ian.brooks@ropesgray.com
matthew.shapiro@ropesgray.com
For PATENT OWNER:
Gregory J. Gonsalves
gonsalves@gonsalveslawfirm.com

164a
APPENDIX E
Note: This order is nonprecedential.
IN THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
No. 2018-1635
SIPCO, LLC,
APPELLANT,
V.

EMERSON ELECTRIC CO.,
APPELLEE.
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600095.
(December 3, 2019)
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges1.
PER CURIAM.
ORDER
Appellee Emerson Electric Co. filed a combined petition for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the appeal,
1

Circuit Judge Dyk did not participate.

165a
and thereafter the petition for rehearing en banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on December 10,
2019.
/s/ Peter R. Marksteiner
PETER R.
MARKSTEINER
CLERK OF COURT

166a
APPENDIX F
Section 18 of the Leahy-Smith America Invents Act,
Pub. L. 112-29, 125 Stat. 284 (2011), Transitional Program For Covered Business Method Patents.
(a) TRANSITIONAL PROGRAM.—
(1) ESTABLISHMENT.—Not later than the date
that is 1 year after the date of the enactment of this
Act, the Director shall issue regulations establishing
and implementing a transitional post-grant review
proceeding for review of the validity of covered business method patents. The transitional proceeding implemented pursuant to this subsection shall be regarded as, and shall employ the standards and procedures of, a postgrant review under chapter 32 of title
35, United States Code, subject to the following:
(A) Section 321(c) of title 35, United States Code,
and subsections (b), (e)(2), and (f) of section 325 of
such title shall not apply to a transitional proceeding.
(B) A person may not file a petition for a transitional proceeding with respect to a covered business
method patent unless the person or the person’s
real party in interest or privy has been sued for
infringement of the patent or has been charged
with infringement under that patent.
(C) A petitioner in a transitional proceeding who
challenges the validity of 1 or more claims in a covered business method patent on a ground raised
under section 102 or 103 of title 35, United States
Code, as in effect on the day before the effective
date set forth in section 3(n)(1), may support such

167a
ground only on the basis of—(i) prior art that is
described by section 102(a) of such title of such title (as in effect on the day before such effective
date); or
(ii) prior art that—
(I) discloses the invention more than 1 year
before the date of the application for patent in the United States; and
(II) would be described by section 102(a) of
such title (as in effect on the day before the
effective date set forth in section 3(n)(1)) if
the disclosure had been made by another
before the invention thereof by the applicant for patent.
(D) The petitioner in a transitional proceeding that
results in a final written decision under section
328(a) of title 35, United States Code, with respect
to a claim in a covered business method patent, or
the petitioner’s real party in interest, may not assert, either in a civil action arising in whole or in
part under section 1338 of title 28, United States
Code, or in a proceeding before the International
Trade Commission under section 337 of the Tariff
Act of 1930 (19 U.S.C. 1337), that the claim is invalid on any ground that the petitioner raised during
that transitional proceeding.
(E) The Director may institute a transitional proceeding only for a patent that is a covered business
method patent.
(2) EFFECTIVE DATE.—The regulations issued
under paragraph (1) shall take effect upon the expiration of the 1-year period beginning on the date of

168a
the enactment of this Act and shall apply to any covered business method patent issued before, on, or
after that effective date, except that the regulations
shall not apply to a patent described in section
6(f)(2)(A) of this Act during the period in which a petition for postgrant review of that patent would satisfy the requirements of section 321(c) of title 35,
United States Code.
(3) SUNSET.—
(A) IN GENERAL.—This subsection, and the regulations issued under this subsection, are repealed effective upon the expiration of the 8-year period beginning on the date that the regulations issued under to paragraph (1) take effect.
(B) APPLICABILITY.—Notwithstanding subparagraph (A), this subsection and the regulations issued under this subsection shall continue to apply,
after the date of the repeal under subparagraph
(A), to any petition for a transitional proceeding
that is filed before the date of such repeal.
(b) REQUEST FOR STAY.—
(1) IN GENERAL.—If a party seeks a stay of a civil
action alleging infringement of a patent under section 281 of title 35, United States Code, relating to a
transitional proceeding for that patent, the court
shall decide whether to enter a stay based on—
(A) whether a stay, or the denial thereof, will simplify the issues in question and streamline the
trial;
(B) whether discovery is complete and whether a
trial date has been set;

169a
(C) whether a stay, or the denial thereof, would unduly prejudice the nonmoving party or present a
clear tactical advantage for the moving party; and
(D) whether a stay, or the denial thereof, will reduce the burden of litigation on the parties and on
the court.
(2) REVIEW.—A party may take an immediate interlocutory appeal from a district court’s decision
under paragraph (1). The United States Court of
Appeals for the Federal Circuit shall review the district court’s decision to ensure consistent application of established precedent, and such review may
be de novo.
(c) ATM EXEMPTION FOR VENUE PURPOSES.—
In an action for infringement under section 281 of title
35, United States Code, of a covered business method
patent, an automated teller machine shall not be deemed
to be a regular and established place of business for purposes of section 1400(b) of title 28, United States Code.
(d) DEFINITION.—
(1) IN GENERAL.—For purposes of this section,
the term ‘‘covered business method patent’’ means a
patent that claims a method or corresponding apparatus for performing data Processing or other operations used in the practice, administration, or management of a financial product or service, except
that the term does not include patents for technological inventions.
(2) REGULATIONS.—To assist in implementing
the transitional proceeding authorized by this sub-

170a
section, the Director shall issue regulations for determining whether a patent is for a technological invention.
(e) RULE OF CONSTRUCTION.—Nothing in this section shall be construed as amending or interpreting categories of patent-eligible subject matter set forth under
section 101 of title 35, United States Code.

171a
APPENDIX G
35 U.S.C. § 101. Inventions patentable.
Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or
any new and useful improvement thereof, may obtain a
patent therefor, subject to the conditions and requirements of this title.

172a
APPENDIX H
35 U.S.C. § 103. Conditions for patentability; non-obvious subject matter.
A patent for a claimed invention may not be obtained,
notwithstanding that the claimed invention is not identically disclosed as set forth in section 102, if the differences between the claimed invention and the prior art
are such that the claimed invention as a whole would
have been obvious before the effective filing date of the
claimed invention to a person having ordinary skill in
the art to which the claimed invention pertains. Patentability shall not be negated by the manner in which the
invention was made.

173a
APPENDIX I
35 U.S.C. § 314. Institution of inter partes review.
(a) Threshold.—
The Director may not authorize an inter partes review
to be instituted unless the Director determines that the
information presented in the petition filed under section
311 and any response filed under section 313 shows that
there is a reasonable likelihood that the petitioner would
prevail with respect to at least 1 of the claims challenged
in the petition.
(b) Timing.—The Director shall determine whether to
institute an inter partes review under this chapter pursuant to a petition filed under section 311 within 3
months after—
(1) receiving a preliminary response to the petition
under section 313; or
(2) if no such preliminary response is filed, the last
date on which such response may be filed.
(c) Notice.—
The Director shall notify the petitioner and patent
owner, in writing, of the Director’s determination under
subsection (a), and shall make such notice available to
the public as soon as is practicable. Such notice shall include the date on which the review shall commence.
(d) No Appeal.—
The determination by the Director whether to institute
an inter partes review under this section shall be final
and nonappealable.

174a
APPENDIX J
35 U.S.C. § 324. Institution of post-grant review.
(a) Threshold.—
The Director may not authorize a post-grant review to
be instituted unless the Director determines that the information presented in the petition filed under section
321, if such information is not rebutted, would demonstrate that it is more likely than not that at least 1 of the
claims challenged in the petition is unpatentable.
(b) Additional Grounds.—
The determination required under subsection (a) may
also be satisfied by a showing that the petition raises a
novel or unsettled legal question that is important to
other patents or patent applications.
(c) Timing.—The Director shall determine whether to
institute a post-grant review under this chapter pursuant to a petition filed under section 321 within 3 months
after—
(1) receiving a preliminary response to the petition
under section 323; or
(2) if no such preliminary response is filed, the last
date on which such response may be filed.
(d) Notice.—
The Director shall notify the petitioner and patent
owner, in writing, of the Director’s determination under
subsection (a) or (b), and shall make such notice available
to the public as soon as is practicable. Such notice shall
include the date on which the review shall commence.
(e) No Appeal.—

175a
The determination by the Director whether to institute
a post-grant review under this section shall be final and
nonappealable.

176a
APPENDIX K
37 C.F.R. § 42.301 Definitions.
In addition to the definitions in § 42.2, the following definitions apply to proceedings under this subpart D:
(a) Covered business method patent means a patent that
claims a method or corresponding apparatus for performing data processing or other operations used in the
practice, administration, or management of a financial
product or service, except that the term does not include
patents for technological inventions.
(b) Technological invention. In determining whether a
patent is for a technological invention solely for purposes
of the Transitional Program for Covered Business Methods (section 42.301(a)), the following will be considered
on a case-by-case basis: whether the claimed subject
matter as a whole recites a technological feature that is
novel and unobvious over the prior art; and solves a technical problem using a technical solution.

177a
APPENDIX L
37 C.F.R. § 42.304 Content of petition.
In addition to any other notices required by subparts A
and C of this part, a petition must request judgment
against one or more claims of a patent identified by patent number. In addition to the requirements of §§ 42.6,
42.8, 42.22, and 42.24 the petition must set forth:
(a) Grounds for standing. The petitioner must demonstrate that the patent for which review is sought is a covered business method patent, and that the petitioner
meets the eligibility requirements of § 42.302.
(b) Identification of challenge. Provide a statement of
the precise relief requested for each claim challenged.
The statement must identify the following:
(1) The claim;
(2) The specific statutory grounds permitted under
paragraph (2) or (3) of 35 U.S.C. 282(b), except as
modified by section 18(a)(1)(C) of the Leahy-Smith
America Invents Act (Pub. L. 112-29, 125 Stat. 284
(2011)), on which the challenge to the claim is based;
(3) How the challenged claim is to be construed.
Where the claim to be construed contains a meansplus-function or step-plus-function limitation as permitted under 35 U.S.C. 112(f), the construction of the
claim must identify the specific portions of the specification that describe the structure, material, or acts
corresponding to each claimed function;
(4) How the construed claim is unpatentable under
the statutory grounds identified in paragraph (b)(2)

178a
of this section. Where the grounds for unpatentability are based on prior art, the petition must specify
where each element of the claim is found in the prior
art. For all other grounds of unpatentability, the petition must identify the specific part of the claim that
fails to comply with the statutory grounds raised and
state how the identified subject matter fails to comply with the statute; and
(5) The exhibit number of supporting evidence relied
upon to support the challenge and the relevance of
the evidence to the challenge raised, including identifying specific portions of the evidence that support
the challenge. The Board may exclude or give no
weight to the evidence where a party has failed to
state its relevance or to identify specific portions of
the evidence that support the challenge.
(c) A motion may be filed that seeks to correct a clerical
or typographical mistake in the petition. The grant of
such a motion does not change the filing date of the petition.

